No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

KENNETH SEALEY, in his
individual capacity; and
ROBERT E. PRICE, Administrator C.T.A.
of the Estate of Joel Garth Locklear, Sr.,
Petitioners,
v.

J. DUANE GILLIAM, Guardian of the
Estate of Leon Brown; and
RAYMOND C. TARLTON, Guardian Ad
Litem for Henry Lee McCollum,
Respondents.
-------------------------- ♦ --------------------------

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Fourth Circuit
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

James R. Morgan, Jr.
Counsel of Record
Bradley O. Wood
Sonny S. Haynes
WOMBLE BOND DICKINSON (US) LLP
One West Fourth Street
Winston-Salem, North Carolina 27101
(336) 721-3600
jim.morgan@wbd-us.com
brad.wood@wbd-us.com
sonny.haynes@wbd-us.com
Counsel for Petitioners

Dated: November 22, 2019

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTIONS PRESENTED
The questions presented here are:
1.

Did the Fourth Circuit err in holding that
District Courts are not required to properly
apply the qualified immunity analysis as to
each officer and each claim at the Rule 56
summary judgment stage?

2.

Did the Fourth Circuit err in holding that in
cases where the qualified immunity defense is
properly raised and argued, a District Court
may nevertheless refuse to rule, at the
summary judgment stage, on each individual
officer’s entitlement to qualified immunity as
to each claim?

3.

Did the Fourth Circuit err in holding that a
District Court need not rule on an individual
officer’s entitlement to qualified immunity at
the Rule 56 summary judgment stage if the
Court deems the facts to be “convoluted?”

4.

Did the Fourth Circuit err in holding that a
District Court need not rule on individual
officer’s entitlement to summary judgment at
the Rule 56 summary judgment stage if
Plaintiffs simply make an allegation that
officers “acted in concert to violate their
constitutional rights?”

In this case, the defendants Kenneth Sealey
and Robert E. Price, as Administrator C.T.A. of the

ii
Estate of Joel Garth Locklear, Sr.1 properly raised the
qualified immunity defense, and clearly argued to the
District Court at the Rule 56 summary judgment
stage that both Sealey and Locklear were entitled to
qualified immunity as to each claim asserted by
Plaintiffs. Nevertheless, in denying Sealey and
Locklear’s motion for summary judgment, the District
Court failed to apply the qualified immunity analysis
as to each individual officer as to each of Plaintiffs’
claims. Instead, the District Court stated that, “in
light of plaintiffs’ allegations that defendants worked
in concert to deny the plaintiffs their constitutional
rights, as well as the specifics regarding the grouping
of SBI and Robeson County defendants to engage in
different aspects of Plaintiffs’ interrogations, arrests,
and investigations, the Court will not at this time
attempt to parse the liability of each officer as it
relates to each claim.” App. 84a. In other words, the
District Court refused to apply the qualified
immunity analysis to the specific actions of Sealey
and Locklear at the summary judgment stage and,
instead, postponed until trial a ruling on Sealey and
Locklear’s entitlement to qualified immunity as to
each of Plaintiffs’ claims. Id.
The Fourth Circuit affirmed the District
Court’s refusal to rule on Sealey and Locklear’s
entitlement to qualified immunity as to each of
Plaintiffs’ claims at the summary judgment stage,
holding that “it would be counterproductive to require
Shortly after being served, Officer Joel Garth Locklear, Sr.
passed away. Thereafter, Robert E. Price, as Administrator
C.T.A. of the Estate of Joel Garth Locklear, Sr., was substituted
as a party. In an attempt to avoid confusion, this Petition will
refer to this defendant as “Locklear.”

1

iii
a district court to wade through convoluted issues of
fact at this stage” in order to determine Sealey and
Locklear’s entitlement to qualified immunity. App.
22a.

iv
PARTIES TO THE PROCEEDING
The Petitioners in this case are Kenneth
Sealey, in his individual capacity; and Robert E.
Price, Administrator C.T.A. of the Estate of Joel
Garth Locklear, Sr.; who were defendants in the
proceedings below.
The Respondents in this case are J. Duane
Gilliam, Guardian of the Estate of Leon Brown; and
Raymond C. Tarlton, Guardian Ad Litem for Henry
Lee McCollum; who were plaintiffs in the proceedings
below.
Additional remaining defendants in this case
are Kenneth Snead and Leroy Allen, former agents of
the North Carolina State Bureau of Investigations.
Former defendants in this case are the Town of
Red Springs, North Carolina, and its former officers,
Larry Floyd and the Estate of Luther Haggins. These
Red Springs defendants were dismissed pursuant to
a settlement.
STATEMENT OF RELATED CASES
x

Tarlton for McCollum v. Sealey, No. 5:15-CV-451BO, U.S. District Court for the Eastern District of
North Carolina. Judgment entered Mar. 1, 2018.

x

Gilliam v. Sealey, Nos. 18-1366 and 18-1402, U.S.
Court of Appeals for the Fourth Circuit. Judgment
entered July 30, 2019.

v
TABLE OF CONTENTS
Page(s)
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDING .......................... iv
STATEMENT OF RELATED CASES ...................... iv
TABLE OF CONTENTS............................................. v
TABLE OF AUTHORITIES ...................................... ix
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOKED ........................................... 1
INTRODUCTION ....................................................... 3
STATEMENT OF THE CASE ................................... 5
I.

Factual Introduction ........................................ 5

II.

Proceedings ...................................................... 6
A.

District Court ........................................ 6

B.

The Fourth Circuit Court of
Appeals ................................................ 20

REASONS FOR GRANTING THE WRIT ............... 23

vi
I.

THE FOURTH CIRCUIT OPINION IS IN
CONFLICT WITH BINDING SUPREME
COURT AUTHORITY IN ITS RULING
THAT THE DISTRICT COURT WAS NOT
REQUIRED TO PROPERLY APPLY THE
QUALIFIED IMMUNITY ANALYSIS AT
THE RULE 56 STAGE AS TO EACH
OFFICER AND EACH CLAIM ..................... 23
A.

A District Court Must Rule Upon
the Qualified Immunity Issue, As to
Each Individual Officer and Each
Claim, at the Rule 56 Stage And
Cannot Postpone the Ruling Until
Trial ..................................................... 23
1.

The duty of the district court
and the Fourth Circuit panel
to properly apply the qualified
immunity analysis at the
Rule 56 stage as to Sealey
and Locklear is not excused
where, as here, Sealey and
Locklear properly raised
and argued the qualified
immunity defense ..................... 25

2.

The duty of the District Court
and the Fourth Circuit panel
to properly apply the qualified
immunity analysis at the
Rule 56 stage as to each
officer and each claim is not
excused because the facts
may be “convoluted” ................. 32

vii
3.

The Fourth Circuit’s holding
that a Court need not rule
on an individual officer’s
entitlement
to
qualified
immunity at the summary
judgment stage if a plaintiff
“alleges” that multiple officers
“acted in concert” is in conflict
with binding Supreme Court
precedent holding that a
plaintiff must prove that
each officer, through his own
individual actions, violated
the Constitution ........................ 33

CONCLUSION ......................................................... 39
APPENDIX:
Published Opinion of
The United States Court of Appeals
For the Fourth Circuit
entered July 30, 2019 .......................... 1a
Order of
The United States District Court
For the Eastern District of North Carolina
entered March 1, 2018 ...................... 49a
Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for Rehearing
En Banc
entered August 27, 2019 ................... 87a

viii
Brief in Support of Motion for Summary
Judgment (on Behalf of Defendants
Robert E. Price, as Administrator C.T.A.
of the Estate of Joel Garth Locklear,
and Kenneth Sealey)
entered April 3, 2017......................... 90a
Statement of Undisputed Material Facts
Pursuant to Local Civil Rule 56.1 of
Defendants Kenneth Sealey and
Robert E. Price, as Administrator C.T.A.
of the Estate of Joel Garth Locklear, Sr.
entered April 3, 2017....................... 134a
Reply Brief in Support of Motion for
Summary Judgment (on Behalf of
Defendants Kenneth Sealey and
Robert E. Price, as Administrator C.T.A.
of the Estate of Joel Garth Locklear),
With Attachment,
entered May 5, 2017 ........................ 188a
Appellants’ Petition for Rehearing and
Petition for Rehearing En Banc
entered August 13, 2019 ................. 210a

ix
TABLE OF AUTHORITIES
Page(s)
CASES
Anderson v. Creighton,
483 U.S. 635, 107 S. Ct. 3034 (1987) ............. 24
Anderson v. Liberty Lobby,
477 U.S. 242, 106 S. Ct. 2505,
91 L.Ed.2d 202 (1986) .............................. 17, 37
Ashcroft v. al-Kidd,
____ U.S. ____, 131 S. Ct. 2074 (2011) .......... 24
Ashcroft v. Iqbal,
556 U.S. 662 (2009) .................................. 23, 33
Bakalis v. Golembeski,
35 F.3d 318 (7th Cir. 1994) ............................ 36
Celotex Corp. v. Catrett,
477 U.S. 317, 106 S. Ct. 2548,
91 L.Ed.2d 265 (1986) .................................... 17
City of Escondido v. Emmons,
139 S. Ct. 500 (2019) ...................................... 34
Crawford-El v. Britton,
523 U.S. 574, 118 S. Ct. 1584,
140 L.Ed.2d 759 (1998) .................................. 17
Cunningham v. Gates,
229 F.3d 1271 (9th Cir. 2000) ........................ 36
Dorsey v. Barber,
517 F.3d 389 (6th Cir. 2008) .......................... 36

x
First National Bank of Arizona v. Cities Service Co.,
391 U.S. 253, 88 S. Ct. 1575 (1968) ............... 37
Ghandi v. Police Dep’t of City of Detroit,
747 F.2d 338 (6th Cir. 1984) ..................... 36-37
Gilliam v. Sealey,
932 F.3d 216 (4th Cir. 2019) .................. passim
Grant v. City of Pittsburgh,
98 F.3d 116 (3d Cir. 1996) ............................. 36
Harlow v. Fitzgerald,
457 U.S. 800, 102 S. Ct. 2727,
73 L.Ed.2d 396 (1982) ........................ 23, 24, 35
Hope v. Pelzer,
536 U.S. 730, 122 S. Ct. 2508 (2002) ........ 33-34
Hunter v. Bryant,
502 U.S. 224, 112 S. Ct. 534 (1991) ........... 3, 23
Krutko v. Franklin County, Ohio,
559 Fed. Appx. 509 (6th Cir. 2014) ............... 35
Mitchell v. Forsyth,
472 U.S. 511, 105 S. Ct. 2806,
86 L.Ed.2d 411 (1985) .......................... 3, 23, 24
North Carolina v. McCollum,
321 N.C. 557, 364 S.E.2d 112 (1988) ............... 6
Pahls v. Thomas,
718 F.3d 1210 (10th Cir. 2013) ................ 34, 35
Poe v. Leonard,
282 F.3d 123 (2d Cir. 2002) ........................... 36

xi
Reitz v. County of Bucks,
125 F.3d 139 (3d Cir. 1997) ........................... 36
Rouse v. Plantier,
182 F.3d 192 (3d Cir. 1999) ........................... 36
Saucier v. Katz,
533 U.S. 194, 121 S. Ct. 2151,
150 L.Ed.2d 272 (2001) .......................... passim
Scott v. Harris,
550 U.S. 372, 127 S. Ct. 1769 (2007) ............. 32
Siegert v. Gilley,
500 U.S. 226, 111 S. Ct. 1789 (1991) ............. 25
State v. Brown,
112 N.C. App. 390, 436 S.E.2d 163 (1993),
aff’d, 339 N.C. 606, 453 S.E.2d 165 (1995) ...... 6
State v. McCollum,
334 N.C. 208, 433 S.E.2d 144 (1993), cert.
den., 512 U.S. 1254, 114 S. Ct. 2784 (1994) .... 6
Vietnam Veterans of Am. v. McNamara,
No. CIV.A. 02-2123(RMC),
2005 WL 485341 (D.D.C. Feb. 17, 2005),
aff’d, 201 Fed. Appx. 779 (D.C. Cir. 2006) .... 35
Waldrop v. Evans,
871 F.2d 1030 (11th Cir. 1989) ...................... 36
CONSTITUTIONAL PROVISIONS
U.S. CONST. amend. IV ..................................... 1, 7, 18
U.S. CONST. amend. XIV ............................................. 2

xii
STATUTES
28 U.S.C. § 1254(1) ..................................................... 1
42 U.S.C. § 1983................................................ passim
N.C. Gen. Stat. § 15A-269 .......................................... 6
N.C. Gen. Stat. § 15A-270 .......................................... 6

1
PETITION FOR WRIT OF CERTIORARI
Petitioners Kenneth Sealey and Robert E.
Price, Administrator C.T.A. of the Estate of Joel
Garth Locklear, Sr. respectfully petition for a writ of
certiorari to review the published judgment and
decision of the United States Court of Appeals for the
Fourth Circuit entered in this case on July 30, 2019,
and published at Gilliam v. Sealey, 932 F.3d 216 (4th
Cir. 2019).
OPINIONS BELOW
The Fourth Circuit panel’s opinion is published
at Gilliam v. Sealey, 932 F.3d 216 (4th Cir. 2019), and
is reproduced in the Appendix (“App.”) filed herewith
at App. 1a–48a. The opinion of the United States
District Court was not published, but is reproduced at
App. 49a–86a.
JURISDICTION
The judgment of the United States Court of
Appeals for the Fourth Circuit was entered on July
30, 2019. App. 1a–48a. The Fourth Circuit denied
the Petitioners’ petition for rehearing and petition for
rehearing en banc on August 27, 2019. App. 87a–89a.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOKED
Plaintiffs allege that Officer Sealey and Officer
Locklear violated their civil rights under the Fourth
Amendment to the United States Constitution, which
states:

2
The right of the people to be secure in
their persons, houses, papers, and
effects, against unreasonable searches
and seizures, shall not be violated, and
no Warrants shall issue, but upon
probable cause, supported by Oath or
affirmation, and particularly describing
the place to the searched, and the
persons or things to be seized.
Plaintiffs also allege that Officer Sealey and
Officer Locklear violated the Due Process Clause of
the Fourteenth Amendment, which states in relevant
part as follows:
No state shall . . . deprive any person of
life, liberty, or property, without due
process of law[.]
Plaintiffs brought the underlying action under
42 U.S.C. § 1983, which states:
Every person who, under color of any
statute, ordinance, regulation, custom,
or usage, of any State or Territory or the
District of Columbia, subjects, or causes
to be subjected, any citizen of the United
States or other person within the
jurisdiction thereof to the deprivation of
any rights, privileges, or immunities
secured by the Constitution and laws,
shall be liable to the party injured in an
action at law, suit in equity, or other
proper proceeding for redress, except
that in any action brought against a
judicial officer for an act or omission
taken in such officer’s judicial capacity,

3
injunctive relief shall not be granted
unless a declaratory decree was violated
or declaratory relief was unavailable.
For the purposes of this section, any Act
of Congress applicable exclusively to the
District of Columbia shall be considered
to be a statute of the District of
Columbia.
INTRODUCTION
Under clear and longstanding Supreme Court
precedent, a district court is required to rule upon the
qualified immunity issues at the earliest possible
stage of the proceedings, because qualified immunity
is an entitlement not to stand trial or face the other
burdens of litigation. See Saucier v. Katz, 533 U.S.
194, 200-201, 121 S. Ct. 2151, 2156 (2001); Hunter v.
Bryant, 502 U.S. 224, 227, 112 S. Ct. 534 (1991) (per
curiam). Therefore, under Supreme Court precedent,
when a public officer moves for summary judgment on
the ground or basis of qualified immunity, a District
Court is required to rule upon the qualified immunity
issue at the Rule 56 stage as to each of a plaintiff’s
asserted claims, Saucier, supra., and cannot refuse to
rule on the qualified immunity issue as to any claim
at the Rule 56 stage. Otherwise, the officer’s qualified
immunity as to each of a plaintiff’s asserted claims “is
effectively lost[.]” Mitchell v. Forsyth, 472 U.S. 511,
526, 105 S. Ct. 2806 (1985).
In spite of clear and direct guidance from the
Supreme Court on this point, the District Court
refused to fulfill its duty to rule on the issue of
whether Officer Sealey and Officer Locklear were
entitled to qualified immunity at the Rule 56 stage on

4
each of Plaintiffs’ asserted claims. Instead, the
district court stated that “in light of plaintiffs’
allegations that defendants worked in concert to deny
the plaintiffs their constitutional rights, as well as the
specifics regarding the grouping of SBI and Robeson
County defendants to engage in different aspects of
plaintiffs’ interrogations, arrests, and investigations,
the Court will not at this time attempt to parse the
liability of each officer as it relates to each claim.”
App. 84a.
The Fourth Circuit, in its published opinion,
also ignored clear Supreme Court precedent directing
that a district court must rule on the qualified
immunity issue at the Rule 56 stage as to every claim
asserted by Plaintiffs. Instead, the Fourth Circuit
held that “it would be counterproductive to require a
district court to wade through convoluted issues of
fact” to determine the individual officers’ entitlement
to qualified immunity as to each of Plaintiffs’ claims
in this case. Gilliam v. Sealey, 932 F.3d 216, 229-30
(4th Cir. 2019). This is directly contrary to Supreme
Court directives that a district court is required to
rule upon the qualified immunity issues at the
earliest possible stage of the proceedings – in this
case, at the summary judgment stage.
The Court should grant this Petition on all
questions or, alternatively, summarily reverse the
Fourth Circuit. The Fourth Circuit should not be
permitted to defy, ignore, or circumvent the clear
directives of this Court that when a public officer
moves for summary judgment on the ground of
qualified immunity, a district court is required to rule
upon the qualified immunity issue at the summary

5
judgment stage as to each of the Plaintiffs’ asserted
claims.
STATEMENT OF THE CASE
I.

Factual Introduction

On September 24, 1983, eleven-year-old
Sabrina Buie, an African American female, went
missing. Her nude body was found in a soybean field
in Red Springs, North Carolina on September 26,
1983.
The same day, the Red Springs Police
Department asked the North Carolina State Bureau
of Investigations (“SBI”) to take control of the
criminal investigation.
Local law enforcement officers, including
Officer Sealey and Officer Locklear of the Robeson
County Sheriff’s Office, worked on the investigation
under the supervision of the SBI. There were a
number of officers involved in the investigation and
different officers worked on different aspects of the
case. For example, the processing of the crime scene
was conducted by SBI Agent Allen. Furthermore,
only three of the officers—Snead, Allen, and Sealey—
interviewed McCollum. Two other officers, Chief
Haggins of Red Springs and Locklear, interviewed
Brown. Neither Sealey nor Locklear was in any way
involved with obtaining or processing any physical
evidence, requesting that any evidence be examined
or processed by the North Carolina Crime Lab, or the
cancellation of any such request.
On September 29, 1983, Henry McCollum and
Leon Brown confessed to participating in the rape and
murder of Buie. McCollum and Brown were indicted
by a grand jury on January 3, 1984, on charges of

6
first-degree murder and rape. They were tried and
convicted in October of 1984.
On appeal, the North Carolina Supreme Court
reversed and remanded for a new trial based on an
error in the jury instructions. North Carolina v.
McCollum, 321 N.C. 557, 364 S.E.2d 112 (1988). In
1991, McCollum was found guilty by a jury of firstdegree murder and rape. In 1992, Brown was found
guilty by a jury of first-degree rape. Both convictions
were affirmed on appeal. State v. McCollum, 334 N.C.
208, 433 S.E.2d 144 (1993), cert. den., 512 U.S. 1254,
114 S. Ct. 2784 (1994); State v. Brown, 112 N.C. App.
390, 436 S.E.2d 163 (1993), aff’d, 339 N.C. 606, 453
S.E.2d 165 (1995).
McCollum and Brown filed a motion for
appropriate relief based on newly discovered DNA
evidence—i.e., a cigarette butt found at or near the
crime scene containing DNA matching Roscoe Artis.
The motion was brought under N.C. Gen. Stat. §§ 15A269 and 15A-270, statutes dealing with relief
available to convicts who come forward with favorable
DNA evidence post-conviction. In September of 2014,
a Robeson County Superior Court judge granted the
motion for appropriate relief of McCollum and Brown
based on the DNA evidence, vacated their convictions,
and dismissed the charges against them.
II.

Proceedings
A.

District Court

Plaintiffs filed suit against a number of
defendants, including Kenneth Sealey and Joel Garth

7
Locklear, Sr., arising out of the alleged wrongful
arrests and convictions of Plaintiffs.2
Plaintiffs asserted the following claims: (1) a
42 U.S.C. § 1983 claim brought under the Fourth
Amendment for “false arrest” (JA 134-136); (2) a claim
under 42 U.S.C. § 1983 under the Fourth Amendment
for “malicious prosecution” (JA 140-142); and (3) a
claim under 42 U.S.C. § 1983 for “deprivation of due
process” (JA 136-140).
Plaintiffs’ Fourth Amendment claims are based
on the allegation that the officers who questioned
McCollum (Snead, Sealey, and Allen) coerced
McCollum into confessing, and that the different
officers who questioned Brown (Haggins and
Locklear) coerced Brown into confessing. App. 83a.
The Plaintiffs’ Due Process claims were ultimately
based on the following assertions: (1) the officers who
questioned McCollum (Snead, Sealey, and Allen)
“fabricated” McCollum’s confession; (2) the officers
who questioned Brown (Haggins and Locklear)
“fabricated” Brown’s confession; (3) unspecified
“defendants” failed to investigate and/or withheld
evidence regarding the “similarities between the rape
and murder of … Buie and the rapes and murders
committed by … Artis”; (4) “Defendants” withheld
evidence of a statement by a witness, Mary Richards,
that she witnessed Artis attacking Buie; (5) unnamed
“defendants” coerced L.P. Sinclair to testify against
Plaintiffs (JA 322); and (6) unnamed “defendants”
Shortly after being served, Officer Joel Garth Locklear, Jr.
passed away. Thereafter, Robert E. Price, as Administrator
C.T.A. of the Estate of Joel Garth Locklear, Sr., was substituted
as a party. In an attempt to avoid confusion, this Petition will
refer to this defendant as “Locklear.”
2

8
were somehow responsible for the State’s failure to
test fingerprints of Sinclair and Artis in 1984. (JA
327).
Defendants Sealey and Locklear moved for
summary judgment on all claims. In the summary
judgment brief and the statement of material facts
filed by Sealey and Locklear, Sealey and Locklear
pointed out facts showing, among other things, that
during the investigation, Locklear and Sealey worked
under the direction of the SBI; neither Sealey nor
Locklear were involved in the processing of the crime
scene; that Locklear was not involved in questioning
McCollum; that Sealey was not involved in
questioning Brown; Sealey and Locklear provided
copies of all notes and documents that they created or
obtained to members of the SBI with the
understanding that the notes and documents would
be produced to the District Attorney’s Office; neither
Sealey nor Locklear had any involvement in obtaining
or processing any physical evidence; neither Sealey
nor Locklear had any involvement in requesting that
any evidence be examined or processed by the North
Carolina Crime Lab or the cancellation of any such
request. App. 96a, 134a.
In their Brief in Support of Motion for
Summary Judgment, the defendants Sealey and
Locklear first argued that the Plaintiffs had not
shown that either defendant Sealey or defendant
Locklear had taken any action that violated Plaintiffs’
constitutional rights. App. 90a–133a. Defendants
then clearly and specifically made “individualized”
qualified immunity arguments, arguing that
defendant Sealey, in his individual capacity, and
defendant Locklear, in his individual capacity, were

9
each entitled to qualified immunity in light of the
specific actions taken by each officer, the specific facts
of the case, and established law. More particularly,
in the summary judgment brief filed in the District
Court by Sealey and Locklear, Sealey and Locklear
made the following argument:
PLAINTIFFS’ FEDERAL CLAIMS
AGAINST SEALEY AND LOCKLEAR,
IN THEIR INDIVIDUAL CAPACITIES,
FAIL AS A MATTER OF LAW
BECAUSE SEALEY AND OFFICER
LOCKLEAR ARE ENTITLED TO
QUALIFIED IMMUNITY
A court required to rule upon the
qualified immunity issue considers
whether the plaintiff has proved that a
constitutional
violation
occurred.
Saucier v. Katz, 533 U.S. 194, 201, 121
S.Ct. 2151, 2156 (2001). If there has
been no constitutional violation, then
the officers are entitled to qualified
immunity. Saucier, supra. However, if
the facts could establish a constitutional
violation, the Court must analyze
whether the constitutional right alleged
to have been violated was “clearly
established” at the time of the officer’s
actions. Id. In considering this second
prong of the Saucier framework, the key
issue is whether the law “gave the
officials ‘fair warning’ that their conduct
was unconstitutional.” Ridpath v. Board
of Governors Marshall Univ., 447 F.3d
292, 313 (4th Cir. 2006). For the right to

10
have been clearly established, “existing
precedent
must
have
placed
the…constitutional question beyond
debate.” Ashcroft v. al-Kidd, 563 U.S.
731, 741, 131 S. Ct. 2074, 2083 (2011).
“[T]he ‘contours of the right’ must have
been so conclusively drawn as to leave no
doubt that the challenged action was
unconstitutional.” Swanson v. Powers,
937 F.2d 965, 969 (4th Cir. 1991),
quoting Anderson v. Creighton, 483 U.S.
635, 640, 107 S. Ct. 3034 (1987). Thus,
the inquiry into whether the right was
clearly established must “be undertaken
in light of the specific context of the case”
and “not as a broad general
proposition….” Saucier, supra. See
White v. Pauly, 137 S.Ct. 548, 552, 137
L.Ed.2d 548 (2017) (reiterating the
“longstanding principle that ‘clearly
established law’ should not be defined ‘at
a high level of generality,’” but must be
“particularized to the facts of the case”).
The
doctrine
of
qualified
immunity serves fundamental concerns
of fairness: “Officers sued in a civil
action for damages…have the same
right to fair notice as to defendants
charged with criminal offense[s].” Hope
v. Pelzer, 536 U.S. 730, 739, 122 S. Ct.
2508 (2002). “[T]he qualified immunity
test is simply the adaptation of the fair
warning standard to give officials…the
same protection from civil liability and
its consequences that individuals have

11
traditionally possessed in the face of
vague criminal statutes.” United States
v. Lanier, 520 U.S. 259, 270-71, 117 S.
Ct. 1219 (1997). In other words, officers
are entitled to qualified immunity “if a
reasonable officer possessing the same
information could have believed that his
conduct was lawful.” Slattery v. Rizzo,
939 F.2d 213, 216 (4h Cir. 1991)
(emphasis added). The “safe harbor” of
qualified immunity “ensures that
officers will not be liable for ‘bad guesses
in gray areas’ but only for ‘transgressing
bright lines.’” Doe v. Broderick, 225 F.3d
440, 453 (4th Cir. 2000) (citations
omitted).
Thus, an officer will be
entitled to qualified immunity unless
“every reasonable official would have
understood that what he [was] doing”
violated the Constitution. Ashcroft v. alKidd, 131 S. Ct. at 2083, quoting
Anderson, 483 U.S. at 640.
As shown at length above, Sealey
and Locklear did not violate the
plaintiffs’
constitutional
rights.
However, even assuming arguendo that
the plaintiffs’ constitutional rights may
have been violated by these officers, it
was not clearly established, at the time
of the officers’ actions, that their actions
violated the Constitution. For example,
on the issue of probable cause, an officer
is entitled to qualified immunity “if
officers of reasonable competence could
disagree” on the issue of probable cause.

12
Mally v. Briggs, 475 U.S. 335, 341 and
346 n. 9, 106 S.Ct. 1092 (1988). In 1983,
suspects’ confessions were obviously
sufficient to provide probable cause, and
the case law existing in 1983 did not
clearly establish that the plaintiffs’
confessions were coerced under the
specific facts of this case. Indeed, a
Magistrate issued warrants, a Grand
Jury indicted both plaintiffs, every judge
to consider the issue held that the
plaintiffs’ confessions were voluntary,
both plaintiffs were convicted, and the
convictions were affirmed on appeal.
See McKinney v. Richland County
Sheriff’s Dept., 431 F.3d 415, 419 (4th
Cir. 2005) (holding that an officer was
entitled to qualified immunity in part
because a magistrate and prosecutor
concluded that probable cause existed).
See also, e.g., Keil v. Triveline, 661 F.3d
981, 986-87 (11th Cir. 2011) (Officers are
entitled to qualified immunity if there
was “arguable probable cause”). As to
the Due Process Brady-based claims,
it was not even clearly established
in 1984 that officers had the duty to
turn exculpatory evidence over to
prosecutors. See Jean v. Collins, 155
F.3d 701 (4th Cir. 1998), superseded by
Jean v. Collins, 221 F.3d 656 (4th Cir.
2000). However, in this case, Sealey and
Locklear gave all the information in
their possession to the SBI, with the
understanding and belief that all

13
evidence would be produced by the SBI
to prosecutors. This conduct does not
violate Due Process, and did not violate
“clearly established” Due Process law
as it existed in 1984. Furthermore,
plaintiffs cannot show that the moving
defendants fabricated any evidence, and
it cannot be argued, under the facts of
this case, that it was clearly established
that the evidence plaintiffs allege was
suppressed or fabricated was material
and/or the cause or proximate cause of
plaintiffs’ loss of liberty. In other words,
reasonable officers in the specific factual
scenario faced by Sealey and Locklear in
this case could have believed that their
conduct was lawful. Slattery, supra.
Therefore, Sealey and Locklear in their
individual capacities are entitled to
qualified immunity.
App. 124a–128a.
Similarly, in defendants Sealey and Locklear’s
Response in Opposition to Plaintiffs’ Motion for
Summary Judgment, defendants Sealey and Locklear
once again argued that Plaintiffs had not shown,
under the specific facts of this case, that either
defendant Sealey or defendant Locklear, through
their own personal individual actions, violated
Plaintiffs’ constitutional rights. (Doc. 177, pp. 14-27).
Defendants Sealey and Locklear then again argued
that they were each individually entitled to qualified
immunity:

14
DEFENDANTS
SEALEY
AND
LOCKLEAR, IN THEIR INDIVIDUAL
CAPACITIES, ARE ENTITLED TO
QUALIFIED IMMUNITY AS TO
PLAINTIFFS’ FEDERAL CLAIMS
AGAINST THEM
At pages 20-22, pars. 55-64 of
their motion/brief, the plaintiffs make
the absurd argument that they are
entitled to summary judgment as to the
defendants Sealey and Locklear’s claim
of entitlement to qualified immunity.
However, as shown in the summary
judgment brief of Sealey and Locklear
and below, the plaintiffs are not entitled
to summary judgment as to defendants’
defense of qualified immunity. Instead,
defendants Sealey and Locklear in their
individual capacities are entitled to
summary judgment as to all claims
because they are entitled to qualified
immunity.
The plaintiffs’ discussion of
qualified immunity contains a fatally
defective, fundamental flaw. Plaintiffs
discuss “clearly established law” at a
high level of generality instead of
focusing on the particularized facts of
this case. For example, at page 21 of
their motion/brief, plaintiffs argue that
defendants are not entitled to qualified
immunity because it was clearly
established that plaintiffs’ “had a Due
Process right to exculpatory material,”

15
had a “constitutional right to not be
prosecuted by fabricated evidence,” had
“a right not to be subjected to coercive
interrogation,” and that it was clearly
established that the Constitution forbids
“arresting people without probable
cause.”
As the United States Supreme
Court recently stated:
Today, it is again necessary to
reiterate
the
longstanding
principle that “clearly established
law” should not be defined “at a
high level of generality.” Ashcroft
v. al-Kidd, 563 U.S. 731, 742, 131
S. Ct. 2074, 179 L.Ed.2d 1149
(2011). As this Court explained
decades
ago,
the
clearly
established
law
must
be
“particularized” to the facts of the
case. Anderson v. Creighton, 483
U.S. 635, 640, 107 S. Ct. 3034, 97
L.Ed.2d 523 (1987). Otherwise,
“[p]laintiffs would be able to
convert the rule of qualified
immunity…into a rule of virtually
unqualified immunity simply by
alleging violation of extremely
abstract rights.” Id., at 639, 107
S.Ct. 3034.
White v. Pauly, ___ U.S. ___, 137 S. Ct.
548, 552 (2017).

16
Thus, the inquiry into whether
the right was clearly established must
“be undertaken in light of the specific
context of the case” and “not as a broad
general proposition. . . .” Saucier v.
Katz, 533 U.S. 194, 201, 121 S. Ct. 2151,
2156 (2001). “The relevant, dispositive
inquiry in determining whether a right
is clearly established is whether it would
be clear to a reasonable officer that his
conduct was unlawful in the situation he
confronted.” Saucier, supra. If the right
was not “clearly established” in the
“specific context of the case,” that is, if it
was not “clear to a reasonable officer”
that the conduct in which he allegedly
engaged “was unlawful in the situation
he confronted,” then the law affords
immunity from suit. Saucier, supra. In
other words, officers are entitled to
qualified immunity “if a reasonable
officer possessing the same information
could have believed that his conduct was
lawful.” Slattery v. Rizzo, 939 F.2d 213,
216 (4th Cir. 1991) (emphasis added).
In the instant case, when the
doctrine of qualified immunity is
analyzed correctly, it is clear that Sealey
and Locklear are entitled to qualified
immunity. First, the facts establish
that Sealey and Locklear did not violate
the plaintiffs’ constitutional rights.
However, even assuming arguendo
that plaintiffs’ rights may have been
violated, it was not clearly established,

17
at the time of the officers’ actions, that
the officers’ specific actions violated
the Constitution.
Thus, under the
circumstances, defendants Sealey and
Locklear in their individual capacities
are entitled to qualified immunity and
therefore are entitled to summary
judgment.
(Doc. 177, pp. 27-29).
Under established Supreme Court law, all
Sealey and Locklear had to do at the summary
judgment stage was to “ ‘show [ ]’ – that is, point [ ]
out to the district court – that there is an absence of
evidence to support the nonmoving part[ies] case.”
Celotex Corp. v. Catrett, 477 U.S. 317, 324, 106 S. Ct.
2548, 2554, 91 L.Ed.2d 265 (1986). Once Sealey and
Locklear met their burden of showing that there was
an absence of evidence to support Plaintiffs’ claims
against them, Plaintiffs had the mandatory duty at
the summary judgment stage to demonstrate that a
triable issue of fact existed as to each asserted claim
against Sealey and each asserted claim against
Locklear. Anderson v. Liberty Lobby, 477 U.S. 242,
248, 106 S. Ct. 2505, 2510, 91 L.Ed.2d 202 (1986).
Under established Supreme Court precedent,
Plaintiffs could not defeat Sealey and Locklear’s
summary judgment motion with mere allegations or
general denials. Id. This well-established law
applies, of course, to summary judgment motions in
which a defendant invokes the defense of qualified
immunity. See, e.g., Crawford-El v. Britton, 523 U.S.
574, 600, 118 S. Ct. 1584, 1598, 140 L.Ed.2d 759
(1998).

18
In the instant case, Sealey and Locklear met
their burden of pointing out to the District Court that
there was an absence of evidence to support Plaintiffs’
claims against them. Under clear Supreme Court
precedent, at the Rule 56 stage, Plaintiffs had the
duty to demonstrate that a triable issue of fact existed
as to each claim against Sealey and each claim
against Locklear. However, Plaintiffs failed to fulfill
this duty. Specifically, Plaintiffs failed to identify
specific facts showing that the specific actions of
Sealey, and/or the specific actions of Locklear,
violated Plaintiffs’ Fourth Amendment rights or Due
Process rights. Instead, Plaintiffs, in their response
to Sealey and Locklear’s summary judgment brief,
made
general
allegations
regarding
what
“defendants” allegedly did, without specifically
referencing evidence of specific actions taken by
Sealey or specific actions taken by Locklear. (Pls.’
Resp. to Sealey and Locklear’s Motion for Summ.
Judgment, Doc. 185).
Finally, in their Reply Brief in Support of
Motion for Summary Judgment, defendants Sealey
and Locklear again reiterated that they each were
entitled to qualified immunity.
PLAINTIFFS’
CLAIMS
AGAINST
SEALEY AND LOCKLEAR IN THEIR
INDIVIDUAL CAPACITIES FAIL AS A
MATTER OF LAW BECAUSE SEALEY
AND LOCKLEAR ARE ENTITLED TO
QUALIFIED IMMUNITY
As shown in defendants’ summary
judgment brief at pages 25-28, the
defendants Sealey and Locklear are

19
entitled to qualified immunity as to all
claims. Defendants Sealey and Locklear
incorporate by reference their response
to Plaintiffs’ summary judgment
motion/brief at pages 27-29.
App. 143a.
In an Order dated March 1, 2018, the district
court denied the motions for summary judgment of
Sealey and Locklear in their individual capacities as
to all claims, rejecting the officers’ claims of
entitlement to qualified immunity. In so ruling, the
district court failed to fulfill its duty to analyze each
claim of plaintiffs as to each individual defendant.
First, the District Court stated that, “[g]enuine issues
of material fact exist as to whether Plaintiffs’
constitutional rights were violated,” without any
reference to what action or actions of Sealey or
Locklear violated which Plaintiffs’ rights. App. 69a.
Later in its decision, the District Court stated that,
“the Court cannot determine at this time whether
Plaintiffs’ constitutional rights were violated,”
without regard to what specific actions of which
defendant may have violated Plaintiffs’ rights. App.
84a. Finally, the District Court made it clear that it
was not going to analyze what action or action of
which individual defendant violated which Plaintiffs’
constitutional rights. Instead, the district court
stated that, “in light of plaintiffs’ allegations that
defendants worked in concert to deny the plaintiffs
their constitutional rights, as well as the specifics
regarding the grouping of SBI and Robeson County
defendants to engage in different aspects of plaintiffs’
interrogations, arrests, and investigations, the Court
will not at this time attempt to parse the liability of

20
each officer as it relates to each claim.” App. 84a.
(emphasis added). In other words, the district court
refused to apply the qualified immunity analysis to
the specific actions of Sealey and Locklear at the Rule
56 stage; instead, the District Court postponed a
ruling on Sealey and Locklear’s qualified immunity
claims until trial. This was clear error under binding
Supreme Court authority.
B.

The Fourth Circuit Court of Appeals

The Fourth Circuit issued its published
decision on July 30, 2019. Gilliam v. Sealey, 932 F.3d
216 (4th Cir. 2019). The Fourth Circuit opinion
erroneously held that it was permissible for a district
court to fail to fulfill its duty to analyze each
individual defendant’s entitlement to qualified
immunity as to each claim at the Rule 56 stage.
Specifically, the Fourth Circuit stated as follows:
Appellants assert that the district
court broadly misapplied the test for
qualified immunity because it did not
identify “what each individual officer
knew, when he knew it, and what
specific actions he did or did not
take.” Appellants’ Br. 20. Critically,
Appellants did not argue before the
district court that individual officers
were entitled to qualified immunity
based on the officer’s individual actions,
but instead asserted collective qualified
immunity defenses. In other words,
Appellants fault the district court for not
identifying and resolving in their favor

21
individual liability arguments that
Appellants themselves did not raise.
It is true that the defense of qualified
immunity is a defense for individual
defendants.
But
it
would
be
counterproductive to require a district
court to wade through convoluted
issues of fact at this stage in order to
determine individual liability, where:
(1)
Appellants
did
not
raise
individualized
qualified
immunity
arguments before the district court but
instead asserted collective qualified
immunity defenses; (2) the facts have yet
to be resolved, and the district court only
determined whether qualified immunity
applies as a matter of law; and
(3) appellees alleged that Appellants
acted in concert to violate their
constitutional rights. Accordingly, the
district court did not improperly apply
the test for qualified immunity by
waiting to parse the liability of each
individual defendant as to each claim
until the facts are determined.
Gilliam, 932 F.3d at 229-30. In other words, the
Fourth Circuit held that the district court could
disregard its duty to analyze each individual
defendant’s entitlement to qualified immunity at the
Rule 56 stage – and, therefore, postpone ruling on
each officer’s entitlement to qualified immunity until
trial – because (1) the Fourth Circuit panel opinion
inaccurately stated that Sealey and Locklear did not
argue to the district court that these officers were

22
entitled to qualified immunity based on each officer’s
individual actions; (2) the facts were “convoluted”; (3)
the facts “have yet to be resolved” at trial; and (4) the
Plaintiffs “alleged” that the officers acted in concert to
violate their constitutional rights. App. 22a.
The Fourth Circuit opinion holding that a
district court can disregard its duty to analyze each
individual officer’s entitlement to qualified immunity
at the Rule 56 stage is clearly erroneous. Under
binding Supreme Court authority, a district court
(and a Circuit Court hearing the appeal de novo): (1)
must rule upon the qualified immunity issue at the
earliest possible stage of the proceeding; (2) must not
postpone a ruling on qualified immunity until after
the Rule 56 stage; (3) must hold plaintiffs to their
burden of showing that each officer, through his own
personal actions, violated the Constitution; and (4)
must properly apply the qualified immunity test at
the Rule 56 stage by analyzing whether each
individual officer is entitled to qualified immunity as
to each claim. This is explained in more detail below.
The Fourth Circuit denied the petition for
rehearing and petition for rehearing en banc on
August 27, 2019. App. 87a–89a.

23
REASONS FOR GRANTING THE WRIT
I.

THE FOURTH CIRCUIT OPINION IS IN
CONFLICT WITH BINDING SUPREME
COURT AUTHORITY IN ITS RULING
THAT THE DISTRICT COURT WAS NOT
REQUIRED TO PROPERLY APPLY THE
QUALIFIED IMMUNITY ANALYSIS AT
THE RULE 56 STAGE AS TO EACH
OFFICER AND EACH CLAIM
A.

A District Court Must Rule Upon the
Qualified Immunity Issue, As to
Each Individual Officer and Each
Claim, at the Rule 56 Stage And
Cannot Postpone the Ruling Until
Trial

Under binding United States Supreme Court
precedent, when an officer seeks a ruling from a
district court that he or she is entitled to qualified
immunity, the court is “required to rule upon the
qualified immunity issue” at the earliest possible
stage of the proceedings. See Saucier v. Katz, 533
U.S. 194, 200-201, 121 S. Ct. 2151, 2156 (2001). This
is because qualified immunity is “an entitlement not
to stand trial or face the other burdens of litigation,”
Mitchell v. Forsyth, 472 U.S. 511, 526 (1985), and it
is therefore important to “resolv[e] immunity
questions at the earliest possible stage of litigation.”
Hunter v. Bryant, 502 U.S. 224, 227, 112 S. Ct. 534
(1991) (per curiam). See also, e.g., Ashcroft v. Iqbal,
556 U.S. 662, 672 and 684-5 (2009); Saucier, 533 U.S.
at 201; Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).
As the Supreme Court has explained, actions
against public officials under § 1983 impose

24
“substantial social costs.” Anderson v. Creighton, 483
U.S. 635, 638, 107 S. Ct. 3034 (1987). They threaten
potentially significant personal liability for actions
that arise out of the performance of official duties, and
they can subject officials to burdensome and
distracting litigation. This could lead to undesirable
ex ante effects: reticence of officials in carrying out
important public functions and, perhaps worse, a
general disaffection with public service, rooted in the
calculation that its costs simply outweigh its benefits.
See Harlow v. Fitzgerald, 457 U.S. 800, 814, 102 S.
Ct. 2727, 73 L.Ed.2d 396 (1982).
To avoid these and other evils, the Supreme
Court has recognized that public officials enjoy
qualified immunity in civil actions that are brought
against them in their individual capacities and that
arise out of the performance of their duties. See
Anderson, 483 U.S. at 638, 107 S. Ct. 3034. Qualified
immunity is an “immunity from suit rather than a
mere defense to liability; and . . . it is effectively lost
if the case is erroneously permitted to go to trial.”
Mitchell v. Forsyth, 472 U.S. 511, 526, 105 S. Ct.
2806, 86 L.Ed.2d 411 (1985) (internal quotation
marks omitted). This standard, by design, “gives
government officials breathing room to make
reasonable but mistaken judgments about open legal
questions.” Ashcroft v. al-Kidd, ____ U.S. ____, 131 S.
Ct. 2074, 2085 (2011).
Moreover, as the Supreme Court has made
clear, the doctrine of qualified immunity is designed
to protect officers from unwarranted or unnecessary
demands customarily imposed upon defendants
defending lawsuits, and it is also designed to avoid
forcing officers to endure any unnecessary and/or

25
additional burdens of suit. See, e.g., Siegert v. Gilley,
500 U.S. 226, 232, 111 S. Ct. 1789 (1991) (“One of the
purposes of [qualified] immunity. . . is to spare a
defendant . . . unwarranted demands customarily
imposed upon those defending a … lawsuit"). Thus,
as the Supreme Court has made clear, district courts
must resolve immunity questions at the earlier
possible stage of litigation. Saucier, supra. In this
case, binding Supreme Court authority mandated
that the district court rule on the officers’ entitlement
to qualified immunity as to each Plaintiffs’ claims at
the Rule 56 stage.
Thus, it was error for the Fourth Circuit to hold
that a district court does not have to rule on each
individual defendant’s entitlement to qualified
immunity as to each of Plaintiffs’ claims at the Rule
56 stage, but instead can postpone such a ruling until
later.
1.

The duty of the district court and
the Fourth Circuit panel to
properly apply the qualified
immunity analysis at the Rule 56
stage as to Sealey and Locklear is
not excused where, as here,
Sealey and Locklear properly
raised and argued the qualified
immunity defense

The Fourth Circuit erroneously held that the
defendants “did not raise individualized qualified
immunity arguments before the district court, but
instead asserted collective qualified immunity
defenses,” and that the defendants “did not argue
before the district court that individual officers were

26
entitled to qualified immunity based on the officers’
individual actions[.]” App. 22a (emphasis in original).
The defendants Sealey and Locklear, in arguing that
they were entitled to qualified immunity as to each
and every claim, were necessarily asking the District
Court to apply the proper qualified immunity analysis
to the individual defendants based on each
defendant’s specific actions.
The test for qualified immunity necessarily
requires individualized inquiry into the specific
actions of each defendant. Further, even if the law
were such that the defendants needed to specifically
ask the District Court to determine qualified
immunity based on the specific actions of each
defendant, it is simply untrue that the defendants did
not do so. In Sealey and Locklear’s summary
judgment brief, the undersigned counsel explained
the law of qualified immunity, and argued that Sealey
and Locklear, in their individual capacities, were
entitled to qualified immunity, explaining that the
qualified immunity analysis “must be particularized
to the facts of the case,” and that “reasonable officers
in the specific factual scenario faced by Sealey and
Locklear could have believed that their conduct was
lawful.” App. 126a–127a. Similarly, in defendants
Sealey and Locklear’s response in opposition to
Plaintiffs’ motion for summary judgment, defendants
Sealey and Locklear made the following arguments:
Thus, the inquiry into whether the right
was clearly established must “be
undertaken of the specific context of the
case” and “not as a broad general
proposition. . . .” Saucier v. Katz, U.S.
194, 201, 121 S. Ct. 2151, 2156 (2001).

27
“The relevant, dispositive inquiry in
determining whether a right is clearly
established is whether it would be clear
to a reasonable officer that his conduct
was unlawful in the situation he
confronted.” Saucier, supra. If the right
was not ‘”clearly established” in the
“specific context of the case,” that is, if it
was not “clear to a reasonable officer”
that the conduct in which he allegedly
engaged “was unlawful in the situation
he confronted,” then the law affords
immunity from suit. Saucier, supra. In
other words, officers are entitled to
qualified immunity “if a reasonable
officer possessing the same information
could have believed that his conduct was
lawful.” Slattery v. Rizzo, 939 F.2d 213,
216 (4th Cir. 1991) (emphasis added).
In the instant case, . . . the facts
establish that Sealey and Locklear did
not violate the plaintiffs’ constitutional
rights.
However, even assuming
arguendo that plaintiffs’ rights may
have been violated, it was not clearly
established, at the time of the officers’
actions, that the officers’ specific actions
violated the Constitution. Thus, under
the circumstances, defendants Sealey
and Locklear in their individual
capacities are entitled to qualified
immunity . . . .
(D.E. 177, pp. 28-29). The above argument was also
incorporated into the reply brief of Sealey and

28
Locklear in support of their motion for summary
judgment. (D.E. 199, p. 7).
In fact, the Fourth Circuit decision in this case
has it backwards:
as shown at length above,
defendants Sealey and Locklear correctly sought
rulings that each of them was entitled to qualified
immunity.
It was Plaintiffs who argued for
“collective” liability by failing to identify or make
arguments regarding what specific actions were
taken by Sealey or by Locklear. Instead of pointing
out what specific actions of Sealey or Locklear
violated the Constitution, Plaintiffs simply argued
that “defendants” violated their rights. As this
Court well knows, the qualified immunity defense
applies solely to individual liability, not “collective”
liability.
In short, a review of the summary judgment
briefs of defendants Sealey and Locklear reveals that
they did in fact raise individualized qualified
immunity arguments before the district court. Thus,
the statement in the panel opinion that the
defendants “did not raise individualized qualified
immunity arguments” before the district court is not
an accurate statement.3

The undersigned attorneys, who have been counsel for Sealey
and Locklear since the beginning of this case, have for decades
made their living representing North Carolina public officers
and municipalities in Section 1983 cases. Thus, the Fourth
Circuit’s erroneous statement that the defendants, including
Sealey and Locklear, “did not raise individualized qualified
immunity arguments before the district court,” has the potential
for affecting the reputation and/or livelihood of the undersigned
attorneys. Therefore, the undersigned attorneys respectfully
request that even if this Court elects to not grant this Petition,

3

29
Disturbingly, the Fourth Circuit in this case
did not give any explanation as to what it meant when
it asserted that the defendants Sealey and Locklear
“did not raise individualized qualified immunity
arguments before the district court but instead
asserted collective qualified immunity defenses[.]”
Gilliam, 932 F.3d at 229. In light of the arguments
advanced by Sealey and Lockear at the Rule 56 stage,
set forth at length above, the Fourth Circuit’s
assertion that Sealey and Locklear “did not raise
individualized qualified immunity arguments”
amounts to a non sequitur. The defendants Sealey
and Locklear specifically argued at the Rule 56 stage
in the District Court that Sealey, in his individual
capacity, as well as Locklear, in his individual
capacity, were entitled to qualified immunity. Sealey
and Locklear made detailed arguments showing that
they were each entitled to qualified immunity because
neither Sealey nor Locklear violated Plaintiffs’
constitutional rights and because, “even assuming
arguendo that the plaintiffs’ constitutional rights may
have been violated by these officers [Sealey and
Locklear], it was not clearly established, at the time
of [Sealey and Locklear’s] actions, that their actions
violated the Constitution.” Defendants Sealey and
Locklear added: “In other words, reasonable officers
in the specific factual scenario faced by Sealey and
Locklear could have believed that their conduct was
lawful … Therefore, Sealey and Locklear in their
this Court issue an order directing the Fourth Circuit to correct
its erroneous statement that Sealey and Locklear “did not raise
individualized qualified immunity arguments before the district
court.” The undersigned attorneys realize that this is an
extraordinary request, but the undersigned believe that the
request is warranted in this case.

30
individual capacities are entitled to qualified
immunity.” App. 127a–128a. Similarly, in Sealey
and Locklear’s response in opposition to Plaintiffs’
motion for summary judgment, Sealey and Locklear
made it crystal clear that they were arguing that
both Sealey and Locklear, in their respective
individual capacities, were each entitled to qualified
immunity:
In the instant case, when the doctrine of
qualified
immunity
is
analyzed
correctly, it is clear that Sealey and
Locklear are entitled to qualified
immunity. First, the facts established
that Sealey and Locklear did not violate
the plaintiffs’ constitutional rights.
However, even assuming arguendo that
plaintiffs’ rights may have been violated,
it was not clearly established, at the
time of [Sealey and Locklear’s] actions,
that [Sealey and Locklear’s] specific
actions violated the Constitution. Thus,
under the circumstances, defendants
Sealey and Locklear in their individual
capacities are entitled to qualified
immunity and therefore are entitled to
summary judgment.
(Doc. 177, Defs.’ Resp. in Opp., pp. 27-29). Thus, it is
clear that the Fourth Circuit’s assertion that Sealey
and Locklear “did not raise individualized qualified
immunity argument” is an incorrect assertion. If the
qualified immunity arguments made by Sealey and
Locklear to the District Court at the Rule 56 stage
were not “individualized qualified arguments,” then

31
there is virtually no qualified immunity argument
made by any officer in any case that would be
considered an “individualized qualified immunity
argument.” At a minimum, this Court should require
the Fourth Circuit to explain what defendant public
officers need to do to satisfy the Fourth Circuit’s
unstated test for asserting “individualized qualified
immunity arguments.” If the Gilliam decision stands,
neither the undersigned attorneys nor any other
member of the Fourth Circuit bar will know what a
defendant and his or her attorney would have to argue
in order to satisfy the Fourth Circuit that an
“individualized qualified immunity argument” has
been made. This puts attorneys representing public
officers in the impossible and untenable position of
guessing whether or not their qualified immunity
arguments meet the Fourth Circuit’s mysterious and
unarticulated test for properly raising an
“individualized qualified immunity argument.” This
is unfair, contrary to established law, and should not
be allowed to stand.
In short, the Fourth Circuit’s statement that
Sealey and Locklear “did not raise individualized
qualified immunity arguments” is clearly and
demonstrably untrue. Therefore, the Fourth Circuit’s
main stated justification for holding that the district
court did not have to properly rule on Sealey and
Locklear’s entitlement to qualified immunity at the
Rule 56 stage turns out to be a justification based
upon a demonstrably false premise.
Moreover, even if it were true that Sealey and
Locklear could have somehow made their argument
even more clear to the District Court, the District

32
Court nevertheless had a duty to analyze the qualified
immunity issues as to each defendant officer and each
claim. The Fourth Circuit’s ruling to the contrary is
in direct conflict with binding Supreme Court
authority.
2.

The duty of the District Court and
the Fourth Circuit panel to
properly apply the qualified
immunity analysis at the Rule 56
stage as to each officer and each
claim is not excused because the
facts may be “convoluted”

The District Court was not excused from
properly applying the qualified immunity analysis to
Sealey and Locklear as to each claim because the facts
are “convoluted” or because the facts have yet to be
fully resolved. Instead, under binding Supreme Court
precedent, the District Court must analyze Sealey
and Locklear’s entitlement to qualified immunity at
the Rule 56 stage by viewing the evidence in the light
most favorable to Plaintiffs. See, e.g., Scott v. Harris,
550 U.S. 372, 377, 127 S. Ct. 1769, 1774 (2007);
Saucier v. Katz, 533 U.S. 194, 201, 121 S. Ct. 2151,
2156, 150 L.Ed.2d 272 (2001). A federal court is not
excused from this duty simply because, as the Fourth
Circuit phrased it, the facts are “convoluted.”
Thus, the panel opinion’s holding that a district
court need not apply the qualified immunity test as to
each officer and each claim if the facts are
“convoluted” is in conflict with binding Supreme
Court precedent.

33
3.

The Fourth Circuit’s holding that
a Court need not rule on an
individual officer’s entitlement to
qualified
immunity
at
the
summary judgment stage if a
plaintiff “alleges” that multiple
officers “acted in concert” is in
conflict with binding Supreme
Court precedent holding that a
plaintiff must prove that each
officer, through his own individual
actions, violated the Constitution

Under binding Supreme Court precedent, in
order to hold any individual liable under Section
1983, plaintiffs must “prove that each Governmentofficial defendant, through the official’s own
individual actions, has violated the Constitution …
[E]ach Government official … is only liable for his or
her own misconduct.” Ashcroft v. Iqbal, 556 U.S. 67677 (2009). This is relevant to the first prong of the
Saucier qualified immunity analysis. Saucier v. Katz,
533 U.S. 194, 201 (2001).
Justice Thomas’s dissent in Hope v. Pelzer
articulates the principle well:
In conducting qualified immunity
analysis, … courts do not merely ask
whether, taking the plaintiff’s allegations
as true, the plaintiff’s clearly established
rights were violated. Rather, courts must
consider as well whether each defendant’s
alleged conduct violated the plaintiff’s
clearly established rights. For instance,
an allegation that Defendant A violated

34
a plaintiff’s clearly established rights
does nothing to overcome Defendant B’s
assertion of qualified immunity, absent
some allegation that Defendant B was
responsible for Defendant A’s conduct.
536 U.S. 730, 751 n. 9, 122 S. Ct. 2508 (2002)
(Thomas, J., dissenting).
For example, in the Supreme Court recent
decision in City of Escondido v. Emmons, 139 S. Ct.
500 (2019), a case analyzing qualified immunity, the
Supreme Court reversed the Ninth Circuit’s decision
denying summary judgment as to Sergeant Kevin
Toth because the District Court had stated that “only
Defendant Craig was involved in the excessive force
claim” and the plaintiff “fail[ed] to identify contrary
evidence.” 139 S. Ct. at 502-3. In other words, the
Supreme Court reversed the judgment as to Sergeant
Toth because the plaintiff did not produce evidence
that Toth was personally involved in the alleged
excessive force used against the plaintiff. Id.
The Tenth Circuit’s decision in Pahls v.
Thomas, 718 F.3d 1210 (10th Cir. 2013) contains an
instructive articulation of how the binding Supreme
Court authority must be applied in cases involving
multiple individual defendants:
But common to all § 1983 . . . claims is
the requirement that liability be
predicated on a violation traceable to a
defendant-official’s “own individual
actions.” Iqbal, 556 U.S. at 676 . . . .
… To make out viable § 1983 … claims
and to overcome defendants’ assertions

35
of qualified immunity, plaintiffs here
must establish that each defendant –
whether by direct participation or by
virtue of a policy over which he possessed
supervisory responsibility – caused a
violation of plaintiffs’ clearly established
constitutional rights … Plaintiffs must
do more than show that their rights
“were violated” or that “defendants,” as
a collective and undifferentiated whole,
were responsible for those violations …
They must identify specific actions taken
by particular defendants … that violated
their clearly established constitutional
rights … Failure to make this showing . . .
dooms plaintiffs’ § 1983 … claims and
entitles
defendants
to
qualified
immunity.
718 F.3d at 1225-26, 28.
Several other federal courts have followed this
Court’s precedent by evaluating each individual
defendant’s conduct to determine entitlement to
qualified immunity. Because the qualified-immunity
inquiry is necessarily an individualized one, the
allegations against each defendant must always be
scrutinized.
See Vietnam Veterans of Am. v.
McNamara, No. CIV.A. 02-2123(RMC), 2005 WL
485341, at *7 (D.D.C. Feb. 17, 2005), aff’d, 201 Fed.
Appx. 779 (D.C. Cir. 2006) (citing Harlow, 457 U.S. at
819 (pertinent inquiry is into the “reasonableness of
an official’s acts”)). See also Krutko v. Franklin
County, Ohio, 559 Fed. Appx. 509, 511 (6th Cir. 2014)
(remanding case to district court to conduct an
individualized inquiry to determine whether any of

36
the defendants were entitled to qualified immunity);
Dorsey v. Barber, 517 F.3d 389, 399 (6th Cir. 2008)
(remarking that district court should have
“distinguish[ed] between the actions of [defendant
police officers]” instead of “lump[ing] them together”
for purposes of the qualified-immunity analysis); Poe
v. Leonard, 282 F.3d 123, 134 (2d Cir. 2002) (the
“qualified immunity analysis depends upon an
individualized determination of the misconduct
alleged”); Cunningham v. Gates, 229 F.3d 1271 (9th
Cir. 2000) (the qualified immunity determination
requires that a court “carefully examine the specific
allegations against each individual defendant”);
Rouse v. Plantier, 182 F.3d 192, 200 (3d Cir. 1999)
(explaining that “the District Court should have
addressed the specific conduct of each of the
individual defendants in determining whether that
particular defendant acted in an ‘objectively
unreasonable’ manner.”); Reitz v. County of Bucks,
125 F.3d 139, 147 (3d Cir. 1997) (stating that
qualified immunity analysis “requires application of
the law to the particular conduct at issue”); Grant v.
City of Pittsburgh, 98 F.3d 116, 122 (3d Cir. 1996)
(“crucial to the resolution of any assertion of qualified
immunity is a careful examination of the record … to
establish, for purposes of summary judgment, a
detailed factual description of the actions of each
individual defendant[.]”); Bakalis v. Golembeski, 35
F.3d 318, 326–27 (7th Cir. 1994)
(“Qualified
immunity is an individual defense available to each
individual defendant in his individual capacity.”);
Waldrop v. Evans, 871 F.2d 1030, 1034 (11th Cir.
1989) (evaluating challenged conduct individually
because the standard is fact-specific); Ghandi v. Police
Dep’t of City of Detroit, 747 F.2d 338, 344 (6th Cir.

37
1984) (“Each of the individual federal defendants
played a different role in the investigation …
Therefore, the conduct of each defendant must be
examined to determine whether the district court was
correct in granting summary judgment on the basis of
qualified immunity.”).
Thus, the panel opinion’s holding that a court
need not apply a qualified immunity analysis as to
each individual officer and each claim if a plaintiff
“alleges” that defendants acted in concert is in direct
conflict with binding Supreme Court authority and
the holdings of numerous federal courts following this
Court’s precedent. Under well-established Supreme
Court precedent, a plaintiff cannot defeat an
individual officer’s entitlement to summary judgment
based on qualified immunity simply by alleging that
the officer “acted in concert” with other defendants.
As the Supreme Court stated in Liberty Lobby,
supra., “a party opposing a properly supported motion
for summary judgment may not rest upon mere
allegations or denials of his pleadings, but . . . must
set forth specific facts showing that there is a genuine
issue for trial.” Id., quoting First National Bank of
Arizona v. Cities Service Co., 391 U.S. 253, 288-89, 88
S. Ct. 1575, 1592 (1968). Thus, the Fourth Circuit’s
holding that a plaintiff can defeat an officer’s
entitlement to qualified immunity simply by alleging
that defendants “acted in concert” is directly contrary
to binding Supreme Court precedent.
The District Court and the Fourth Circuit’s
error in this regard is significant to Sealey and
Locklear because Plaintiffs have not shown that
Sealey and Locklear acted personally with regard to a
number of Plaintiffs’ claims.

38
As noted by the District Court, Locklear did not
participate in the interview of McCollum. (JA 319).
Thus, Locklear is entitled to qualified immunity for
any claim relating to McCollum’s confession.
Moreover, Plaintiffs have not shown that any specific
action of Sealey in McCollum’s interview violated
clearly established law.
It is undisputed that Sealey was not present for
the questioning of Brown. (JA 548, 555-556, 660-661).
Therefore, Sealey cannot be held liable for any claims
arising out of Brown’s confession.
Moreover,
Plaintiffs have not shown that any specific action of
Locklear in Brown’s interview violated clearly
established law.
As to Plaintiffs’ due process claim regarding
Sinclair purportedly changing his story on October 5,
1984, neither Sealey nor Locklear had anything to do
with that. (JA 354, 807-813, 1177). Therefore, Sealey
and Locklear are entitled to qualified immunity as to
this claim.
The Fourth Circuit panel opinion held that
officers violated Brady because “once officers
identified Artis as a suspect [in the Buie rape and
murder], they were obligated to disclose this
exculpatory information.” App. 41a–42a. However,
there is no evidence that Sealey or Locklear ever
considered Artis to be a suspect in the Buie case.
The panel opinion states that the Plaintiffs’
due process claim for failure to adequately investigate
included the failure to test Artis or Sinclair’s
fingerprints. App. 45a. However, neither Sealey nor
Locklear had any involvement or responsibility
whatsoever in processing the physical evidence,

39
including fingerprints. (JA 1560). Therefore, Sealey
and Locklear are entitled to qualified immunity
regarding this claim.
In short, the Fourth Circuit’s holding—that a
court need not apply the qualified immunity analysis
as to each officer and each claim in cases where a
plaintiff “alleges” the officers acted in concert—is in
direct conflict with binding Supreme Court authority.
CONCLUSION
The Fourth Circuit’s opinion defies the
Supreme Court’s established jurisprudence on
qualified immunity. The Court should grant the
petition for writ of certiorari and reverse the decision
of the Fourth Circuit Court of Appeals.
Respectfully submitted, this the 22nd day of
November, 2019.
/s/ James R. Morgan, Jr.
James R. Morgan, Jr., N.C. State Bar No. 12496
Counsel of Record
Bradley O. Wood, N.C. State Bar No. 22392
Sonny S. Haynes, N.C. State Bar No. 41303
WOMBLE BOND DICKINSON (US) LLP
One West Fourth Street
Winston-Salem, NC 27101
Telephone: (336) 721-3600
Facsimile: (336) 721-3660
E-mail: Jim.Morgan@wbd-us.com
E-mail: Brad.Wood@wbd-us.com
E-mail: Sonny.Haynes@wbd-us.com
Counsel for Defendant-Appellants Kenneth Sealey and
Robert E. Price, Administrator C.T.A. of the Estate of
Joel Garth Locklear, Sr.

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Published Opinion of
The United States Court of Appeals
For the Fourth Circuit
entered July 30, 2019..................................... 1a
Order of
The United States District Court
For the Eastern District of North Carolina
entered March 1, 2018 ................................. 49a
Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for Rehearing En Banc
entered August 27, 2019 .............................. 87a
Brief in Support of Motion for
Summary Judgment (on Behalf of
Defendants Robert E. Price, as Administrator
C.T.A. of the Estate of Joel Garth Locklear,
and Kenneth Sealey)
entered April 3, 2017 ................................... 90a
Statement of Undisputed Material Facts
Pursuant to Local Civil Rule 56.1 of
Defendants Kenneth Sealey and
Robert E. Price, as Administrator C.T.A. of the
Estate of Joel Garth Locklear, Sr.
entered April 3, 2017 ................................. 134a

iia
Reply Brief in Support of Motion for
Summary Judgment (on Behalf of
Defendants Kenneth Sealey and
Robert E. Price, as Administrator C.T.A.
of the Estate of Joel Garth Locklear),
With Attachment,
entered May 5, 2017 .................................. 188a
Appellants’ Petition for Rehearing and
Petition for Rehearing En Banc
entered August 13, 2019 ............................ 210a

1a
[ENTERED: July 30, 2019]
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1366
J. DUANE GILLIAM, Guardian of the Estate of Leon
Brown; RAYMOND C. TARLTON, Guardian Ad
Litem for Henry Lee McCollum,
Plaintiffs - Appellees,
and
HENRY LEE MCCOLLUM; LEON BROWN;
GERALDINE BROWN RANSOM, Guardian of Leon
Brown; KIMBERLY PINCHBECK, as limited
guardian and conservator of the estate of Henry Lee
McCollum,
Plaintiffs,
v.
KENNETH SEALEY, both individually and in his
official capacity as the Sheriff of Robeson County;
ROBERT E. PRICE, Administrator C.T.A. of the
Estate of Joel Garth Locklear, Sr.,
Defendants - Appellants,
and

2a
ROBESON COUNTY; TOWN OF RED SPRINGS;
KENNETH SNEAD; JOEL GARTH LOCKLEAR;
LARRY FLOYD; LEROY ALLEN; ESTATE OF
LUTHER
HAGGINS;
GERALDINE
BRITT
HAGGINS, as Administratix/Executrix of the Estate
of Luther Haggins; PAUL CANADY, Administrator
C.T.A of the Estate of Luther Haggins;
FAYETTEVILLE OBSERVER-TIMES; ASSOCIATED
PRESS; WTVD TELEVISION LLC; CHARLOTTE
OBSERVER,
Defendants.
No. 18-1402
J. DUANE GILLIAM, Guardian of the Estate of Leon
Brown; RAYMOND C. TARLTON, Guardian Ad
Litem for Henry Lee McCollum,
Plaintiffs - Appellees,
and
HENRY LEE MCCOLLUM; LEON BROWN;
GERALDINE BROWN RANSOM, Guardian of Leon
Brown; KIMBERLY PINCHBECK, as limited
guardian and conservator of the estate of Henry Lee
McCollum,
Plaintiffs,
v.
KENNETH SNEAD; LEROY ALLEN,
Defendants - Appellants,

3a
and
ROBESON COUNTY; TOWN OF RED SPRINGS;
KENNETH SEALEY, both individually and in his
official capacity as the Sheriff of Robeson County;
JOEL GARTH LOCKLEAR; LARRY FLOYD;
ESTATE OF LUTHER HAGGINS; GERALDINE
BRITT HAGGINS, as Administratix/Executrix of the
Estate of Luther Haggins; PAUL CANADY,
Administrator C.T.A of the Estate of Luther Haggins;
ROBERT E. PRICE, Administrator C.T.A. of the
Estate of Joel Garth Locklear, Sr.; FAYETTEVILLE
OBSERVER-TIMES; ASSOCIATED PRESS; WTVD
TELEVISION LLC; CHARLOTTE OBSERVER,
Defendants.
Appeals from the United States District Court for the
Eastern District of North Carolina, at Raleigh.
Terrence W. Boyle, Chief District Judge. (5:15-cv00451-BO)
Argued: March 20, 2019

Decided: July 30, 2019

Before NIEMEYER, THACKER, and RICHARDSON,
Circuit Judges.
Affirmed by published opinion. Judge Thacker wrote
the opinion, in which Judge Niemeyer joined. Judge
Richardson wrote a separate opinion concurring in
part and dissenting in part.

4a
ARGUED: James R. Morgan Jr., WOMBLE BOND
DICKINSON (US) LLP, Winston-Salem, North
Carolina, for Appellants. Catherine E. Stetson,
HOGAN LOVELLS US LLP, Washington, D.C., for
Appellees. ON BRIEF: Bradley O. Wood, WOMBLE
BOND DICKINSON (US) LLP, Winston-Salem,
North Carolina, for Appellants K. Sealey and R. Price.
Joshua H. Stein, OFFICE OF THE ATTORNEY
GENERAL OF NORTH CAROLINA, Raleigh, North
Carolina; Matthew W. Sawchak, Brian D. Rabinovitz,
NORTH CAROLINA DEPARTMENT OF JUSTICE,
Raleigh, North Carolina, for Appellants K. Snead and
L. Allen. E. Desmond Hogan, Kirti Datla, David W.
Maxwell, Elizabeth C. Lockwood, Matthew J.
Higgins, HOGAN LOVELLS US LLP, Washington,
D.C., for Appellees.
THACKER, Circuit Judge:
This case stems from the wrongful conviction of
two brothers, both teenaged boys with severe
intellectual disabilities, for the rape and murder of an
11 year old girl in 1983. Henry McCollum and Leon
Brown (“Appellees”) spent 31 years in prison and on
death row1 before being exonerated based on DNA
evidence linking another individual, a man who was
known to officers at the time of the investigation, to
the crime. Following their release from prison,
Appellees brought this case pursuant to 42 U.S.C.
§ 1983 alleging that the state and county law

Brown spent nearly a decade on death row before being
retried in 1992 and sentenced to life in prison, while McCollum
remained on death row following his second trial.
1

5a
enforcement officers investigating the crime violated
their Fourth Amendment and due process rights.
The officers moved for summary judgment on
the basis of qualified immunity. The district court
denied their motion, and this appeal followed.
Because Appellees have alleged facts sufficient to
show that the officers violated their clearly
established Fourth Amendment and due process
rights, we affirm the district court’s denial of qualified
immunity.
I.
A.
The Underlying Crime and Investigation
Eleven year old Sabrina Buie went missing on
the evening of September 24, 1983, in Red Springs,
North Carolina. Two days later, her body was
discovered in a soybean field near a convenience store
in Red Springs. She was found naked from the waist
down, with her bra pushed up over the back of her
head. Her panties were shoved down her throat with
a stick, and she had been sexually assaulted.
The Red Springs Police Department and the
North Carolina State Bureau of Investigation (“SBI”)
worked together to investigate the case. SBI Agents
Leroy Allen and Kenneth Snead and Robeson County
Detectives Joel Garth Locklear and Kenneth Sealey
(collectively, “Appellants”) were assigned to the case.
While processing the crime scene, Appellants
discovered three Schiltz Malt Liquor beer cans, three
match sticks, one Newport cigarette butt, and two
wooden sticks reddened with blood.

6a
On September 27, 1983, while canvassing the
neighborhood for witnesses, Detective Locklear spoke
to Henry McCollum, who denied any knowledge of
Buie’s disappearance. However, the following
evening, Agent Snead and Detective Sealey
interviewed Ethel Furmage, a high school student,
who said that she had “heard at school” that
McCollum “had something to do with” Buie’s murder.
J.A. 304.2 Shortly after 9:00 that evening, Snead,
Sealey, and Agent Allen traveled to McCollum’s home
to interview him. McCollum agreed to ride with the
officers to the police station, where he was
fingerprinted and questioned.
B.
Interrogations of Appellees
1.
McCollum
What exactly happened in the interrogation
room is at the heart of this case and is, as the district
court determined, a dispute of material fact that must
be determined by a jury. This is what we know for
sure. At the time of these events, McCollum was 19
years old, and he suffered from severe intellectual
disabilities. He scored a 56 on an IQ test, where any
score below a 69 indicates intellectual disability. In
high school, McCollum performed at the level of an
eight to ten year old. And in 1990, McCollum was
formally diagnosed as intellectually disabled.
McCollum had never been in legal trouble.
Citations to the “J.A.” refer to the Joint Appendix filed
by the parties in this appeal.
2

7a
A Miranda3 waiver form bearing McCollum’s
signature is dated September 28, 1983, at 10:26 p.m.
At 2:10 a.m. on September 29, McCollum signed a
handwritten confession that was drafted by Agent
Snead and witnessed by Detective Sealey and Red
Springs Police Department Chief Luther Haggins.
This confession stated the following: McCollum, along
with four other boys -- Darrell Suber, Louis Moore,
Chris (last name unknown), and Leon Brown -- were
with Buie at approximately 9:30 p.m. on September
24, the day she went missing. Suber and Chris left the
group to buy a six-pack of beer from the nearby
convenience store. When they returned, Suber, Chris,
McCollum, Moore, and Brown discussed raping Buie,
because she had not agreed to have sex with them
voluntarily. After this conversation, Moore left. The
rest of the group walked with Buie to the woods at the
edge of a field and drank beer. Suber and Chris
smoked Newport cigarettes.
Per the confession, McCollum grabbed Buie’s
right arm while Brown grabbed her left arm. The
group of boys then took turns raping Buie, with
McCollum going third and Brown going last.
Afterwards, Suber said they had to do something so
that Buie would not tell the police what they had
done. Chris tied Buie’s pink panties to a stick, then
used it to choke Buie to death. While this was
happening, McCollum and Brown held Buie down and
Suber cut her with a knife. Then, after they believed
Buie was dead, the boys dragged her body to the edge
of the woods. Suber had blood on his brown corduroy

3

Miranda v. Arizona, 384 U.S. 436 (1966).

8a
jacket and gray Nike tennis shoes, and Chris had
blood on his sneakers.
After McCollum signed the confession, he was
placed under arrest for Buie’s rape and murder.
2.
Brown
During McCollum’s interrogation, his mother
Mamie Brown and brother Leon Brown arrived at the
police station. At approximately 2 a.m. on September
29, and based on McCollum’s written confession,
Detective Locklear and Chief Haggins began to
interrogate Brown.
Brown was 15 years old at the time, and like
his brother, he had been diagnosed with severe
intellectual disabilities. He consistently scored in the
mid-50s range on IQ tests, and although he was in
seventh grade, he performed at a third grade level. In
1982, a school psychologist had placed Brown in a
special education class. Like his brother, Brown had
not previously been in legal trouble.
At 2:24 a.m., Brown signed a form entitled
“Juvenile Rights Warning.”4 Then, around 6 a.m.,
Brown signed a confession that had been drafted by
Detective Locklear. Following Brown’s confession, he
was arrested for the rape and murder of Buie.
This form lists the rights available to a juvenile
questioned by law enforcement officers, including the rights “to
remain silent”; “to have a parent, guardian, or custodian present
during questioning”; and “to talk with a lawyer for advice before
questioning and to have that lawyer with you during
questioning.” J.A. 1313.
4

9a
3.
Confession Inconsistencies
Brown’s confession implicated Suber and
Chris, but it differed in certain aspects from
McCollum’s confession. Notably, Brown’s confession
makes no mention of Moore’s involvement, and it does
not reference a stick being used to force Buie’s
underwear down her throat.
The confessions of McCollum and Brown also
contained certain details that were later proven false.
For example, both confessions stated that Suber and
Chris were involved in the crime and took turns
raping Buie, but the police verified that Suber, Chris,
and Moore all had alibis on the night of the murder.
And contrary to the confessions, an autopsy revealed
that Buie’s panties were white, not pink, and she had
no stab wounds.
C.
Criminal Proceedings and Post-Conviction Relief
1.
1984 Trial
Appellees were indicted by a grand jury on
January 3, 1984, on charges of first-degree murder
and rape. They were tried together in Robeson County
Superior Court in October 1984. The prosecutor was
District Attorney Joe Freeman Britt, McCollum was
represented by Earl Strickland, and Brown was
represented by Robert Johnson.

10a
Appellees both moved to suppress their
confessions. These motions were denied. The trial
court concluded that both McCollum and Brown had
voluntarily gone to the police station; each had
knowingly and intelligently waived his rights; and
each had made statements freely, voluntarily, and
knowingly. Appellees both testified at trial, and each
was convicted and sentenced to death.
2.
Second Trials
On appeal, the North Carolina Supreme Court
reversed and remanded the case for a new trial based
on error in the jury instructions. See North Carolina
v. McCollum, 364 S.E.2d 112 (N.C. 1988). Appellees
were then tried separately in adjacent counties.
McCollum was retried in Cumberland County
in November 1991. The Cumberland County Superior
Court denied McCollum’s motion to suppress his
confession, concluding that McCollum’s constitutional
rights were not violated by his arrest, detention,
interrogation, or confession; that his confession was
made freely and voluntarily; and that McCollum
waived his rights freely, knowingly, and intelligently.
During the November 1991 trial, and with
McCollum’s consent, McCollum’s attorney argued to
the jury that McCollum was present for the rape and
murder of Buie, and he asked the jury to return a
verdict of second-degree murder. McCollum was
found guilty of first-degree murder and rape, and he
was again sentenced to death. The North Carolina
Supreme Court affirmed McCollum’s conviction and
sentence. See North Carolina v. McCollum, 433
S.E.2d 144 (N.C. 1993). The United States Supreme

11a
Court denied McCollum’s petition for writ of
certiorari. See McCollum v. North Carolina, 512 U.S.
1254 (1994).
After McCollum’s trial, Brown was retried in
Bladen County Superior Court in June 1992. Brown’s
motion to suppress his confession was denied after the
trial court concluded that Brown knowingly,
intelligently, and voluntarily waived his rights; that
his constitutional rights had not been violated; and
that his confession was voluntary. The trial court
later granted a defense motion to dismiss the firstdegree murder charge, finding that Brown had
withdrawn from the conspiracy to commit murder.
The jury found Brown guilty of first-degree rape, and
he was sentenced to life in prison. The North Carolina
Court of Appeals and the North Carolina Supreme
Court affirmed Brown’s conviction and sentence. See
North Carolina v. Brown, 436 S.E.2d 163 (N.C. Ct.
App. 1993); North Carolina v. Brown, 453 S.E.2d 165
(N.C. 1995). Brown did not file a petition for writ of
certiorari to the United States Supreme Court.
3.
NCIIC Investigation
In 2009, Brown sought assistance from the
North Carolina Innocence Inquiry Commission
(“NCIIC”), and the NCIIC accepted his case. The
NCIIC then reached out to McCollum and accepted
his case as well. In its investigation, the NCIIC
uncovered DNA evidence on the Newport cigarette
butt found at the scene of the crime. The DNA
matched Roscoe Artis, a man known to Appellants
during the investigation of Buie’s murder.

12a
In 1984, Artis was convicted of a crime
strikingly similar to Buie’s murder: the first-degree
murder and rape of Joann Brockman, also in Red
Springs, North Carolina. On October 22, 1983 -- less
than one month after Buie’s murder -- Brockman’s
body was found naked except for a sweater and bra
pushed up above her breasts, and an autopsy revealed
that she died from manual strangulation during
sexual intercourse. Artis was arrested the same day,
and he was tried in August 1984. The prosecutor for
Artis’s trial was district attorney Joe Freeman Britt,
and Artis was represented by Earl Strickland -- both
of whom would be involved in McCollum and Brown’s
October 1984 trial just two months later. Appellants
Agent Allen and Detective Locklear, who were
involved in the investigation of Brockman’s murder,
testified for the state in Artis’s trial.5 Artis received
a death sentence, which was commuted to life in
prison. See North Carolina v. Artis, 384 S.E.2d 470
(N.C. 1989), judgment vacated, 494 U.S. 1023 (1990);
see also North Carolina v. Artis, 406 S.E.2d 827 (N.C.
1991).
The DNA tested on other items of physical
evidence from the scene of Buie’s murder did not
match McCollum or Brown.

Detective Locklear testified that he responded to the
scene of the crime, observed the victim’s body, and interviewed
Artis on the day of Brockman’s murder. According to Locklear,
during this interview Artis confessed to the murder and led
officers back to the location where Brockman’s body had been
discovered. Allen testified that he transported certain evidence,
including a blood sample taken from Artis, to the SBI lab for
testing as part of the investigation.
5

13a
4.
MAR Court Proceedings and Pardons
Based on this DNA evidence, Appellees filed
motions for appropriate relief (“MAR”) in the Robeson
County Superior Court. At a hearing on these motions
held September 2, 2014, the NCIIC’s investigator
testified about inconsistencies between Appellees’
written confessions and the DNA match to Artis on
the cigarette. The state did not contest that the newly
discovered DNA evidence was favorable to Appellees,
and it conceded that Appellees had satisfied the
requirements of N.C. Gen. Stat. § 15A-270(c), which
governs the relief available to petitioners who come
forward with favorable DNA evidence post-conviction.
The MAR court held, “especially when considered
together with the rest of the results of the [NCIIC]’s
investigation,” the favorable DNA evidence “tend[s] to
establish Henry McCollum’s and Leon Brown’s
innocence of [the] crime for which they were convicted
and sentenced.” J.A. 309. Accordingly, the MAR court
vacated Appellees’ convictions and sentences from
Robeson, Cumberland, and Bladen counties,
dismissed with prejudice all charges in the cases, and
ordered Appellees’ immediate release.
On June 5, 2015, North Carolina Governor Pat
McCrory issued full pardons of innocence to
Appellees.
D.
District Court Proceedings
Appellees filed this action against Appellants
on August 31, 2015. The amended complaint alleges

14a
four claims arising pursuant to 42 U.S.C. § 1983: false
arrest, malicious prosecution, deprivation of due
process, and municipal liability. At the root of these
claims, Appellees assert that Appellants coerced and
fabricated Appellees’ confessions, and then, to cover
up this wrongdoing, Appellees allege that Appellants
withheld in bad faith exculpatory evidence that
demonstrated Appellees’ innocence and buried pieces
of specific evidence indicating that Artis -- and not
Appellees -- raped and murdered Buie.
Appellants sought summary judgment on the
basis of qualified immunity. The district court
concluded that genuine disputes of material fact
preclude summary judgment based on qualified
immunity, and that a jury must determine whether
Appellees’ confessions were voluntary and whether
Appellants acted in bad faith while investigating
Buie’s murder after the confessions were obtained.
The district court summarized these disputes of
material fact as follows.
1.
The Confessions
a.
McCollum
The district court noted that “[t]he parties
offer[ed] drastically different versions of the events
surrounding the confessions given by [Appellees].”
J.A. 318. Agent Snead and Detective Sealey stated
that they began questioning McCollum around 9:30
p.m. But Snead and Sealey’s recollections of when
McCollum received his Miranda warning differ;

15a
Snead testified in his deposition that McCollum
signed the waiver prior to questioning, whereas
Sealey testified in his deposition that McCollum
signed the waiver after he admitted to holding Buie
down. Sealey testified that he asked few if any
questions during the interview, and that Snead took
the lead. Agent Allen was also present during the
interview, according to Snead.
After what Detective Sealey thought might
have been five or ten minutes of questioning -- but
Agent Snead recalls being anywhere from twenty to
forty-five minutes -- McCollum admitted to them, “I
just held her down.” J.A. 319. Sealey testified at his
deposition that he thought McCollum was about to
have a seizure just before he admitted this;
meanwhile, Snead testified at his deposition that
McCollum was extremely calm.
According to Agent Snead, he talked with
McCollum until about 1:50 a.m., McCollum confessed,
and Snead wrote out McCollum’s statement. Then,
Snead testified, McCollum confronted Brown and
Suber, who were at the police station, and told them
that he (McCollum) had told the truth and wanted
them to also tell the truth about killing Buie.
McCollum then asked Chief Haggins if he could go
home, and Snead informed McCollum that things had
changed and asked Haggins to arrest McCollum for
murder.
As the district court noted, “McCollum’s
description of his interview by Snead, Sealey, and
Allen bears no resemblance to the [officers’
accounts].” J.A. 319. According to McCollum, the
officers told him that if he signed a form -- the

16a
Miranda waiver form -- they would let him go home.
McCollum signed the form without reading it. In his
deposition, McCollum testified that the officers
questioning him “got into his face, hollered at him, . . .
threatened him, . . . [and] McCollum repeatedly
denied being involved.” Id. According to McCollum, he
was called racial epithets, and Detective Sealey
threatened that McCollum “was going to get the gas
chamber,” J.A. 988, if he did not talk. McCollum
believed this to mean that Sealey had the “power and
authority” to kill him. Id. at 1022. During the
interrogation, McCollum’s mother arrived at the
station and asked the officers to see her son.
McCollum likewise asked if he could see his mother.
The officers refused, and McCollum heard one of the
officers tell his mother to “shut up” and threaten to
“lock her up.” Id. at 986–87. McCollum further
testified that the officers told him to sign a paper that
said if he could help them in the case as a witness,
they would let him go home. McCollum signed the
paper -- which was actually the confession written out
by Snead -- but he did not read it and it was not read
to him. McCollum denies that he confessed to raping
and murdering Buie.
b.
Brown
As the district court summarized, Brown came
to the police station with his mother at about 11 p.m.
on September 28, 1983, while McCollum was being
questioned. Brown testified at the 1984 trial that he
could hear his brother crying when he arrived. At
around 2:30 a.m., while Brown was waiting at the
station with L.P. Sinclair (a friend of the boys and

17a
eventual witness in the case), Detective Locklear and
Agent Allen took Brown to an interrogation room and
began questioning him.
Agent Allen testified at his deposition that he
read Brown his juvenile rights, including the right to
have a parent present, and that Brown stated he
understood his rights and wished to answer questions
without a lawyer or parent present. Allen stated that
he did not recall Brown asking to speak with his
mother, or Brown’s mother asking to see Brown.
Agent Snead testified at his deposition that he does
not know why Brown was taken to an interview room,
and that he witnessed Brown’s rights form but was
not in the room when Brown confessed. Detective
Locklear testified at the 1984 trial that he took
Brown’s statement, and that Brown was “quite alert
of mind and very precise in what he wanted to say to
me.” J.A. 321. Further, Locklear testified that he
made Brown no promises and did not threaten him.
Brown, meanwhile, testified at his 1984 trial
that Detective Locklear did not advise him of his
rights, that Brown asked for his mother when an
officer grabbed Brown’s arm, and that Brown (like
McCollum) was told he would be taken to the gas
chamber if he did not sign the rights waiver. Then,
Brown testified that when the officers gave him a
piece of paper, he circled “no” on it. According to
Brown, that “no” was supposed to indicate that he
could not help the officers. Brown testified that the
officers then “began to hammer him, calling him
racial epithets and stating that he [Brown] had
committed the crime or that he knew something about
it.” J.A. 320. During Brown’s interrogation, his
mother was knocking on the door asking to see him,

18a
but she was refused entry. Brown denied any
knowledge of the crime and stated that he was
innocent. Brown testified at his deposition that he did
not say the things that are written in the confession;
instead, Detective Locklear drafted it and told Brown
to sign it, which Brown did after an officer told him
doing so would ensure his release. Locklear then read
the confession to Brown, and Brown told the officers
that it was not true. Like his brother, Brown was then
placed under arrest.
2.
The Investigation
The district court noted additional disputes of
material fact regarding Appellants’ conduct during
the investigation that precluded summary judgment
on Appellees’ due process claims. Specifically, these
factual disputes involved Appellees’ assertion that
Appellants failed to investigate and withheld
exculpatory evidence regarding (1) the similarities
between the rape and murder of Buie and Artis’s rape
and murder of Brockhart; (2) a statement by a
potential eyewitness, Mary McLean Richards, that
she saw Artis attacking Buie; and (3) the alleged
coerced testimony of Brown and McCollum’s friend
L.P. Sinclair.
Appellees assert that Artis was a suspect in
Buie’s murder, but Appellants failed to disclose this
to Appellees. According to Appellees, on October 5,
1984, three days before Appellees’ first trial,
investigators submitted Artis’s fingerprints to the
SBI for comparison to the latent prints found on the
beer can at the Buie crime scene. Artis was listed as
a suspect on the fingerprint comparison request.

19a
However, the investigators canceled the request that
same day, and the fingerprint comparison was never
completed.
Next, Appellees assert that Richards told
Appellants that she witnessed Artis attacking Buie on
the night of the murder, and that she attempted to
intervene but Artis frightened her away. Richards
further testified that when she went home and told
her mother what she had seen, her mother would not
allow her to call the police. Richards testified in her
deposition that she provided this information to
Detective Sealey during the investigation in 1983.
However, Sealey’s investigation notes do not reflect
this information.
Finally, Appellees assert that Appellants
coerced false testimony from Sinclair. After meeting
with investigators multiple times, Sinclair submitted
to, and passed, a polygraph test three days before
Appellees’ first trial, declaring he “did not know
anything about [Buie’s death].” J.A. 1305. SBI then
marked him as a suspect in the case and ordered
analysis of his fingerprints at the same time it
requested an analysis of Artis’s fingerprints. Sinclair
then changed his story and testified at Appellees’
1984 trial that McCollum had confessed to him the
day after Buie’s murder. Sinclair further testified that
McCollum and Brown had discussed raping Buie in
his presence and that he (Sinclair) had declined to
participate.6
For their part, Appellants dispute that they
should have taken any additional action with respect
to investigating Artis. Appellants further dispute that
6

Sinclair was killed in 1990, prior to Appellees’ retrials.

20a
Richards made a statement in 1983 to any member of
law enforcement that she witnessed Buie’s attack, or
that any Appellant coerced or instructed Sinclair to
testify untruthfully at the 1984 trial.
II.
We review a district court’s denial of summary
judgment in the qualified immunity context de novo,
and we “view all reasonable inferences drawn from
the evidence in the light that is most favorable to the
non-moving party.” Smith v. Munday, 848 F.3d 248,
251 (4th Cir. 2017) (internal quotation marks
omitted); see also Iko v. Shreve, 535 F.3d 225, 230 (4th
Cir. 2008). To be granted summary judgment,
Appellants must prove that there is no genuine
dispute of material fact and they are entitled to
judgment as a matter of law. Fed. R. Civ. P. 56(a).
Qualified immunity protects government
officials from liability for violations of constitutional
rights so long as they could reasonably believe that
their conduct did not violate clearly established law.
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).
Qualified immunity protects “all but the plainly
incompetent or those who knowingly violate the law.”
Malley v. Briggs, 475 U.S. 335, 341 (1986). Further,
qualified immunity is “immunity from suit rather
than a mere defense to liability; and like an absolute
immunity, it is effectively lost if a case is erroneously
permitted to go to trial.” Mitchell v. Forsyth, 472 U.S.
511, 526 (1985) (emphasis omitted). Thus, to the
extent a district court’s denial of a claim of qualified
immunity turned on an issue of law, it is immediately
appealable. See id. at 530. But if the denial turned on
an issue of fact, “we lack jurisdiction to re-weigh the

21a
evidence in the record to determine whether material
factual disputes preclude summary disposition.” Iko,
535 F.3d at 234. Thus, the question before us is
whether, “if we take the facts as the district court
gives them to us, and we view those facts in the light
most favorable to [Appellees],” Appellants are still
entitled to qualified immunity. Williams v.
Strickland, 917 F.3d 763, 768 (4th Cir. 2019) (footnote
omitted).
III.
Appellants raise a host of challenges to the
district court’s denial of summary judgment,
asserting that the district court: (1) misapplied the
summary judgment standard by failing to parse
Appellants’ liability individually; (2) erred in denying
Appellants’ claims of qualified immunity as to
Appellees’ false arrest and malicious prosecution
claims; and (3) erred in denying Appellants’ claims of
qualified immunity as to Appellees’ due process
claims. We address each issue in turn.7
A.
Individualized Liability Analysis
Appellants assert that the district court
broadly misapplied the test for qualified immunity
because it did not identify “what each individual
officer knew, when he knew it, and what specific
Appellants also argue that the district court erred in
denying Appellants’ motion for summary judgment for Appellant
Sealey in his official capacity. Because we affirm the district
court’s denial of summary judgment for the individual capacity
claims against Appellant Sealey, we decline to exercise pendant
jurisdiction over the official capacity claim.
7

22a
actions he did or did not take.” Appellants’ Br. 20.
Critically, Appellants did not argue before the district
court that individual officers were entitled to
qualified immunity based on the officer’s individual
actions, but instead asserted collective qualified
immunity defenses. In other words, Appellants fault
the district court for not identifying and resolving in
their favor individual liability arguments that
Appellants themselves did not raise.
It is true that the defense of qualified immunity
is a defense for individual defendants. But it would
be counterproductive to require a district court to
wade through convoluted issues of fact at this stage
in order to determine individual liability, where:
(1) Appellants did not raise individualized qualified
immunity arguments before the district court but
instead asserted collective qualified immunity
defenses; (2) the facts have yet to be resolved, and the
district court only determined whether qualified
immunity applies as a matter of law;8 and (3)
Appellees alleged that Appellants acted in concert to
violate their constitutional rights. Accordingly, the
district court did not improperly apply the test for
qualified immunity by waiting to parse the liability of
each individual defendant as it relates to each claim
until the facts are determined.

See J.A. 330 (“In light of plaintiffs’ allegations that the
defendants worked in concert to deny plaintiffs’ their
constitutional rights as well as the specifics regarding the
grouping of SBI and Robeson County defendants to engage in
different aspects of plaintiffs’ interrogations, arrests, and
investigations, the Court will not at this time attempt to parse
the liability of each individual defendant as it relates to each
claim.”).
8

23a
B.
False Arrest and Malicious Prosecution Claims
Appellants next challenge the district court’s
denial of Appellants’ motions for summary judgment
as to Appellees’ false arrest and malicious prosecution
claims. The district court denied Appellants’ motions
after concluding that, viewing the facts in the light
most favorable to Appellees, Appellees presented
evidence that their confessions were fabricated or
coerced, which was sufficient to create a genuine issue
of material fact as to whether Appellants violated
Appellees’ clearly established constitutional rights
not to be arrested in the absence of probable cause
and on the basis of a coerced confession. This dispute
of fact precluded a ruling on qualified immunity.
Appellants argue that they did not violate
Appellees’ constitutional rights because probable
cause existed for Appellees’ arrest as a matter of law.
Alternatively, Appellants argue that even if they did
violate Appellees’ constitutional rights, the officers
could have believed that their conduct was lawful
because those constitutional rights were not clearly
established by existing precedent. For the reasons
that follow, we affirm the district court’s denial of
summary judgment as to Appellees’ false arrest and
malicious prosecution claims.
1.
Whether Appellants’ Violated Appellees’
Constitutional Rights
Appellants argue that they did not violate
Appellees’ constitutional rights for three reasons:

24a
(1) North Carolina’s collateral estoppel doctrine
prevents relitigation of the constitutional issues
alleged; (2) McCollum’s attorney’s admission at
McCollum’s 1991 trial judicially estops McCollum
from challenging the voluntariness of his confession;
and (3) and Appellants had probable cause to arrest
Appellees as a matter of law. We address each in turn.
a.
Collateral Estoppel
Appellants contend that North Carolina’s
collateral estoppel doctrine prevents Appellees from
relitigating in their § 1983 case whether probable
cause existed to support their arrests and whether
their confessions were voluntary. Specifically,
Appellants argue that under North Carolina law,
(1) Appellees’ criminal convictions -- though later
vacated, and despite Appellees receiving pardons of
innocence from the governor -- conclusively establish
that probable cause existed for their arrest; and
(2) the state court judges’ rulings on the Appellees’
motions to suppress their confessions in their
criminal cases conclusively establish that the
confessions were voluntary. We will address these
collateral estoppel issues in turn, starting with
whether Appellees’ criminal convictions conclusively
establish that there was probable cause for Appellees’
arrests.
i.
Criminal Convictions
At the outset, it is necessary to address how
state collateral estoppel doctrine bears on this federal

25a
§ 1983 action. Pursuant to 28 U.S.C. § 1738, federal
courts must give full faith and credit to state court
judgments. Additionally, “Congress has specifically
required all federal courts to give preclusive effect to
state-court judgments whenever the courts of the
State from which the judgments emerged would do
so.” Allen v. McCurry, 449 U.S. 90, 96 (1980).
Accordingly, and as the district court noted in its
opinion, “[t]he doctrines of res judicata and collateral
estoppel apply to § 1983 actions, and federal courts
must afford preclusive effect to issues which have
been decided by state courts when the courts of that
state would do so.” J.A. 311; see also Migra v. Warren
City Sch. Dist. Bd. of Educ., 465 U.S. 75, 85 (1984)
(“We hold, therefore, that petitioner’s state-court
judgment in this litigation has the same claim
preclusive effect in federal court that the judgment
would have in the Ohio state courts.”).
Appellants contend that North Carolina courts
would find that Appellees’ criminal convictions, even
though they have since been vacated, collaterally
estop Appellees from challenging whether Appellants
had probable cause to arrest. See Griffis v. Sellars, 20
N.C. 315 (1838) (holding that conviction is conclusive
evidence of probable cause, even where “a contrary
verdict and judgment be given in a higher Court”); see
also Overton v. Combs, 108 S.E. 357, 358 (N.C. 1921)
(holding that a conviction establishes the existence of
probable cause, even if the conviction “is thereafter
set aside or reversed on appeal or other ruling in the
orderly progress of the cause”).
Contrary to Appellants’ assertion that this rule
“remains settled North Carolina law to this day,”
Appellants’ Br. 26, North Carolina courts have

26a
repeatedly called this rule into question. See Myrick
v. Cooley, 371 S.E.2d 492, 495 (N.C. Ct. App. 1988)
(“We question the continuing validity of this rule . . .
which allows a District Court judgment which is
subsequently overturned upon a trial de novo in
Superior Court to insulate the arresting officer from
liability . . . .”); see also Simpson v. Sears, Roebuck &
Co., 752 S.E.2d 508, 509 (N.C. Ct. App. 2013) (“We
note . . . that this doctrine has eroded somewhat over
time.”). Accordingly, there is reason to doubt whether
it remains good law that even a vacated conviction
precludes an individual from challenging whether
there was probable cause for his/her arrest in North
Carolina.9

Additionally, we question whether a state’s collateral
estoppel doctrine can require a federal court to afford preclusive
effects to an invalid state judgment in a federal § 1983 case. Such
an outcome would conflict with the Supreme Court’s holding in
Heck v. Humphrey, which specifically permits a plaintiff to
proceed with a § 1983 action when a conviction has been
reversed, expunged, or declared invalid:
9

We hold that, in order to recover damages
for allegedly unconstitutional conviction or
imprisonment, or for other harm caused by actions
whose unlawfulness would render a conviction or
sentence invalid, a § 1983 plaintiff must prove
that the conviction or sentence has been reversed
on direct appeal, expunged by executive order,
declared invalid by a state tribunal authorized to
make such determination, or called into question
by a federal court’s issuance of a writ of habeas
corpus, 28 U.S.C. § 2254.
512 U.S. 477, 486–87 (1994) (footnote omitted). Because we
conclude that North Carolina courts would not afford preclusive
effect to Appellees’ vacated convictions in this case, we need not
resolve this question.

27a
We need not resolve these uncertainties in
North Carolina law, however, because to the extent it
remains the rule that reversed or vacated judgments
are afforded preclusive effect on the issue of probable
cause, and assuming this is a matter of state
collateral estoppel doctrine and not a pleading
requirement for state malicious prosecution claims
(as argued by Appellees), we conclude that North
Carolina courts would refuse to give preclusive effect
to a judgment that was obtained improperly and later
invalidated.
As Appellants concede, there is an exception to
the rule that even reversed or vacated judgments are
afforded preclusive effects on the issue of probable
cause: “where a conviction [is] procured by ‘fraud or
other unfair means,’ it [does] not conclusively
establish probable cause.” Simpson, 752 S.E.2d at 509
(quoting Myrick, 371 S.E.2d at 495). Appellants
assert, however, that the fraud exception only applies
when convictions were appealed to the superior court
and reversed. Thus, Appellants argue, the exception
does not apply in this case, where Appellees’
convictions were affirmed on direct appeal but later
vacated in the superior court on a motion for
appropriate relief.
Appellants cite two cases to support this
assertion: Moore v. Winfield, 178 S.E. 605 (N.C. 1935),
and Simpson v. Sears, Roebuck & Co., 752 S.E.2d at
510. But neither case justifies reading the fraud
exception so narrowly. Both Moore and Simpson
involved convictions that were reversed on direct
appeal, and both courts dealt with the facts before
them. Neither Moore nor Simpson display an
intention to exclude convictions that were vacated or

28a
otherwise invalidated on the merits in ways other
than reversal in the superior court. And Appellants do
not provide any reason (much less a compelling
reason) to explain why North Carolina’s collateral
estoppel doctrine would differentiate between
invalidations on the merits.
Accordingly, the most sensible reading of the
fraud exception is the one espoused by the North
Carolina Court of Appeals in Myrick: “[I]n the absence
of a showing that the District Court conviction of
Myrick was obtained improperly, the conviction
establishes, as a matter of law, the existence of
probable cause for his arrest and defeats both his
federal and state claims for false arrest or
imprisonment.” 371 S.E.3d at 495 (emphasis
supplied). In this case, Appellants have sufficiently
alleged that their now-vacated state court convictions
were obtained improperly. Accordingly, collateral
estoppel does not preclude Appellants from
challenging the probable cause for their arrests.
ii.
Voluntariness of Confessions
Next, Appellants assert that Appellees are
estopped from disputing the voluntariness of their
confessions in this § 1983 action because the state
court judges presiding over Appellees’ criminal trials
ruled that the confessions were voluntary.
Appellants’
contentions
are
meritless.
Appellees’ criminal convictions were vacated. Apart
from the use of criminal convictions to establish
probable cause, which is not relevant to Appellants’
voluntariness argument, North Carolina collateral

29a
estoppel cases uniformly require a judgment to be
valid to have preclusive effect. See, e.g., North
Carolina v. Jones, 808 S.E.2d 280, 283 (N.C. Ct. App.
2017) (“The doctrine of collateral estoppel means
simply that when an issue of ultimate fact has once
been determined by a valid and final judgment, that
issue cannot again be litigated between the same
parties in any future lawsuit.” (emphasis supplied)
(internal quotation marks omitted)); North Carolina
v. Spargo, 652 S.E.2d 50, 53 (N.C. Ct. App. 2007)
(“Under the doctrine of collateral estoppel, an issue of
ultimate fact, once determined by a valid and final
judgment, cannot again be litigated between the same
parties in any future lawsuit.” (emphasis supplied)
(citation omitted)). Accordingly, collateral estoppel
does not prevent Appellees from litigating the
voluntariness of their confessions because there is no
valid and final judgment on the issue.
b.
Judicial Estoppel
Appellants further allege that Appellee
McCollum’s attorney’s judicial admission at
McCollum’s 1991 trial -- that McCollum “was there”
during the rape and murder, see Appellants’ Br. 48 -judicially estops McCollum from challenging the
voluntariness of his confession in his § 1983 action.
Of note, Appellants point to no case holding
judicial
estoppel
to
apply
in
comparable
circumstances, and as we have made clear, the
doctrine of judicial estoppel “must be applied with
caution” and only “in the narrowest of circumstances.”
Lowery v. Stovall, 92 F.3d 219, 224 (4th Cir. 1996). In
Lowery, we applied judicial estoppel to preclude a

30a
plaintiff from asserting in a § 1983 case that he did
not “maliciously attack[]” a police officer -- a claim
that was directly contrary to that plaintiff’s guilty
plea related to the underlying encounter, during
which he specifically admitted that he “maliciously
attacked” the officer. Id. at 221, 223. There are
significant differences between (1) estopping a
litigant from basing a civil claim on factual
allegations that are directly contrary to specific
admissions made by that litigant during a guilty plea
for the same conduct; and (2) binding a party to
statements previously made by counsel in a criminal
trial involving the death penalty, especially when the
conviction resulting from that criminal trial was
subsequently vacated.
The Lowery court listed three elements “that
have to be met before courts will apply judicial
estoppel”: (1) “the party sought to be estopped must
be seeking to adopt a position that is inconsistent with
a stance taken in prior litigation”; (2) “the prior
inconsistent position must have been accepted by the
court”; and (3) “the party sought to be estopped must
have ‘intentionally misled the court to gain unfair
advantage.’” 92 F.3d at 224 (quoting Tenneco Chems.,
Inc. v. William T. Burnett & Co., 691 F.2d 658, 665
(4th Cir. 1982)). Appellants make no attempt to show
that all three factors are present in this case. Nor
could they: significantly, there is no evidence that
counsel, either during the 1991 trial or in this § 1983
case, “intentionally misled the court to gain unfair
advantage.” Id. McCollum’s counsel’s attempt during
the 1991 trial to “make a case for mercy in order to
save his client’s life,” Appellees’ Br. 38, does not
judicially estop McCollum from challenging the
voluntariness of his confessions in this case.

31a
c.
Probable Cause as a Matter of Law
Finally, Appellants assert that they did not
violate Appellees’ constitutional rights because they
had probable cause to arrest Appellees as a matter of
law, on the basis of Appellees’ confessions and
subsequent incriminating statements. The district
court rejected this argument, concluding that
whether Appellants had probable cause to arrest
Appellees turns on whether Appellees’ confessions
were coerced or fabricated, which is a factual
question.
As this court has explained, “[p]robable cause
is determined by a ‘totality-of-the circumstances’
approach.” Smith v. Munday, 848 F.3d 248, 253 (4th
Cir. 2017) (quoting Illinois v. Gates, 462 U.S. 213, 230
(1983)). “While probable cause requires more than
bare suspicion, it requires less than that evidence
necessary to convict.” Id. (quoting United States v.
Gray, 137 F.3d 765, 769 (4th Cir. 1998)). “It is an
objective standard of probability that reasonable and
prudent persons apply in everyday life.” Id. (quoting
Gray, 137 F.3d at 769). In making this inquiry, we
consider only the information the officers had at the
time of the arrest. See id.; Graham v. Gagnon, 831
F.3d 176, 184 (4th Cir. 2016). Additionally, “we do not
examine the subjective beliefs of the arresting officers
to determine whether they thought that the facts
constituted probable cause.” Munday, 848 F.3d at 253
(quoting Graham, 831 F.3d at 185).
Viewing the facts recited by the district court
in the light most favorable to Appellees, there is no
basis for us to conclude that Appellants had probable

32a
cause to arrest Appellees as a matter of law. A
coerced or fabricated confession that police know to be
coerced -- as Appellees assert here, based on the use
of coercive interrogation tactics, the age and
intellectual disabilities of Appellees, and the
inconsistencies between the confessions and the crime
scene -- does not give police probable cause to arrest
the suspect as a matter of law. See Ashcraft v.
Tennessee, 322 U.S. 143, 155 (1944) (“The
Constitution of the United States stands as a bar
against the conviction of any individual in an
American court by means of a coerced confession.”).
For the same reason, McCollum’s confession
implicating Brown, if police knew it was coerced or
fabricated, did not provide probable cause for
Appellants to arrest Brown.10 Accordingly, the district
court did not err in concluding that Appellants did not
have probable cause as a matter of law to arrest
Appellees, and whether Appellees’ confessions were
coerced or fabricated must be determined by a jury.
2.
Whether Appellants’ Constitutional Rights Were
Clearly Established
Appellants next assert that even if they did
violate Appellees’ constitutional rights, the officers
Appellants also assert that even if McCollum’s
confession did not establish probable cause on its own,
McCollum’s subsequent statements to police and others
corroborated his first confession and “reaffirmed” the probable
cause. Appellants’ Br. 65. These statements -- to the extent they
are not factual disputes that must be determined by a jury -occurred after McCollum was arrested and were not “information
the officers had at the time” of the arrest. Munday, 848 F.3d at
253. As a result, any subsequent incriminating statements could
not “cure” arrests made without probable cause.
10

33a
could have believed that their conduct was lawful
because those constitutional rights were not clearly
established by existing precedent. Specifically,
Appellants argue that because “[t]here is no brightline rule for determining whether a suspect’s
statements were given voluntarily,” Appellants’ Br.
69 (quoting United States v. Rutherford, 555 F.3d 190,
195 (6th Cir. 2009)), they cannot be liable for allegedly
coercing Appellees’ confessions because qualified
immunity ensures that officers will be liable “only for
‘transgressing bright lines.’” Id. (quoting Doe v.
Broderick, 225 F.3d 440, 453 (4th Cir. 2000)).
Appellants are correct that “[o]fficials are not
liable for bad guesses in gray areas; they are liable for
transgressing bright lines.” Iko v. Shreve, 535 F.3d
225, 238 (4th Cir. 2008) (quoting Maciariello v.
Sumner, 973 F.2d 295, 298 (4th Cir. 1992)). However,
there does not need to be a case directly on point for a
right to be clearly established, and the fact that the
voluntariness of a confession is a fact-specific inquiry
does not excuse Appellants from abiding by clearly
established law regarding coercive police conduct.
“Clearly established . . . includes not only already
specifically adjudicated rights, but those manifestly
included within more general applications of the core
constitutional principle invoked.” Id. at 240 (quoting
Pritchett v. Alford, 973 F.2d 307, 314 (4th Cir. 1992)).
“In the end, the lodestar for whether a right was clearly
established is whether the law ‘gave the officials fair
warning that their conduct was unconstitutional.’” Id.
at 238 (quoting Ridpath v. Bd. of Governors Marshall
Univ., 447 F.3d 292, 313 (4th Cir. 2006)).
There can be no reasonable dispute that it was
clearly established in 1983 that an arrest in the

34a
absence of probable cause was a violation of an
individual’s Fourth Amendment rights, and that a
coerced confession could not form the basis of
probable cause for an arrest. See Ybarra v. Illinois,
444 U.S. 85, 91 (1979); Ashcraft, 322 U.S. at 155.
Further, existing precedent in 1983 would have made
it clear to a reasonable officer that the police conduct
at issue here, viewed in the light most favorable to
Appellees, was coercive.
For example, in Ashcraft, the Supreme Court
concluded that questioning a suspect continuously for
36 hours, without rest or sleep, was “so inherently
coercive that its very existence is irreconcilable with
the possession of mental freedom by a lone suspect
against whom its full coercive force is brought to
bear.” 322 U.S. at 154. To be sure, Appellees’
interrogations did not span 36 hours, but Appellees
were questioned late in the night and into the very
early morning without sleep. And unlike Appellees,
the suspect in Ashcraft was a 45 year old man with no
intellectual disability or other characteristic that
would make him particularly vulnerable to coercion.
Of note, the Supreme Court’s decision in Ashcraft
established that an interrogation can be coercive
solely due to the length of the questioning, even when
there is no allegation that the questions or other
police conduct was itself coercive, or that any violence
was involved.11

Appellants make much of the fact that the officers “did
not hit or beat” Appellees during the interrogation. Appellants’
Br. 5, 40. As Ashcraft makes clear, violence is not the only
indicator of coercive police interrogations. And, in any event,
Appellants did threaten Appellees, including with the specter of
the gas chamber.
11

35a
Then, in Haley v. Ohio, the Supreme Court held
that it was coercive to question a 15 year old boy alone
for about five hours, with no parent or lawyer present
and without advising the suspect of his right to
counsel.12 332 U.S. 596, 598 (1948). This was true
even though the suspect’s written confession included
a statement about his right not to make the
statement. As the Court held:
What transpired would make us pause
for careful inquiry if a mature man were
involved. . . . A 15-year old lad, questioned
through the dead of night by relays of
police, is a ready victim of the
inquisition. Mature men possibly might
stand the ordeal from midnight to 5 a.m.
But we cannot believe that a lad of
tender years is a match for the police in
such a contest.
Id. at 599–600.
And in Ferguson v. Boyd, 566 F.2d 873 (4th Cir.
1977), we concluded that a confession was
involuntary when it was coerced by psychological
means and induced by a promise that the suspect’s
girlfriend would be released from jail if he confessed.
As we noted, “It has long been recognized that
involuntary confessions may be exacted as a result of
mental coercion as well as physical abuse.” Id. at 877.
Significantly, each of the police strategies
found to be coercive in these cases were present in
Appellees’ interrogations. Viewing the evidence in
Although the suspect alleged that he had been beaten
by the officers, the Supreme Court did not consider this evidence.
See Haley, 332 U.S. at 597–98.
12

36a
the light most favorable to Appellees, (1) the
interrogations took place very late in the night into
the early morning; (2) Appellees were 19 and 15, both
with serious intellectual disabilities; (3) Appellants
threatened Appellees with the gas chamber and
yelled racial epithets at them; (4) neither Brown nor
McCollum was aware of his rights; and (5) both
Appellees were “tricked,” J.A. 600, into signing
the confessions drafted by Appellants. Appellees’
“background[s] and experience[s],” such as their age,
mental disabilities, and lack of prior interactions with
the police, are highly “relevant to the totality of the
circumstances” of the interrogation. United States
v. Giddins, 858 F.3d 870, 885 (4th Cir. 2017); see
also United States v. Ayesh, 702 F.3d 162, 168 (4th
Cir. 2012) (“[P]ersonal attributes,” such as “age,
education, intelligence, and mental state” are
relevant considerations). And, similar to Ferguson,
Appellees alleged that Appellants induced their
confessions using a number of promises and threats:
that Appellees could go home if they signed the
Miranda waivers and written confessions, which
officers suggested were merely paperwork for their
release; that Appellants would arrest Appellees’
mother; and that Appellees would be taken to “the gas
chamber” if they did not confess, J.A. 319, 321.
Appellants rely heavily on our decision in
United States v. Wertz, 625 F.2d 1128 (4th Cir. 1980),
to argue that the alleged actions of the officers here
did not render Appellees’ confessions involuntary.
According to Appellants, Wertz stands for the
proposition that “a gun . . . drawn on a suspect shortly
before the suspect made an incriminating statement
[does] not render the statement involuntary.”
Appellants’ Br. 43. Thus, Appellants’ argument goes,

37a
if drawing a gun on a suspect is not coercive, neither
is threatening a suspect with the gas chamber. But
this was not at all our holding in Wertz. There, we
emphasized that whether a confession is involuntary
“is a question of fact to be determined from ‘the
totality of all the surrounding circumstances[,] both
the characteristics of the accused and the details of
the interrogation.’” Wertz, 625 F.2d at 1134 (quoting
Schneckloth v. Bustamonte, 412 U.S. 218, 226 (1973)).
This determination may not “rest solely upon any one
circumstance.” Id. We did not hold, as Appellants
suggest, that an officer drawing a gun on a suspect to
extract a confession could not result in an involuntary
confession -- quite the opposite is true. See Beecher v.
Alabama, 389 U.S. 35 (1967) (holding a confession
involuntary where the suspect was ordered at
gunpoint to confess or be killed). The circumstances
in Wertz bear no resemblance to the facts alleged by
Appellees here.13
In light of all of the above, the circumstances of
Appellees’ interrogations easily fall within the bounds
In Wertz, an undercover officer posing as an illegal
drug trafficker attempted to purchase a bag of heroin from a
suspect, but instead purchased a $1,300 bag of sugar. The
undercover officer -- still appearing to be a drug trafficker, as far
as the suspect knew -- confronted the suspect about the “rip-off”
in a parking garage. A fight ensued, and the undercover officer
drew his gun. At some point during the encounter, the suspect
“confessed” that the undercover officer’s confidential informant
was to blame for the sugar. We concluded that the sole fact that
the undercover officer drew his gun during the fight was not
sufficient to establish that the suspect’s statements were
involuntary, where “[n]one of the factors found important on the
voluntariness issue, other than that one fact, was present,” and
“[t]he encounter had none of the aspects of a police interrogation,
with its inherent compulsions.” Wertz, 625 F.2d at 1134, 1135.
13

38a
of coercive police conduct outlined in Ashcraft, Haley,
Ferguson, and other established precedent as “so
inherently coercive that its very existence is
irreconcilable with the possession of mental freedom”
by Appellees. Ashcraft, 322 U.S. at 154. Therefore, the
district court did not err by concluding that Appellees’
right not to be arrested without probable cause based
on a coerced and fabricated confession was clearly
established in 1983, and the district court was correct
to deny summary judgment to Appellants on the basis
of qualified immunity in light of the numerous
material disputes of fact.
C.
Due Process Claims
Appellants next challenge the district court’s
denial of summary judgment as to Appellees’ due
process claims. Appellees assert that Appellants, in
order to shield their wrongful conduct related to the
coerced or fabricated confessions, “hid exculpatory
information and blocked the production of evidence
that showed [Appellees’] innocence.” Appellees’ Br.
11. Specifically, Appellees allege that Appellants
violated the Brady doctrine14 by failing to disclose
(1) evidence that another suspect, Roscoe Artis,
committed similar crimes in the same area and
during the same time period as Buie’s rape and
murder; and (2) a statement to police by Mary
McLean Richards that she witnessed Artis attack
Buie the night Buie went missing. In addition to
these Brady-based claims, Appellees further assert
that Appellants violated their due process rights by
(1) coercing a witness, L.P. Sinclair, to testify falsely;
14

Brady v. Maryland, 373 U.S. 83 (1963).

39a
(2) coercing Appellees to confess; and (3) failing in bad
faith to adequately investigate the crime.
Appellants moved for summary judgment as to
Appellees’ due process claims on the basis of qualified
immunity. The district court denied summary
judgment upon concluding that the facts, viewed in
the light most favorable to Appellees, demonstrated
that
Appellants
violated
Appellees’
clearly
established due process right “not to be deprived of
liberty as a result of the fabrication of evidence by a
government officer acting in an investigating
capacity.” J.A. 322 (quoting Massey v. Ojaniit, 759
F.3d 343, 354 (4th Cir. 2014)).
Appellants assert that the district court’s
denial of summary judgment was erroneous because
each of Appellees’ due process claims fails as a matter
of law. In the alternative, Appellants argue that even
if they did violate Appellees’ constitutional rights, the
officers could have believed that their conduct was
lawful because those constitutional rights were not
clearly established by existing precedent. For the
reasons that follow, we affirm the district court’s
denial of summary judgment as to Appellees’ due
process claims.
1.
Claims for Suppression of Evidence
Appellees allege that Appellants violated the
Brady doctrine by suppressing two types of
information that implicated Artis, rather than
Appellees, as Buie’s attacker: (1) evidence that Artis
committed similar crimes in the same area and
during the same time period as Buie’s rape and

40a
murder, and that Appellants considered Artis a
suspect in Buie’s case; and (2) a statement to police by
Richards that she witnessed Artis attack Buie the
night Buie went missing. Appellants assert that
neither type of evidence establishes a claim of a Brady
violation as a matter of law.
a.
Evidence Connecting Artis as a Suspect
In Brady v. Maryland, 373 U.S. at 87, the
Supreme Court held that the government’s suppression
of material exculpatory evidence violates the Due
Process Clause. “Evidence is material if there is a
‘reasonable probability that its disclosure would have
produced a different result.’” United States v. Parker,
790 F.3d 550, 558 (4th Cir. 2015) (quoting United
States v. Bartko, 728 F.3d 327, 340 (4th Cir. 2013)).
“This standard does not require a showing that a jury
more likely than not would have returned a different
verdict. Rather, the ‘reasonable probability’ standard
is satisfied if ‘the likelihood of a different result is
great enough to undermine confidence in the outcome
of the trial,’” id. (quoting Barkto, 728 F.3d at 340), or
the suppression “cast[s] serious doubt on the
proceedings’ integrity,” Owens v. Baltimore City
State’s Attorneys Office, 767 F.3d 379, 398 (4th Cir.
2014).
Unlike prosecutors, however, police officers
commit a constitutional violation only when they
suppress exculpatory evidence in bad faith. Owens,
767 F.3d at 396 & n.6, 401. Accordingly, as the district
court correctly noted, Appellees’ Brady-based due
process claims hinge on the jury determining that
Appellants suppressed material Brady exculpatory

41a
evidence in bad faith. Additionally, to prove a due
process violation, Appellees must prove both but-for
causation and proximate causation -- in other words,
that the alleged wrongful act(s) caused Appellees’ loss
of liberty and the loss of liberty was a reasonably
foreseeable result of the act. See Massey, 759 F.3d at
354–56; Evans v. Chalmers, 703 F.3d 636, 647–48
(4th Cir. 2012).
Appellants assert that they did not violate
Brady by failing to disclose information linking Artis
as a suspect of the crime because (1) Artis’s criminal
history and the facts of his conviction for Joanne
Brockman’s rape and murder were publicly available
information; (2) the district attorney who prosecuted
Appellees had also prosecuted Artis, so he was aware
of Artis’s criminal history; and (3) attorney Earl
Strickland, a member of Appellees’ defense team in
their October 1984 trial, was also Artis’s attorney in
the August 1984 Brockman trial. As Appellants
argue, this means that Artis’s criminal history and
the details of Artis’s 1984 trial and conviction were
well known to Appellees at the time of their first trial,
and “there is no Brady violation where ‘the defense
already possesses the evidence.’” Appellants’ Br. 57
(quoting United States v. Higgs, 663 F.3d 726, 735
(4th Cir. 2011)). Further, Appellants argue that they
did not suppress Artis’s criminal history from the
district attorney since he was already aware of it.
Appellants’ arguments are unconvincing.
Appellees’ claim is not that Appellants should have
turned over Artis’s rap sheet, but that once the
officers identified Artis as a suspect -- particularly in
light of other evidence that pointed to Artis as the
perpetrator of the crime -- they were obligated to

42a
disclose this exculpatory information. The fact that
Artis’s rap sheet was public information, the district
attorney was aware of Artis’s crimes, or that a
member of the defense team was an attorney for Artis
is not enough to disclose to Appellees that the officers,
in the course of their investigation, recognized the
similarities between Buie’s murder and Artis’s crimes
and identified Artis as a suspect. Indeed, the fact that
the same district attorney prosecuted Artis in a
different rape and murder case does not mean that
district attorney should have known that Artis was a
suspect in Buie’s rape and murder. It is the officers’
job to investigate the crime and identify suspects, not
the prosecutor’s. The same is true for Attorney
Strickland: the connection between Artis and one of
Appellees’ counsel is not enough to show that
Appellees possessed the relevant information about
Artis. Even if Strickland noticed the similarities
between the crimes, he had no way to know that
Appellants had considered Artis a suspect in Buie’s
murder, which is the key evidence Appellants failed
to disclose.
Accordingly, the district court did not err in
denying Appellants’ motion for summary judgment as
to their failure to disclose evidence that Artis
committed similar crimes in the same area and
during the same time period as Buie’s rape and
murder, and that Artis was considered a suspect in
the crime.
b.
Richards’s Statement
As for Richards’s statement to Detectives
Sealey and Locklear that she had seen Artis attack

43a
Buie the night Buie went missing, we conclude that
the evidence was clearly material, and a reasonable
jury could conclude that it was suppressed by
Appellants in bad faith. Indeed, the stark difference
between what Richards alleges she told the officers
and the two officers’ interview notes supports the
conclusion that if Appellees’ allegations are true, this
evidence was suppressed and obscured by Appellants.
Neither set of interview notes from the officers
mentions Artis, or the fact that Richards was an eyewitness to the crime. Instead, Detective Sealey’s notes
say Richards reported that she saw “three (3) Indian
males at Hardin’s Grocery at this time and one (1) of
the Indian males was talking rough to [Buie],” J.A.
1595, whereas Detective Locklear’s notes indicate
only that the interview generated “negative results,”
id. at 326.
Appellants argue that Appellees cannot
establish a Brady violation on these facts because
Appellants disclosed that they interviewed Richards,
and Detective Sealey’s notes indicated that Richards
stated she had seen Buie shortly before the crime
with “three (3) Indian males,” one of which was
“talking rough” to Buie. J.A. 1595. But viewing the
facts in the light most favorable to Appellees, Sealey’s
notes egregiously mischaracterized the content of
Richards’s statement. This was insufficient to
insulate Appellants from liability for a Brady
violation, even if the fact of Richards’s interview was
disclosed.
Here, if Appellees’ assertions are true,
Appellants intentionally fabricated, obscured, and
failed to disclose the most relevant and exculpatory
evidence in the case: the statement from an eye-

44a
witness affirmatively identifying a different suspect
as Buie’s attacker. Accordingly, Appellees adequately
alleged that Appellants failed to comply with their
Brady disclosure obligations, and that they did so in
bad faith.
2.
Remaining Due Process Claims
In addition to the Brady-based claims,
Appellees raise three due process claims: (1)
Appellants unconstitutionally coerced a witness, L.P.
Sinclair, to testify falsely; (2) Appellees’ confessions
were unconstitutionally coerced (which violated
Appellees’ right to due process in addition to their
Fourth Amendment rights); and (3) Appellants in bad
faith failed to adequately investigate the crime.
Appellants argue that each of these claims fails as a
matter of law. For the reasons explained below,
Appellants are incorrect.
a.
Coerced, False Testimony by L.P. Sinclair
Appellees assert that Appellants coached or
coerced Sinclair to testify falsely, which Sinclair
agreed to do only after Appellants identified Sinclair
as a suspect and requested his fingerprints. As
Appellees allege, “[t]his, combined with Sinclair’s
youth (age 16), along with the other evidence of
[Appellants’] bad faith, suggest that Sinclair’s
statements were coerced or fabricated.” Appellees’ Br.
52 (citation omitted).
Viewing the facts in the light most favorable to
Appellees, Appellants’ assertion that Sinclair’s

45a
testimony was voluntary as a matter of law is
unsupported by the record. And whether any
Appellants were present on October 5, 1984, when
Sinclair changed his story to implicate McCollum, is
a question of fact for a jury to determine.
b.
Coerced Confessions by Appellees
In its decision, the district court suggested that
the use of Appellees’ confessions, if coerced, may
violate Appellees’ rights to due process. To the extent
Appellees assert a due process claim on this basis,
Appellants’ arguments that these confessions were
voluntary as a matter of law fail for the same reasons
explained above. Further, like the district court, we
conclude that Appellees’ incarceration was a clearly
foreseeable result of the alleged fabrication of
Appellees’ confessions. Accordingly, if Appellees’
allegations are true, they have demonstrated both
but-for and proximate causation. See Massey, 759
F.3d at 354–56.
c.
Failure to Adequately Investigate
Finally, Appellees assert that Appellants
violated Appellees’ right to due process by failing to
sufficiently investigate Artis and Sinclair in
connection with Buie’s rape and murder. This
includes Appellants’ failure to test whether Artis or
Sinclair’s fingerprints matched the latent print found
on the beer can at the crime scene.
Appellants are correct that in general, there is
no independent constitutional right to investigation of

46a
a third party. See Sattler v. Johnson, 857 F.2d 224,
227 (4th Cir. 1988) (stating that there is no
constitutional right “as a member of the public at
large and as a victim to have the defendants
criminally prosecuted”); see also Baker v. McCollan,
443 U.S. 137, 146 (1979) (stating that law
enforcement have no constitutional duty to
“investigate independently every claim of innocence”
or “perform an error-free investigation”). However,
Appellees do not state a claim based on an
independent right to an investigation, but rather that
Appellants’ failure to investigate was a result of their
bad-faith suppression of evidence. Indeed, the district
court concluded that Appellees’ claims could establish
a due process violation if the jury concluded that
Appellants’ actions after Appellees’ arrests -including failing to adequately investigate Artis and
the crime scene and failing to disclose exculpatory
evidence -- were done in bad faith in order to shield
Appellants’ wrongful acts related to Appellees’
coerced or fabricated confessions. We find no error in
the district court’s conclusion.
3.
Whether the Constitutional Rights were
Clearly Established
Finally, Appellants challenge the district
court’s denial of summary judgment by asserting that
even if they violated Appellees’ due process rights,
“the officers are entitled to summary judgment
because, given the existing case law during the
relevant time period, it was not ‘beyond debate’ that
the specific actions taken by the officers violated the
Constitution.” Appellants’ Br. 70 (citation omitted).

47a
This is the full extent of Appellants’ argument on this
point. Appellants include no explanation for how they
believe the district court erred.
But there can be no reasonable dispute, as the
district court correctly concluded, that it was clearly
established in 1983 that an individual has a
constitutional right not to be deprived of liberty as a
result of the intentional, bad-faith withholding of
evidence by an investigating officer. See Jean v.
Collins, 221 F.3d 656, 663 (4th Cir. 2000) (holding
that it was clearly established in 1982 that when
police intentionally withhold or destroy evidence, or
otherwise act in bad faith, their actions violate the
due process rights of a criminal defendant). The same
is true for an individual’s constitutional right not to
be deprived of liberty as a result of the fabrication of
evidence by an investigating officer. See Washington
v. Wilmore, 407 F.3d 274, 283–84 (4th Cir. 2005)
(holding that officer’s alleged fabrication of evidence,
if true, violated clearly established constitutional
right). Finally, as the district court concluded, “it has
long been established that when law enforcement acts
in reckless disregard of the truth and makes a false
statement or material omission that is necessary to a
finding of probable cause, the resulting seizure will be
determined to be unreasonable,” J.A. 317 (citing
Franks v. Delaware, 438 U.S. 154, 157 (1978)), and “it
is established that a conviction obtained through the
use of false evidence, known to be such by
representatives of the State, must fall under the
Fourteenth Amendment,” id. (quoting Napue v.
Illinois, 360 U.S. 264, 269 (1959)).
It was beyond debate at the time of the events
in this case that Appellees’ constitutional rights not

48a
to be imprisoned and convicted based on coerced,
falsified, and fabricated evidence or confessions, or to
have material exculpatory evidence suppressed, were
clearly established.
IV.
For all of the reasons detailed herein, the
district court did not err in denying summary
judgment to Appellants. The judgment of the district
court is
AFFIRMED.
RICHARDSON, Circuit Judge, concurring in part and
dissenting in part:
I agree that the Plaintiffs’ Fourth Amendment
claims should survive summary judgment and that
their Fifth Amendment claims arising from their
confessions and Mary Richards’s statement should
likewise go to trial. However, on the remaining due
process claims—the officers’ failure to investigate
Artis, the coercive questioning of Sinclair, and the
failure to disclose their impressions of Artis as a
suspect—the Plaintiffs fail to articulate the violation
of a constitutional right. And even if they could, these
alleged due process rights were not clearly
established in 1983. I would therefore reverse on
these remaining Fifth Amendment claims.

49a
[ENTERED: March 1, 2018]
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
NORTH CAROLINA WESTERN DIVISION
No. 5:15-CV-451-BO
RAYMOND TARLTON,
)
as guardian ad litem for HENRY )
LEE MCCOLLUM, and J. DUANE )
GILLIAM, as guardian of the
)
estate of LEON BROWN,
)
)
Plaintiffs,
)
)
v.
)
)
KENNETH SEALEY,1
)
both individually and in his
)
official capacity as the Sheriff of
)
Robeson County, et al.,
)
)
Defendants.
)

ORDER

This cause comes before the Court on motions
for summary judgment pursuant to Rule 56 of the
Federal Rules of Civil Procedure as well as plaintiffs’
motion for sanctions. A hearing on the dispositive,
motions was held before the undersigned on January
23,2018, at Raleigh, North Carolina. The motions
have been fully briefed and are in this posture ripe for
ruling. For the reasons that follow, defendants’
motions for summary judgment are granted in part
The Court has amended the caption to reflect the settlement
with the Town of Red Springs defendants.

1

50a
and denied in part and plaintiffs’ motions for
summary judgment and for sanctions are denied.
PROCEDURAL HISTORY
Henry McCollum and Leon Brown instituted
this action against Robeson County, Kenneth Snead,
Joel Locklear, the Town of Red Springs, Kenneth
Sealey, Larry Floyd, Paul Canady for the Estate of
Luther Haggins, and Leroy Allen on August 31, 2015.
[DE 1]. Their amended complaint alleges four
claims arising under 42 U.S.C. § 1983: false arrest,
malicious prosecution, deprivation of due process, and
municipal liability for custom, usages, practices,
procedures, and policies as a result of which
McCollum’s and Brown’s2 constitutional rights were
violated. McCollum and Brown seek a declaratory
judgment that defendants have violated their rights
as provided by the United States Constitution, an
award of compensatory and punitive damages, and
attorneys’ fees. [DE 70].
A guardian was appointed to represent the
interests of Leon Brown on March 14,2016 [DE 66]; a
substitute guardian was appointed on May 31, 2016.
[DE 85]. On May 27, 2016, the Court denied a motion
to dismiss by Snead and Allen and granted a motion
to dismiss filed by defendant Robeson County. [DE 83
& 84]. On December 12, 2016, Robert E. Price,
Administrator C.T.A. of the Estate of Joel Locklear
was substituted as a party for defendant Locklear.
[DE 116]. A guardian ad litem was appointed to
represent the interests of Henry McCollum on May
Henry McCollum will be hereinafter referred to as Henry
McCollum or McCollum. Leon Brown will be hereinafter
referred to as Leon Brown or Brown.

2

51a
10, 2017. [DE 204]. On December 18, 2017, the Court
approved a settlement between plaintiffs and the
Town of Red Springs, Larry Floyd, and Paul Canady,
Administrator C.T.A. of the Estate of Luther Haggins.
[DE 253].
FACTUAL BACKGROUND
The following is comprised of the undisputed
facts upon which all parties rely in·their motions for
summary judgment. [DE 127-1; 165; 178; 183; 185-1].
Eleven-year old Sabrina Buie went missing on
the night of Saturday, September 24, 1983, in the
Town of Red Springs in Robeson County, North
Carolina. Her parents filed a missing persons report
with the Red Springs Police Department on Sunday,
September 25, 1983. James Shaw discovered Sabrina
Buie’s body on Monday afternoon, September 26,
1983, in a soybean field near a convenience store in
Red Springs. Miss Buie’s body was found naked from
the waist down with her bra pushed up over the back
of her head. Her panties and a stick were down her
throat, and she had been sexually assaulted.
The Red Springs Police Department requested
that the North Carolina State Bureau of Investigation
(SBI) participate in the murder investigation.
Defendant Leroy Allen, then a resident SBI agent in
Robeson County, was dispatched to process the crime
scene. The Sheriff of Robeson County assigned
defendants Detective Joel Garth Locklear and
Detective Kenneth Sealey to provide additional
support to the SBI. Defendants SBI Agent Kenneth
Snead and Detective Sealey,3 were dispatched to
3

Sealey is now the Sheriff of Robeson County.

52a
canvass the neighborhood for witnesses. Defendant
Locklear also participated in the investigation by
canvassing the area near where Sabrina Buie’s body
was discovered, as did other law enforcement agents.
On September 27, 1983, while canvassing the
neighborhood for witnesses, Locklear spoke to
plaintiff Henry McCollum outside of McCollum’s
home at 104 Malpass Avenue. McCollum denied any
knowledge of the disappearance of Miss Buie. At the
time, McCollum was staying with his mother, Mamie
Brown, and his half-siblings Leon and Geraldine
Brown; McCollum was visiting from New Jersey. At
approximately 6:20p.m. on September 28, 1983,
Agent Snead and Detective Sealey interviewed Ethel
Furmage, then seventeen years-old, at her residence.
Miss Furmage stated that she had heard at school
that McCollum (referred to as Buddy by those who
knew him) had something to do with Miss Buie’s
murder. That evening, Snead, Sealey, and Agent
Allen traveled to McCollum’s home to interview him,
arriving at approximately 9:10 p.m. McCollum agreed
to ride with the officers to the Red Springs police
station.
After arriving at the police station,
McCollum was fingerprinted and taken to the office of
Red Springs Police Chief Luther Haggins for
questioning.
A Miranda waiver form bearing McCollum’s
signature reflects the time of 10:26 p.m. on September
28th. At 2:10a.m. on September 29, 1983, McCollum
signed a handwritten confession which was drafted by
Agent Snead and witnessed by Sealey and Chief
Haggins. [DE 147-29]; [DE 146-11] Snead Dep. at 50.
The confession details that McCollum along with
Darrell Suber, Louis Moore, Chris (last name

53a
unknown) and Leon Brown walked down the road
toward the little red house with Miss Buie at
approximately 9:30p.m. on Saturday September 24th.
After Suber and Chris left and returned from the
convenience store with a six pack ·of beer, Suber,
Chris, McCollum, Moore, and Brown discussed raping
Buie as she had not agreed to have sex with them
voluntarily. Moore then left, and the remaining men
and Miss Buie walked to the woods at the edge of a
field where they drank beer. McCollum grabbed Miss
Buie’s right arm and Brown grabbed her left arm and
then men proceeded to rape Miss Buie; McCollum
stated he was the third in the group to rape Miss Buie
and that Brown was the last. The confession recounts
that Suber then stated that they had to do something
so that she would not tell the police, and that Chris
then picked up a stick and tied Miss Buie’s pink
panties to the stick and choked Miss Buie to death.
McCollum and Brown held Miss Buie down while she
was being choked and Suber was cutting Miss Buie
with a knife. After they believed Miss Buie to be dead,
the men dragged her body to the edge of the woods
toward a ditch.
Suber had blood on his brown
corduroy jacket and gray Nike tennis shoes with a
burgundy seal, and Chris had blood on his sneakers,
which were New Yorkers. Suber and Chris were
smoking Newport cigarettes in the woods. !d. Henry
McCollum’s intelligence quotient has been scored as
low as 56.
After signing the transcribed confession,
McCollum was placed under arrest for the rape and
murder of Miss Buie. While McCollum was being
questioned, his mother Mamie Brown and brother
Leon Brown had gone to the Red Springs police
station. At approximately 2:00 a.m. on September

54a
29th, Brown was asked by law enforcement to step
into a room and talk with them, which he did. Brown,
then fifteen years-old, signed a form entitled
“Juvenile Rights Warning” at 2:24a.m. [DE 148-35].
Brown was interviewed by Detective Locklear and
Red Springs Police Chief Haggins. Leon Brown
signed a confession that was reduced to writing by
Detective Locklear.
Leon Brown’s confession
implicated Darrell Suber and Chris Brown, but
differed in aspects from McCollum’s confession. For
example, Brown’s confession makes no mention of
Louis Moore’s involvement nor does it reference a
stick as being used to force Miss Buie’s underwear
down her throat. Following his confession, Leon
Brown was arrested for the rape and murder of
Sabrina Buie; juvenile petitions charging Brown with
delinquency related to rape and murder were filed on
September 29, 1983. [DE 161-13]. Leon Brown’s
intelligence quotient has been scored consistently in
the mid-50s range.
On September 30, 1983, McCollum made an oncamera statement to a television reporter that he had
‘‘just held her down. That’s it.” [DE 161-19] Barnes
Aff. ¶6. McCollum and Brown were indicted by a
grand jury on January 3, 1984, on charges of first
degree murder and rape. [DE 161-16]. They were
tried together in Robeson County Superior Court in
October 1984. The prosecutor was District Attorney
Joe Freeman Britt, McCollum was represented by
Earl Strickland, and Brown was represented by
Robert Johnson. [DE 140-1] 1984 Trial Tr. at 1.
McCollum and Brown both moved to suppress their
confessions and their motions were denied. The trial
court held that both McCollum and Brown had
voluntarily gone to the Red Springs police station and

55a
that before each was questioned he had knowingly
and intelligently waived his rights. [DE 142-3] 1984
Trial Tr. at 1346-51]. The trial court held that the
statements of McCollum and Brown were made
freely, voluntarily, and knowingly without duress,
coercion, or inducement. Id. McCollum and Brown
both testified at trial, each was convicted of first
degree murder and rape, and each was sentenced to
death.
On appeal, the North Carolina Supreme Court
reversed and remanded for a new trial, finding error
in the trial court’s jury instructions.
State v.
McCollum, 321 N.C. 557 (1988). McCollum and
Brown were retried separately in adjacent counties.
McCollum was retried in Cumberland County in
November 1991. On July 31, 1991, the Cumberland
County Superior Court denied McCollum’s motion to
suppress his confession, specifically concluding that
none of McCollum’s constitutional rights were
violated by his arrest, detention, interrogation, or
statement, that his statement was made freely and
voluntarily, that McCollum was in full understanding
of his constitutional rights and that he waived those
rights freely, knowingly, and intelligently. [DE 16131]. During his opening and closing statements, and
with the consent of McCollum, McCollum’s attorney
argued to the jury to that McCollum was present for
the rape and murder of Miss Buie and asked the jury
to return a verdict of second degree murder. The jury
returned a verdict of guilty on the charges of first
degree murder and rape, and McCollum was again
sentenced to death. [DE 141-1] 1991 Trial Tr. at
1597-98; 1632-33; 2058-2065]. The North Carolina
Supreme Court affirmed McCollum’s conviction and
sentence. State v. McCollum, 334 N.C. 208 (1993).

56a
The United States Supreme Court denied McCollum’s
petition for writ of certiorari. McCollum v. North
Carolina, 512 U.S. 1254 (1994).
In June 1992 Brown was retried in Bladen
County Superior Court. Brown’s motion to suppress
his confession was denied, the court concluding that
Brown knowingly, intelligently, and voluntarily
waived his rights, that none of his rights under the
North Carolina or United States Constitution had
been violated, and that his statement was voluntary
and not the result of any coercion, pressure, or
intimidation. [DE 166-3]. The trial court later
granted a defense motion to dismiss the first degree
murder charge, finding that Brown had withdrawn
from a conspiracy to commit murder, and the jury
found Brown guilty of first degree rape. [DE 146-1]
1992 Trial Tr. at 288]. Brown was sentenced to life
imprisonment. Id. at 310. Brown’s conviction and
sentence were affirmed on appeal both in the North
Carolina Court of Appeals and the North Carolina
Supreme Court. State v. Brown, 112 N.C. App. 390
(1993); State v. Brown, 339 N.C. 606 (1995). Brown
did not file a petition for writ of certiorari to the
United States Supreme Court.
In 2009, Brown sought assistance from the
North Carolina Innocence Inquiry Commission
(NCIIC). The NCIIC accepted Brown’s case and
began its investigation, which included DNA testing
of physical evidence found at the scene of the crime.
A Newport-brand cigarette butt found near other
evidence was found to contain DNA which matched
that of Roscoe Artis. Roscoe Artis is currently serving
a life sentence, commuted from death, following his
conviction in Robeson County for the first degree

57a
murder and rape of Joann Brockman. See State v.
Artis, 325 N.C. 278 (1990), cert. granted, judgment
vacated, 494 U.S. 1023 (1990); see also State v. Artis,
329 N.C. 679, 680 (1991). Artis was arrested on
October 22, 1983, the same day Ms. Brockman went
missing and her body was discovered, and tried in
August 1984. [DE 129-1]. Defendants Allen and
Locklear testified for the state in Artis’ trial, Locklear
having participated in the arrest and investigation of
Artis and Allen having conducted testing on a blood
sample taken from Artis. See [DE 129-1;132-1] Artis
Trial Tr. at 618-620; 707-711.
Other than Miss Buie, the DNA tested on other
items of physical evidence found at the crime scene
did not match any known person, including McCollum
and Brown. Although McCollum had not filed a claim
with the NCIIC, the Commission expanded its
investigation to include McCollum. Following a
hearing held September 2, 2014, on motions for
appropriate relief (MAR) filed by McCollum and
Brown, at which the investigator from the NCIIC, Ms.
Sharon Stellato was the sole witness, the Robeson
County Superior Court granted the motions and
vacated McCollum and Brown’s convictions. [DE 1547; 155-7]. The State did not contest that the newlydiscovered DNA evidence was favorable to McCollum
and Brown and conceded that McCollum and Brown
had satisfied the requirements of N.C. Gen. Stat.
§ 15A-270 (c)(2), which governs the relief available to
petitioners who come forward with favorable DNA
evidence post-conviction. The MAR court held that,
“especially when considered together with the rest of
the results of the [NCIIC]’s investigation,” the
favorable DNA evidence “tend[s] to establish Henry
McCollum’s and Leon Brown’s innocence of crime for

58a
which they were convicted and sentenced ....” [DE
155-7 at 3-4]. The MAR court ordered the vacatur of
their convictions and sentences as imposed in
Robeson, Cumberland, and Bladen Counties,
dismissed with prejudice all charges in the cases, or
order their immediate release. Id. On June 5, 2015,
McCollum and Brown were issued full pardons of
innocence by Governor Pat McCrory. [DE 147-14].
DISCUSSION
I.

Motions for Summary Judgment

The parties have moved for entry of summary
judgment or partial summary judgment pursuant to
Rule 56 of the Federal Rules of Civil Procedure. A
motion for summary judgment may not be granted
unless there are no genuine issues of material fact for
trial and the movant is entitled to judgment as a
matter of law. Fed. R. Civ. P. 56(a). The moving party
bears the initial burden of demonstrating the absence
of a genuine issue of material fact. Celotex Corp. v.
Catrett, 477 U.S. 317, 323 (1986). If that burden has
been met, the non-moving party must then come
forward and establish the specific material facts in
dispute to survive summary judgment. Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
588 (1986). In determining whether a genuine issue
of material fact exists for trial, a trial court views the
evidence and the inferences in the light most
favorable to the nonmoving party. Scott v. Harris, 550
U.S. 372, 378 (2007). However, “[t]he mere existence
of a scintilla of evidence” in support of the nonmoving
party’s position is not sufficient to defeat a motion for
summary judgment. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 252 (1986). “A dispute is genuine if a

59a
reasonable jury could return a verdict for the
nonmoving party. . . . and [a] fact is material if it
might affect the outcome of the suit under the
governing law.” Libertarian Party of Virginia v.
Judd, 718 F.3d 308, 313 (4th Cir. 2013) (internal
quotations and citations omitted). Speculative or
conclusory allegations will not suffice. Thompson v.
Potomac Elec. Power Co., 312 F.3d 645,649 (4th Cir.
2002).
The Court considers first the motions for
summary judgment by the two remaining sets of
defendants and the affirmative defenses raised
therein.
A. Collateral Estoppel
Both the SBI defendants, Allen and Snead, and
the Robeson County Sheriff’s Office defendants,
Sealey and Locklear, have raised the defense of
collateral estoppel or res judicata. Specifically,
defendants contend that collateral estoppel prevents
plaintiffs from re-litigating here whether probable
cause existed to support their arrests and whether
their confessions were voluntary. Defendants argue
that plaintiffs’ convictions, though later vacated,
conclusively establish that probable cause existed and
that the state court judges’ rulings on the plaintiffs’
motions to suppress their confessions conclusively
establish that their confessions were voluntary.
The federal courts have traditionally
adhered to the related doctrines of res
judicata and collateral estoppel. Under
res judicata, a final judgment on the
merits of an action precludes the parties
or their privies from relitigating issues

60a
that were or could have been raised in
that action. . . . Under collateral estoppel,
once a court has decided an issue of fact
or law necessary to its judgment, that
decision may preclude relitigation of
the issue in a suit on a different cause
of action involving a party to the first
case. . . . As this Court and other courts
have often recognized, res judicata and
collateral estoppel relieve parties of the
cost and vexation of multiple lawsuits,
conserve judicial resources, and, by
preventing
inconsistent
decisions,
encourage reliance on adjudication.
Allen v. McCurry, 449 U.S. 90, 94 (1980) (internal
citations omitted). The doctrines of res judicata and
collateral estoppel apply to § 1983 actions, and federal
courts must afford preclusive effect to issues which
have been decided by state courts when the courts of
that state would do so. Id. at 95-96 (citing 28 U.S.C.
§ 1738); see also Davenport v. N Carolina Dep’t of
Transp., 3 F.3d 89, 92 (4th Cir. 1993) (federal court
considering § 1983 action to give res judicata effect to
a state court judgment and to apply the law of the
rendering state to determine whether and to what
extent the state court judgment should be given
preclusive effect).
In order to assert collateral estoppel
under North Carolina law, a party must
show that the issue in question was
identical to an issue actually litigated
and necessary to the judgment, that the
prior action resulted in a final judgment
on the merits, and that the present

61a
parties are the same as, or in privity
with, the parties to the earlier action.
North Carolina courts have abandoned
the final requirement of “mutuality of
estoppel” for the defensive use of
collateral estoppel, so long as the party
seeking to reopen the issue “had a full
and fair opportunity to litigate” the
matter in the previous action.
Sartin v. Macik, 535 F.3d 284, 287-88 (4th Cir. 2008)
(citing Thomas M. McInnis & Assocs., Inc. v. Hall, 318
N.C. 421,349 S.E. 2d 552,557, 560 (1986)).
Although identical issues which were
necessary to the judgment were actually litigated by
the North Carolina courts, the Court holds that the
doctrines of collateral estoppel and res judicata are
inapplicable here.
A movant may recover damages for an allegedly
unconstitutional conviction or imprisonment by
proceeding with causes of action under 42 U.S.C.
§ 1983 where the conviction or sentence has been,
inter alia, expunged by executive order or declared
invalid by an appropriate state tribunal. Heck v.
Humphrey, 512 U.S. 477, 486-87 (1994). This is
because where, as here, the prior conviction has been
vacated or overturned, concerns regarding finality
and consistency are no longer at issue. McCollum’s
and Brown’s convictions and sentences, as imposed at
both their first and second trials, were vacated by the
North Carolina Superior Court in its MAR opinion.
[DE 155-7]. To vacate means to nullify or cancel,
make void, or invalidate. Black’s Law Dictionary
(10th ed. 2014). Accordingly, it is a “bedrock principle

62a
of preclusion law” that a judgment that has been
reversed or vacated cannot form the basis of a
preclusion defense.
Levi Strauss & Co. v.
Abercrombie & Fitch Trading Co., 719 F.3d 1367,
1372 (Fed. Cir. 2013); see also S.C. Nat. Bank v. Atl.
States Bankcard Ass’n, Inc., 896 F.2d 1421, 1430 (4th
Cir. 1990).
In asserting their collateral estoppel defenses,
the defendants rely on cases in which North Carolina
courts have applied a rule which provides that, in civil
actions for malicious prosecution, “absent a showing
that the conviction in District Court was procured by
fraud or other unfair means, the conviction
conclusively establishes the existence of probable
cause, even though plaintiff was acquitted in Superior
Court.” Falkner v. Almon, 22 N.C. App. 643, 645
(1974); see also Myrick v. Cooley, 91 N.C. App. 209,
213 (1988). The North Carolina Supreme Court has
noted specifically that a prior conviction, even if
reversed on appeal, is conclusive evidence of probable
cause for the arrest. Priddy v. Cook’s United Dep’t
Store, 17 N.C. App. 322, 324 (1973) (citing Moore v.
Winfield, 207 N.C. 767, 770 (1935)).
Plaintiffs’ convictions have not been reversed
on appeal, however, they have been vacated by the
superior court on a motion for appropriate relief. The
‘majority of cases relied upon by defendants concern
convictions in state district court with a different
outcome in superior court; the facts of this case are
markedly distinguishable. Further, even if this rule
were to apply to this case, plaintiffs here have
proffered evidence that fraud or other unfair means
infected their arrests and prosecutions. See, e.g.,
Simpson v. Sears, Roebuck & Co., 231 N.C. App. 412,

63a
416 (2013) (allegations that conviction was based on
false, fabricated, and fraudulent “confession”
sufficient to show that conviction should not
conclusively establish probable cause).
Whether or not the MAR court’s vacatur is
sufficient to undo the preclusive effect of plaintiffs’
convictions, however, of critical importance in this
case is that McCollum’s and Brown’s convictions were
not merely overturned or vacated based on a legal
error; instead, both men have been granted full
pardons of innocence by the Governor of North
Carolina. The North Carolina Constitution grants
the governor “the exclusive prerogative to issue
pardons.” State v. Clifton, 125 N.C. App. 471, 481
(1997) (citing N.C. Const. art. III, § 5(6)). “The effects
of a pardon are well settled in law: as far as the State
is concerned, they destroy and entirely efface the
previous offence; itis as if it had never been
committed.” State v. Keith, 63 N.C. 140, 143 (1869);
see also N.C. Gen. Stat. § 15A-149 (persons who have
been granted pardons of innocence are permitted to
seek expungement from all official records any entries
related to that person’s apprehension, charge, or
trial).
Defendants have provided the Court with no
basis on which to hold that prior rulings of the
North Carolina state courts would continue to hold
preclusive effect after a governor’s pardon of
innocence entirely effaced a plaintiff’s previous
offenses. Indeed, pardon decisions are confined to the
executive and are traditionally not the business of the
courts. Connecticut Bd. of Pardons v. Dumschat, 452
U.S. 458, 464 (1981); Bacon v. Lee, 353 N.C. 696, 704
(2001); see also United States v. Surratt, 855 F.3d 218,

64a
219 (4th Cir. 2017) (President’s commutation of
sentence “closes the judicial door” absent some
constitutional infirmity in the commutation order).
To allow the opinions of the state judiciary to continue
to be determinative of the voluntariness of plaintiff’s
confessions or the existence of probable cause would
improperly intrude into the province of the executive
to determine and grant a pardon of innocence.
Defendants have cited no case, applying either North
Carolina or the federal common law, which would
support such a result. Accordingly, defendants’
motion for summary judgment on the basis of
collateral estoppel is denied.
B.

Absolute Immunity

Both sets of defendants correctly argue that “a
trial witness has absolute immunity with respect to
any claim based on the witness’ testimony,” and this
immunity further extends to any witness testifying
before a grand jury. Rehberg v. Paulk, 566 U.S. 356,
367 (2012); see also Briscoe v. Lattue, 460 U.S. 325,
332-33 (1983). This absolute testimonial immunity
applies to both lay and police-officer witnesses.
Rehberg, 566 U.S. at 367. Accordingly, defendants’
motions for summary judgment with respect to any
claims based solely on defendants’ alleged perjured
testimony at trial are granted.
C. Qualified Immunity
The privilege of qualified immunity protects
government officials from liability so long as they
could reasonably believe that their conduct does not
violate clearly established law. Harlow v. Fitzgerald,
457 U.S. 800, 818 (1982); see also Henry v. Purnell,
652 F.3d 524, 531 (4th Cir. 2011) (en banc). Qualified

65a
immunity protects “all but the plainly incompetent or
those who knowingly violate the law.” Malley v.
Briggs, 475 U.S. 335, 341 (1986). In Saucier v. Katz,
533 U.S. 194 (2001), the Supreme Court recognized
a two-step procedure for determining whether
qualified immunity applies that “asks first whether a
constitutional violation occurred and second whether
the right violated was clearly established.” Melgar v.
Greene, 593 F.3d 348, 353 (4th Cir. 2010). Judges are
permitted to exercise their discretion, however, in
regard to which of the two prongs should be addressed
first in light of the facts and circumstances of the
particular case. Pearson v. Callahan, 555 U.S. 223,
236 (2009).
A plaintiff bears the burden to show that the
constitutional violation occurred, while defendants
bear the burden on the second inquiry, whether the
right was clearly established. Henry, 501 F.3d at 377378. Whether qualified immunity applies is ordinarily
decided at summary judgment; the question of
whether a constitutional right was clearly established
is always a legal question which can be decided at
summary judgment, but “a genuine question of
material fact ‘regarding whether the conduct
allegedly violative of the right actually occurred’ must
be reserved for trial.” Willingham v. Crooke, 412 F.3d
553, 559 (4th Cir. 2005) (internal alteration and
citation omitted).
i. The rights plaintiffs allege were violated
were clearly established
Plaintiffs have alleged claims for false arrest,
malicious prosecution, and deprivation of due process
against defendants in the individual capacties.

66a
Whether a right was clearly established is a case
specific inquiry, and the “dispositive inquiry in
determining whether a right is clearly established is
whether it would be clear to a reasonable officer that
his conduct was unlawful in the situation he
confronted.” Saucier, 533 U.S. at 202. “In determining
whether a right is clearly established, [a court] may
rely upon cases of controlling authority in the
jurisdiction in question, or a ‘consensus of cases of
persuasive authority such that a reasonable officer
could not have believed that his actions were lawful.”‘
Rogers v. Pendleton, 249 F.3d 279, 287 (4th Cir. 2001)
(citation omitted).
It was clearly established in 1983 that an
arrest in the absence of probable cause was a violation
of an individual’s Fourth Amendment right to be free
from unreasonable search and seizure. See Merch. v.
Bauer, 677 F.3d 656, 666 (4th Cir. 2012) (citing
Ybarra v. Illinois, 444 U.S. 85, 91 (1979)). It was
further clear to a reasonable officer that a coerced
confession could not form the basis of probable cause
for an arrest. Ashcraft v. State of Tenn., 322 U.S. 143,
155 (1944) (“The Constitution of the United States
stands as a bar against the conviction of any
individual in an American court by means of a coerced
confession.”).
Plaintiffs’ due process claims arise in part out
of defendants’ alleged withholding of exculpatory
evidence under Brady v. Maryland, 373 U.S. 83
(1963), and its progeny. Brady, on its face, applies to
the prosecutor’s duty to disclose exculpatory evidence
to the defense, and “[i]n Barbee, decided a year after
Brady, [the Fourth Circuit] held that ‘[t]he police are
also part of the prosecution,’ and thus, they too violate

67a
the Constitution if and when they suppress
exculpatory evidence.” Owens v. Baltimore City
State’s Attorneys Office, 767 F.3d 379, 399 (4th Cir.
2014) (quoting Barbee v. Warden, Md. Penitentiary,
331 F.2d 842, 846 (4th Cir. 1964)).
The Court finds defendants’ reliance on the
vacated opinion in Jean v. Collins, 155 F.3d 701, 709
(1998) (Jean I) (en banc) cert. granted, judgment
vacated, 526 U.S. 1142 (1999), to be misplaced. In
Jean I, the court held that, in 1982, it was not clear
that “police had a duty grounded in federal law to turn
over the evidence at issue to a prosecutor.” Id.
However, in the subsequent en banc opinion, court
noted that the cases are clear that when police
intentionally withhold or destroy evidence, or
otherwise act in bad faith, their actions violate the
due process rights of a criminal defendant. In Jean
II, the court of appeals noted that
the concept of constitutional deprivation
articulated in both Daniels and
Youngblood requires that the officer
have intentionally withheld the evidence
for the purpose of depriving the plaintiff
of the use of that evidence during his
criminal trial. This is what is meant by
“bad faith.” And that must be
established on the basis of evidence,
including among other things the nature
of the withheld material, that would
negate any negligent or innocent
explanation for the actions on the part of
the police.

68a
Jean v. Collins, 221 F.3d 656, 663 (4th Cir. 2000) (en
banc) (Jean II) (citing Daniels v. Williams, 474 U.S.
327 (1986) and Arizona v. Youngblood, 488 U.S. 51
(1988)). Thus, to the extent the duty of police to turn
over exculpatory evidence to the prosecutor was not
plain in 1983, a reasonable officer would have been
aware that the intentional, bad faith withholding of
evidence, would violate the Constitution. See also
Trulock v. Freeh, 275 F.3d 391, 409 (4th Cir. 2001)
(“qualified immunity was never intended to relieve
government officials from the responsibility of
applying familiar legal principles to new situations.”).
As to plaintiffs’ due process claims arising out
of the fabrication of evidence or use of false evidence,
“the violation of [the] constitutional right not to be
deprived of liberty as a result of the fabrication of
evidence by an investigating officer. . . . was clearly
established in 1983, when the events relevant to this
litigation took place.” Washington v. Wilmore, 407
F.3d 274, 283-84 (4th Cir. 2005) (citing Miller v. Pate,
386 U.S. 1, 7 (1967)). While there is no Constitutional
duty on law enforcement to investigate independently
every claim of innocence or conduct an error-free
investigation, Baker v. McCollan, 443 U.S. 137, 146
(1979), it has long been established that when law
enforcement acts in reckless disregard of the truth
and makes a false statement or material omission
that is necessary to a finding of probable cause, the
resulting seizure will be determined to be
unreasonable. Franks v. Delaware, 438 U.S. 154, 156
(1978); see also Miller v. Prince George’s Cty., MD, 475
F.3d 621, 627 (4th Cir. 2007).
Finally, “it is
established that a conviction obtained through use of
false evidence, known to be such by representatives
of the State, must fall under the Fourteenth

69a
Amendment . . ..” Napue v. People of State of Ill., 360
U.S. 264, 269 (1959).
ii. Genuine issues of material fact exist as to
whether plaintiffs’ constitutional rights
were violated
Plaintiffs’ claims rest on three theories. The
first concerns the absence of probable cause for arrest
and the manufacture of probable cause by coercing or
fabricating plaintiffs’ confessions. Plaintiffs’ claims
for relief which arise from this first theory, § 1983
false arrest and § 1983 malicious prosecution, are
properly examined as claims founded on the Fourth
Amendment. See Lambert v. Williams, 223 F.3d 257,
262 (4th Cir. 2000) (noting “there is no such thing as
a ‘§ 1983 malicious prosecution’ claim.”); Gantt v.
Whitaker, 57 Fed. App’x 141 (4th Cir. 2002)
(unpublished). Plaintiffs do not appear to dispute
that if probable cause existed at the time of their
arrests, their § 1983 claims for false arrest and
malicious prosecution fail.
a) Fourth Amendment claims and probable
cause
“The Fourth Amendment prohibits law
enforcement officers from making unreasonable
seizures, and seizure of an individual effected without
probable cause is unreasonable.” Brooks v. City of
Winston-Salem, N.C., 85 F.3d 178, 183 (4th Cir. 1996).
Probable cause is a result of a practical, commonsense consideration of all of the circumstances.
Illinois v. Gates, 462 U.S. 213, 238 (1983); Smith v.
Munday, 848 F.3d 248, 253 (4th Cir. 2017). Probable
cause “requires more than a bare suspicion” but less
than evidence sufficient to convict. United States v.

70a
Gray, 137 F.3d 765, 769 (4th Cir. 1998). Only those
facts and circumstances known to the officer at the
time of the arrest are to be considered when
determining whether probable causes existed. Wilson
v. Kittoe, 337 F.3d 392, 398 (4th Cir. 2003).
The parties offer drastically different versions
of the events surrounding the confessions given by
McCollum and Brown. Defendants Snead and Sealey
have stated that after they picked up McCollum at his
house shortly after 9:00 p.m. on September 28, 1983,
and brought him back to the Red Springs police
station, they took McCollum’s finger prints and
escorted him to Chief Haggins’ office at about 9:30
p.m. Snead’s and Sealey’s recollections of when
McCollum received his Miranda warning differ, but
the Miranda form reflects that McCollum was
advised of his rights at 10:20 p.m. [DE 147-28]; [DE
146-11] Snead Dep. at 42-43 (Miranda waiver signed
prior to questioning); Sealey Dep. at 132-133
(Miranda waiver signed after McCollum admits to
holding Miss Buie down). Sealey testified that he
asked few if any questions of McCollum during the
interview, and that Snead took the lead. Sealey Dep.
at 136-37. Agent Allen, who had processed the crime
scene, was also present during McCollum’s interview,
but he sat behind McCollum and only shook his head
a couple of times. Snead Dep. at 83-84.
After what Sealey thought might have been
five or ten minutes of questioning, and Snead recalls
to be anywhere from twenty to forty-five minutes,
McCollum admitted to them that “I just held her
down.” [DE 146-11] Snead Dep. at 27-48; [DE 139-5]
Sealey Dep. at 103-132. Sealey testified at his
deposition that he thought McCollum was about to

71a
have a seizure just before he admitted to them that he
had held Miss Buie down. Sealey Dep. at 132. Snead
testified at his deposition that McCollum was
extremely calm and never denied having anything to
do with the crime, but that almost from the beginning
of the interview McCollum repeatedly stated that he
did not kill her, and after ten or fifteen minutes
McCollum stated that he had just held her down.
Snead Dep. at 45-47. In his deposition, Snead stated
that he talked with McCollum until about 1:50 a.m.,
that McCollum confessed, that Snead wrote out
McCollum’s statement, and that McCollum then
confronted Leon Brown and Darrell Suber, who were
at the police station, telling them that he had told the
truth and that he [McCollum] wanted them to also tell
the truth about killing Miss Buie. Snead Dep. at 50;
96-97. Snead testified that McCollum then asked
Chief Haggins if he could go home, and Snead
informed McCollum that things had changed and
asked Chief Haggins to arrest McCollum for murder.
Snead Dep. at 50.
McCollum’s description of his interview by
Snead, Sealey, and Allen bears no resemblance to the
above. McCollum has testified at his deposition that
the men questioning him got into his face, hollered at
him, that they threatened him, told him that he
[McCollum] had killed that girl and that he should
admit it, that McCollum repeatedly denied being
involved, and that Sealey threatened McCollum with
the gas chamber if he did not talk. [DE 144-3]
McCollum Dep. at 148-151. McCollum testified that
the law enforcement officers told him to sign a paper
that said if he could help them in the case as a witness
they would let him go home, and that McCollum
signed the paper but did not read it and it was not

72a
read to him. McCollum Dep. at 154. McCollum denies
that he confessed to the rape and murder of Sabrina
Buie. McCollum Dep. at 159-160; [DE 147-29]
(McCollum’s handwritten statement).
Leon Brown came to the police station with his
and McCollum’s mother, Mamie Brown, at about
11:00 p.m. on September 28, 1983, after McCollum
had already been taken to the police station for
questioning.
[DE 142·2] 1984 Trial Tr. at 1198.
Brown testified at the 1984 trial that he could hear
his brother McCollum crying when he arrived at the
police station. [DE 142-3] 1984 Trial Tr. at 1669. At
approximately 2:30 a.m., while Brown was waiting in
an area with drink and snack machines with L.P.
Sinclair, Detective Locklear and Agent Allen took
Brown to an interrogation room and administered a
juvenile rights warning; the form indicates that
Brown was then fifteen years old and had completed
the seventh grade. [DE 148-35]; [DE 146-13] Brown
Dep. at 35. Brown has testified that after he circled
“no” on a scrap of paper given to him by the officers,
which he stated was supposed to indicate that he
could not help them, the officers began to hammer
him, calling him racial epithets and stating that he
[Brown] had committed the crime or that he knew
something about it. Brown Dep. at 41-42. Brown
stated that he denied any knowledge of the crime and
that he was innocent. Brown Dep. at 42. Brown.
testified at his deposition that he was not read his
rights or asked if he wanted an attorney, and that he
was told that if he signed another piece of paper he
could go home. Brown Dep. at 45; 51-52. While Brown
was being questioned; his mother Mamie Brown was
knocking on the door asking to see him but was

73a
refused entry; Brown also asked to see his mother but
his request was denied. Brown Dep. at 69-70.
Agent Allen testified at his deposition that he
read Brown his juvenile rights, including the right to
have a parent present, and that Brown stated that he
understood each right as recited and that he wished
to answer questions without a lawyer or a parent or
guardian present. [DE 139-4] Allen Dep. at 135. Allen
stated that he did not recall Brown asking to speak
with his mother or Brown’s mother asking to see
Brown. Allen Dep. at 135. Snead testified at his
deposition that does not know why Leon Brown was
taken to an interview room and that he witnessed
Brown’s rights form but was not in the room when
Brown gave his statement. [DE 146-11] Snead Dep.
at 92; 104; 110. At the 1984 trial, Detective Locklear
testified that he took Brown’s statement, [DE 161-12]
(Brown’s handwritten statement), that he was “quite
alert of mind and very precise in what he wanted to
stay to me,” that he made Brown no promises, did not
threaten him, and was attentive to his comforts. [DE
142-2] 1984 Trial Tr. at 1183. Brown testified at his
1984 trial that Locklear did not advise him of his
rights, that Brown asked for his mother when an
officer grabbed Brown’s arm and told him what he’d
better do, and that Brown was told he would be taken
to the gas chamber if he did not sign the rights waiver.
[DE 142-3] 1984 Trial Tr. at 1659-1663. At his
deposition, Brown testified that he did not say the
things that are written in his statement, and that an
officer just sat and wrote it and told Brown to sign it,
and that Brown, after being read his statement, told
the officer that it was not true. [DE 146-13] Brown
Dep. at 58.

74a
Defendants contend that plaintiffs’ confessions
clearly establish a basis for probable cause upon
which to arrest plaintiffs. Plaintiffs contend, and
have presented evidence that, their confessions are
fabricated, were coerced, or are otherwise infirm, and
that clearly the coercion was known to defendants.
Plaintiffs’ proffered deposition testimony is sufficient
to create a genuine issue of material fact as to the
veracity of their confessions, as “all that is required
[to survive a motion for summary judgment] is that
sufficient evidence supporting the claimed factual
dispute be shown to require a jury or judge to resolve
the parties’ differing versions of the truth at trial,”
Anderson, 477 U.S. at 249; see also Berry v. Chicago
Transit Auth., 618 F.3d 688, 691 (7th Cir. 2010)
(testimony that is based on personal knowledge or
firsthand experience can be evidence of a disputed
fact). Such genuine dispute precludes a ruling on
qualified immunity as the Court cannot, in the
absence of fact-finding, determine whether probable
cause existed to arrest plaintiffs. See, e.g., Niemann v.
Whalen, 911 F. Supp. 656, 668 (S.D.N.Y. 1996)
(whether defendants coerced plaintiff’s confession is
‘‘material to resolving the issue of probable cause.”).
b) Due Process and fabrication of evidence,
failure to disclose, and failure to investigate
Plaintiffs’ second theory of liability rests on
their assertion that defendants, in order to shield
their wrongful acts related to the coerced or fabricated
confessions of plaintiffs, deliberately and in bad faith
failed to investigate other leads and withheld
exculpatory evidence from the prosecution and
defense, namely the similarities between the rape and
murder of Sabrina Buie and rapes and murders

75a
committed by a known individual in the Red Springs
area, Roscoe Artis, the statements of Mary McLean
Richards that she witnessed Roscoe Artis attacking
Sabrina Buie, and the failure to investigate and
alleged coerced testimony of L.P. Sinclair. Plaintiffs
argue that the foregoing violated their rights under
the Due Process Clause of the Fourteenth
Amendment. The Fourth Circuit has “recognized a
due process ‘right not to be deprived of liberty as a
result of the fabrication of evidence by a government
officer acting in an investigating capacity.’” Massey v.
Ojaniit, 759 F.3d 343, 354 (4th Cir. 2014) (internal
quotation and citation omitted). A plaintiff alleging a
claim for violation of due process based on fabricated
evidence must demonstrate that law enforcement
fabricated evidence and that that fabrication resulted
in the deprivation of the plaintiff’s liberty.
Washington, 407 F.3d at 282. However, the failure to
investigate other leads, if determined to be negligent
or even grossly negligent, does not violate due
process. Wilson v. Lawrence Cnty., 260 F.3d 946, 955
(8th Cir. 2001) (citing Daniels v. Williams, 474 U.S.
327, 334 (1986)).
The record provides the following evidence
which relates to plaintiffs’ due process claim.
According to an SBI report expert, Darrell Suber, who
was implicated by both McCollum and Brown, was
interviewed by law enforcement on September 29,
1983. Suber submitted to a polygraph, the results of
which were inconclusive. [DE 148-29]. Suber later
refused a second polygraph. [DE 148-26]. However, he
was excluded as a suspect based on his alibi and
interviews with others which supported his claimed
whereabouts. [DE 150-3]. Christopher Brown, a/k/a
Chris Brown or “Inzar”, who was also implicated by

76a
both McCollum and Brown in their confessions, was
interviewed at the Red Springs police station on
September 29, 1983, between 4:00 a.m. and 6:00 a.m.
[DE 148-26]; [DE 149-2 at 43-45]. Chris Brown was
interviewed by SBI Agent Lee Sampson and
defendant Sealey after he waived his rights, and he
informed them that he had stayed with his
grandmother the night that Sabrina Buie had
disappeared. Chris Brown also submitted to two
polygraph examinations, the results of which were
inconclusive. Id. On October 6, 1983, Chris Brown
was interviewed again at the Cumberland County
Sheriff’s Office by Agent Sampson and SBI Agent Van
Parker. [DE 149-2 at 45]. During that interview
Chris Brown stated that he had stayed at his
grandmother’s house on Friday, September 23rd not
Saturday, September 24th, that he had been with
McCollum, Brown, and L.P. Sinclair, at Lisa Logan’s
house on the Saturday before September 24th, that he
had recently stated to someone in the bathroom at
school that he had killed that girl but he was just
kidding, and that he did not see Miss Buie, McCollum,
Brown, or L.P. Sinclair on Saturday September 24th.
Id. at 45-46. Chris Brown’s mother confirmed that
Chris had stayed with her mother on Friday,
September 23rd and that she had let him into her
home when he returned between 11:00 p.m. and
midnight on Saturday September 24th. Id at 46.
McCollum also implicated Louis Moore in his
confession, but Moore was determined to be living in
Kentucky at the time of Miss Buie’s murder. [DE 1492 at 34]; [DE 154-7] MAR Hrg. Tr. at 11. Neither
Moore, Suber, nor Chris Brown were investigated
further in relation to the rape and murder of Sabrina
Buie.

77a
On October 22, 1983, less than a month after
the arrests of plaintiffs, another young woman went
missing in Red Springs, North Carolina. Close to
midnight that night, Roscoe Artis was questioned
about the missing woman, Joann Brockman, whose
body had been found near a pear tree covered partly
with dirt and brush. State v. Artis, 325 N.C. 278, 289
(1989), cert. granted, judgment vacated, 494 U.S. 1023
(1990). Ms. Brockman’s body was found naked except
for a sweater and bra pushed above her breasts, and
an autopsy revealed that she had been manually
strangled to death and had died during sexual
intercourse. Id. Roscoe Artis made several statements
to law enforcement on the night of October 22nd and
early morning hours of October 23rd; Artis
“completed a third, briefer statement at 3:10 a.m. in
which he admitted that he had killed Joann
Brockman, that he had been advised of and
understood his rights, and that he had voluntarily
assisted officers in finding Joann’s body and pants.”
Id. at 293. One of the investigating officers to whom
Artis had shown where to find Ms. Brockman’s pants
was defendant Locklear. Id. According to Artis,
Sabrina Buie’s death was discussed while he was
speaking to law enforcement about Ms. Brockman’s
murder. [DE 139-2] Interview of Roscoe Artis (April
6, 2015) at 17. Defendant Allen was also involved in
Artis’ case, having assisted in processing evidence
from the crime scene and Artis. [DE 132-1] Artis Trial
Tr. at 707-712.
During the Artis investigation, Allen was
asked to accompany defendant Locklear and another
Robeson County deputy to the Gastonia Police
Department to investigate other cases which may
have involved Artis. [DE 139-.4] Allen Dep. at 26-28.

78a
On January 19, 1984, prior to McCollum and Brown’s
first trial, Locklear and Allen went to Gastonia, North
Carolina and received Artis’ finger prints from his
arrest for the assault of Billie Ann Woods. Locklear
and Allen interviewed Ms. Woods, who indicated that
she would be willing to testify at Artis’ capital trial for
the murder of Ms. Brockman. [DE 150-7]. Artis had
been arrested in Gaston County Superior Court in
1974 of assault with intentto rape Ms. Woods. [DE
128-4]. Ms. Woods testified at Artis’ 1984 trial for the
purpose of showing motive, intent, and scienter of
Artis. [DE 132-1] Artis Trial Tr. at 764. Ms. Woods
testified that when she was sixteen years-old Artis
had grabbed her while she was walking between two
buildings in Gastonia and that he began to strangle
her after telling her that she would “give [him] some.”
Id. at 767-68. Another individual happened to walk
past and Artis stopped the assault and began to act as
though Ms. Woods had taken money from him. Id. at
770. Artis was tried for the murder of Ms. Brockman
beginning on August 20, 1984, in Robeson County.
District Attorney Joe Freeman Britt prosecuted Artis
for the murder of Ms. Brockman and Artis was
represented by Earl Strickland, both of whom would
be involved in McCollum and Brown’s first trial. [DE
129-1] Artis Trial Tr. at 1.
On October 5, 1983, L.P. Sinclair was
administered a polygraph examination, in which he
denied having any involvement or knowledge of
Sabrina Buie’s death; the results of this examination
revealed that L.P. Sinclair was being truthful. [DE
148-31]. At the 1984 trial of plaintiffs, however, L.P.
Sinclair, who was then seventeen years-old, testified
that McCollum had confessed to him the day following
Miss Buie’s murder. [DE 142-3] 1984 Trial Tr. at

79a
1718-1719. L.P. Sinclair further testified that
McCollum and Brown had discussed raping Sabrina
Buie in his presence and that he [Sinclair] had
declined to participate. Id. at 1715-16. L.P. Sinclair
was questioned about his change-of-story by counsel
for plaintiffs during the trial, and testified that his
first statement to law enforcement had been a lie and
that he now wanted to tell the truth. Id. at 1736. L.P.
Sinclair was killed in 1990, prior to plaintiffs’ retrials.
[DE 144-1] 1991 Trial Tr. at 1857.
On October 5, 1984, three days prior to the
start of McCollum’s and Brown’s first trial, the
fingerprints of L.P. Sinclair and Roscoe Artis were
submitted to the SBI for comparison to the latent
prints found at the Sabrina Buie crime scene. [DE
148-34]. Artis and L.P. Sinclair are listed as suspects
on the fingerprint comparison request. Id.; [DE 1547] MAR Hrg. Tr. at 103-04. The fingerprints of Artis
and L.P. Sinclair were never compared to the latent
prints from the Sabrina Buie crime scene, however,
and the request was canceled on October 5, 1985. Id.
Although Mary McLean Richard’s interview
with Detective Locklear on September 26, 1983, is
noted in the records, see, e.g., [DE 149-2 at 51], it is
only with the notation of”negative results.” Ms.
Richards stated in 2014, however, that she witnessed
Roscoe Artis attacking Sabrina Buie on the night she
was killed, that she attempted to intervene but that
Artis frightened her away, and that when she went
home and told her mother what she had seen her
mother told her to keep quiet. [DE 148-39 at 2-3]. Ms.
Richards stated that she provided this information to
defendant Sealey during the investigation in 1983. Id.
at 22-25.

80a
Plaintiffs contend that, taken together, the
above-recited evidence demonstrates that defendants
acted in bad faith, in particular in failing to
investigate Roscoe Artis and the statement of Mary
McLean Richards.
Additionally, McCollum and
Brown in their confessions identify different
individuals as having participated in the rape and
murder, McCollum states that Miss Buie was stabbed
several times when the evidence does not reveal any
stab wounds on Miss Buie, and, although his home
was searched, no bloody clothing or shoes were
recovered from Darrell Suber. These inconsistencies
are not explained by the evidence at trial or any
further investigation by law enforcement.
Defendants dispute that Mary McLean
Richards made a statement in 1983 to Locklear or any
other member of law enforcement that she witnessed
Miss Buie’s attack. Defendants further dispute that
any additional action should have been taken with
respect to investigating Roscoe Artis and that any one
of them coached or instructed L.P. Sinclair to testify
untruthfully at the 1984 trial. Because genuine
issues of material fact exist regarding whether the
conduct alleged by plaintiffs’ to have violated their
Fourteenth Amendment Due Process rights actually
occurred, a determination cannot be made at this time
as to whether defendants are entitled to qualified
immunity.
The Court would note that, as to their false
confession claim, plaintiffs’ incarceration was a
clearly foreseeable result of the alleged fabrication of
plaintiffs’ confessions, and thus plaintiffs have, if
their allegations are true, demonstrated causation.
Washington, 407 F.3d at 284. As to their claims

81a
arising out of a failure to investigate or disclose, only
if a finder of fact were to decide that defendants’
actions following plaintiffs’ arrests, including their
failure to investigate Roscoe Artis for Sabrina Buie’s
rape and murder, failure to disclose evidence of Mary
Richards’ statement to the prosecution or defense,
and failure to test the fingerprints of L.P. Sinclair
and Roscoe Artis against those found at the Sabrina
Buie crime scene, were done in bad faith could
qualified immunity fail to shield defendants for these
actions.4 See Owens, 767 F.3d at 396-97.
Accordingly, defendants’ motions for summary
judgment on the privilege of qualified immunity are
denied at this time as to plaintiffs’ due process claims.
D.

Official capacity claim; Monell liability

The final theory advanced by plaintiffs is that
all of the constitutional violations inflicted upon them
in their wrongful arrest, prosecution, and conviction
were as a result of a pattern or practice of the Red
Springs Police Department and the Robeson County
Sheriff’s Office.
As the Town of Red Springs
defendants have settled their claims with plaintiffs,
this claim lies solely against defendant Sealey in his
official capacity as Sheriff of Robeson County.
The Supreme Court has determined that
§ 1983 applies to local governments. Monell v. New
York City Dept. of Soc. Servs., 436 U.S. 658, 690
(1978); see also Wilcoxson v. Buncombe Cty., 129 F.
Supp. 3d 308, 317 (W.D.N.C. 2014) (North Carolina
Sheriff is final law enforcement policymaker for
Plaintiffs’ allegations concerning defendants’ own perjured
testimony are barred by absolute immunity.

4

82a
county and subject to liability, under Monell).
However, this application is not without limits. “A
local government may not be sued under § 1983 for an
injury inflicted solely by its employees or agents.”
Monell, 436 U.S. at 694. In other words, there is no
respondeat superior liability under § 1983. Municipal
liability only results “when execution of a
government’s policy or custom, whether made by its
lawmakers or by those whose edicts or acts may fairly
be said to represent official policy, inflicts the injury.”
Monell 436 U.S. at 694.
A policy or custom for which a municipality
may be held liable may be (1) an express policy, such
as a written ordinance or regulation; (2) the decisions
of a person with final policymaking authority; (3) an
omission, such as a failure to properly train officers,
that manifests deliberate indifference to the rights of
citizens; or (4) a practice that is so persistent and
widespread as to constitute a custom or usage with
the force of law. Lytle v. Doyle, 326 F.3d 463, 471 (4th
Cir. 2003) (internal quotation marks, alteration
omitted). “Proof of the existence of a municipal policy
or custom under § 1983 does not require a plaintiff to
evidence numerous similar violations,” Hall v.
Marion Sch. Dist. No. 2, 31 F.3d 183, 195 (4th Cir.
1994), but to succeed against a municipality, a § 1983
plaintiff must demonstrate that the custom or policy
is the “moving force” behind the alleged violation.
City of Canton v. Harris, 489 U.S. 378, 389 (1989)
(citations omitted).
Defendant Sealey has testified that there were
no written policies or procedures in the Rob son
County Sheriff’s Office prior to 1994 or 1995, and that
he received no training in how to interview or

83a
question someone with a low IQ or mental disability.
[DE 139-5] Sealey Dep. at 33-35. The foregoing
evidence, should it include a finding by a jury that
plaintiffs’ confessions were fabricated or coerced,
could, in light of the lack of training referenced by
defendant Sealey, plainly support
plaintiffs’
allegation that, at a minimum, the Robeson County
Sheriff failed train his deputies in such a way as
resulted in the deliberate indifference to the rights of
citizens or a practice so persistent and widespread so
as to constitute a custom. The Court therefore will
allow this claim to proceed to trial.
In sum, the Court finds that plaintiffs’ claims
arising under the Fourth and Fourteenth
Amendments turn on a finding that their confessions
were coerced or fabricated. If a finder of fact
determines that plaintiffs’ confessions were coerced
or fabricated, a genuine issue arises as to whether
these defendants, in an effort to conceal their coercion
or fabrication of the confessions, intentionally and in
bad faith failed to investigate or disclose to the
prosecution and defense another known and potential
suspect, Roscoe Artis, failed to disclose a potential
witness to the crime, Mary McLean Richards, and
intentionally coerced another individual, L.P.
Sinclair, to testify against plaintiffs. A question
would further arise as to whether such actions were
as a result of a policy or custom which allowed
defendants to violate plaintiffs’ constitutional rights.
If, however, a finder of fact determines that the
confessions of the plaintiffs were not coerced and
were, in fact, voluntary- whether or not they were
truthful-probable cause would have existed for
defendants to arrest plaintiffs, and their subsequent
actions would likely be more properly deemed to be

84a
negligent or grossly negligent, and would thus not rise
to the level of a constitutional violation. See also
Grayson v. Peed, 195 F.3d 692, 697 (4th Cir. 1999) (no
municipal liability under § 1983 where there is no
constitutional violation).
Accordingly, the Court cannot determine at
this time whether plaintiffs’ constitutional rights
were violated, and thus whether defendants are
shielded by the privilege of qualified immunity. A
finder of fact is required to make determinations as to
the voluntariness of plaintiffs’ confessions and the
faith of the officers conducting the investigation into
Sabrina Buie’s murder after plaintiffs’ confessions
were obtained. In light of plaintiffs’ allegations that
the defendants worked in concert to deny plaintiffs’
their constitutional rights as well as the specifics
regarding the grouping of SBI and Robeson County
defendants to engage in different aspects of plaintiffs’
interrogations, arrests, and investigations, the Court
will not at this time attempt to parse the liability of
each individual defendant as it relates to each claim.
Finally, because, as discussed in detail above, genuine
issues of material fact exist as to whether defendants
are entitled to qualified immunity, plaintiffs’ motion
for entry of summary judgment in their favor must be
denied on application of the appropriate Rule 56
standard.
II.

Motion for Sanctions

Plaintiffs have moved for sanctions against the
remaining defendants pursuant to Ru1e 37 ofe
Federal Rules of Civil Procedure. Plaintiffs argue that
defendants have failed to furnish on request
documentary evidence related to plaintiffs’ claims and

85a
that defendants denied possession such documents.
Plaintiffs further contend that many or most of those
documents had already been turned over to the
NCIIC, and that defendants’ failure to disclose
evidences a continued pattern of deception that has
continued since September 1983. Because plaintiffs
have gained access to the files and documents they
sought through other means, they seek as a sanction
an instruction to the jury of defendants’ failure to
disclose. Fed. R. Civ. P. 37(c)(l)(B).
Fed. R. Civ. P. 37(c) provides that
If a party fails to provide information or
identify a witness as required by Rule
26(a) or (e), the party is not allowed to
use that information or witness to
supply evidence on a motion, at a
hearing, or at a trial, unless the failure
was substantially justified or is
harmless. In addition to or instead of
this sanction, the court, on motion and
after giving an opportunity to be heard:
(A) may order payment of the reasonable
expenses, including attorney’s fees,
caused by the failure;
(B) may inform the jury of the party’s
failure; and
(C) may impose other appropriate
sanctions, including any of the orders
listed in Rule 37(b)(2)(A)(i)-(vi).
A district court enjoys wide discretion in determining
whether to issue sanctions under Rule 37. See, e.g.,
S. States Rack And Fixture, Inc. v. Sherwin-Williams

86a
Co., 318 F.3d 592, 595 (4th Cir. 2003). The Court has
considered plaintiffs’ motion and, in its discretion,
finds it to be premature. Plaintiffs may seek to raise
any wrongdoing by defendants at trial, and the Court
will consider the issue at that time. The motion for
sanctions is denied without prejudice.
CONCLUSION
For the foregoing reasons, plaintiffs’ motion for
sanctions [DE 123] is DENIED WITHOUT
PREJUDICE, plaintiffs’ motion for summary
judgment [DE 127] is DENIED. The motions for
summary judgment by defendants Snead and Allen
[DE 159] and Sealey and Price as Administrator
C.T.A. of the Estate of Locklear [DE 164] are
GRANTED IN PART and DENIED IN PART. The
motion to file surreply by Snead and Allen [DE 188]
is GRANTED and the motion to withdraw as attorney
[DE 258] is ALLOWED.
SO ORDERED, this

1

day of March, 2018.

/s/
TERRENCE W. BOYLE
UNITED STATES DISTRICT JUDGE

87a
[ENTERED: August 27, 2019]
FILED: August 27, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1366 (L)
(5:15-cv-00451-BO)
J. DUANE GILLIAM, Guardian of the Estate of Leon
Brown; RAYMOND C. TARLTON, Guardian Ad
Litem for Henry Lee McCollum
Plaintiffs - Appellees
and
HENRY LEE MCCOLLUM; LEON BROWN;
GERALDINE BROWN RANSOM, Guardian of Leon
Brown; KIMBERLY PINCHBECK, as limited
guardian and conservator of the estate of Henry Lee
McCollum
Plaintiffs
v.
KENNETH SEALEY, both individually and in his
official capacity as the Sheriff of Robeson County;
ROBERT E. PRICE, Administrator C.T.A. of the
Estate of Joel Garth Locklear, Sr.
Defendants - Appellants
and

88a
ROBESON COUNTY; TOWN OF RED SPRINGS;
KENNETH SNEAD; JOEL GARTH LOCKLEAR;
LARRY FLOYD; LEROY ALLEN; PAUL CANADY,
Administrator C.T.A of the Estate of Luther Haggins
Defendants
No. 18-1402
(5:15-cv-00451-BO)
J. DUANE GILLIAM, Guardian of the Estate of Leon
Brown; RAYMOND C. TARLTON, Guardian Ad
Litem for Henry Lee McCollum
Plaintiffs - Appellees
and
HENRY LEE MCCOLLUM; LEON BROWN;
GERALDINE BROWN RANSOM, Guardian of Leon
Brown; KIMBERLY PINCHBECK, as limited
guardian and conservator of the estate of Henry Lee
McCollum
Plaintiffs
v.
KENNETH SNEAD; LEROY ALLEN
Defendants - Appellants
and
ROBESON COUNTY; TOWN OF RED SPRINGS;
KENNETH SEALEY, both individually and in his
official capacity as the Sheriff of Robeson County;

89a
JOEL GARTH LOCKLEAR; LARRY FLOYD; PAUL
CANADY, Administrator C.T.A of the Estate of
Luther Haggins; ROBERT E. PRICE, Administrator
C.T.A. of the Estate of Joel Garth Locklear, Sr.
Defendants
ORDER
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en
banc.
Entered at the direction of the panel: Judge
Niemeyer, Judge Thacker, and Judge Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

90a
[ENTERED: April 3, 2017]
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
NORTH CAROLINA WESTERN DIVISION
Case No. 5:15-cv-00451-BO
HENRY LEE MCCOLLUM )
and J. DUANE GILLIAM, )
as Guardian of the Estate )
of LEON BROWN,
)
)
Plaintiffs,
)
)
v.
)
)
TOWN OF RED
)
SPRINGS, et al.,
)
)
Defendants.
)

BRIEF IN SUPPORT
OF MOTION FOR
SUMMARY
JUDGMENT (ON
BEHALF OF
DEFENDANTS
ROBERT E. PRICE,
AS ADMINISTRATOR
C.T.A. OF THE
ESTATE OF JOEL
GARTH LOCKLEAR,
AND KENNETH
SEALEY)

STATEMENT OF THE CASE
The plaintiff Henry Lee McCollum and J.
Duane Gilliam, as Guardian of the Estate of Leon
Brown, filed suit against a number of defendants,
including Robeson County, Sheriff Sealey (in his
individual and official capacity) and Officer Locklear,
arising out of plaintiffs’ alleged wrongful arrests and
convictions.1 In an Order dated May 27, 2016, this
Court dismissed Robeson County as a defendant.
[D.E. #84] The plaintiffs assert the following claims
Shortly after being served, Officer Locklear passed away.
Thereafter, Robert Price as administrator C.T.A. of the Estate of
Locklear, was substituted as a party. However, in an attempt to
avoid confusion, this brief will refer to this defendant as “Locklear.”

1

91a
against defendants Sealey and Locklear: (1) a claim
under 42 U.S.C. § 1983 for “false arrest” (First Cause
of Action); (2) a claim under 42 U.S.C. § 1983 for
“malicious prosecution” (Third Cause of Action); (3) a
claim under 42 U.S.C. § 1983 for “deprivation of due
process of law” (Second Cause of Action); and (4) a
claim against Sealey and Locklear in their official
capacity for “municipal liability pursuant to 42 U.S.C.
§ 1983” (Fourth Cause of Action).
The defendants Sealey and Locklear now move
for summary judgment as to all claims.
STATEMENT OF THE FACTS
On September 24, 1983, eleven year-old
Sabrina Buie went missing. [1984 trial: 982:3-10,
996:13-18; 1991 McCollum trial, 1339:22-1342:14] On
September 26, 1983, Buie’s nude body was found in a
soybean field in Red Springs. [1984 joint trial, 989:210, 1013; 1991 McCollum retrial, 1346:2-1347:12]
The Red Springs Police Department requested
the North Carolina State Bureau of Investigation
(SBI) to take control of the murder investigation. SBI
agents began arriving in Red Springs in the afternoon
and evening of September 26, 1983 to begin work on
the investigation. [1984 joint trial, 1023:5-9, 1144:914; 1991 McCollum retrial, 1368:24-1370:7; 1992
Brown trial 14:6-8, 181:24-182:10; Snead dep., 10:712:3; Allen dep. 37:15-38:3] The Sheriff of Robeson
County assigned defendants Detective Garth
Locklear and Detective Kenneth Sealey to provide
additional support to the SBI. Locklear arrived in Red
Springs that afternoon at approximately 4:00 p.m.,
while Sealey arrived at the Red Springs Police
Department that evening. [Sealey dep. I, 72:16-74:20;

92a
Sealey Aff. ¶¶ 11, 18; 1992 Brown retrial, 237:18-24]
Neither Locklear nor Sealey were involved in
processing the crime scene, which was conducted by
SBI Agent Leroy Allen. [Sealey dep. I, 72:16-74:20;
Sealey Aff. ¶¶ 11, 18; 1992 Brown retrial, 237:18-24]
Upon his arrival at the Red Springs Police
Department, Sealey was assigned to work with
defendant SBI Agent Kenneth Snead. Snead and
Sealey worked together during the course of the
investigation, canvassing the area in search of leads.
[January 17, 1991 suppression hearing trans., 33:2434:4; Sealey dep. I, 74:12-20; Sealey Aff. ¶ 8; Snead
dep. 11:21-12:23] Detective Locklear assisted Red
Springs Police Department officers in canvassing the
area. [1992 Brown trial, 237:22-24]
It was and is the policy of the Robeson County
Sheriff’s Office to comply with the United States
Constitution, the North Carolina Constitution, and
all applicable federal and state law and authority,
including law and authority applicable to arrests, the
questioning of criminal suspects, and regarding the
turning over of exculpatory evidence. [Sealey, Aff., ¶¶
5, 7]
Agent Snead and Sealey interviewed seventeen
year-old Ethel Furmage at approximately 6:20 p.m.
on September 28, 1983. Miss Furmage advised Snead
and Sealey that she had heard at school that “Buddy”
(plaintiff Henry McCollum) had killed Buie, and that
David Murray and Chris Brown were also involved in
the murder. [Snead dep., 18:21-24:18; 27:1-8; Sealey
Aff. ¶ 9; SBI summary of September 28, 1983
interview with Ethel Furmage]
Following up on this lead, Snead, Sealey and
SBI Agent Leroy Allen went to McCollum’s residence

93a
at approximately 9:10 p.m. on September 28, 1983.
[1984 trial, 1145:1-3, 1155:16-18; Snead dep., 37:1238:15; Sealey dep. I, 114:7-115:25; Sealey Aff., ¶ 9]
After being advised that he had no obligation to speak
with or accompany them, McCollum voluntarily
agreed to ride with the officers to the Red Springs
Police Department to talk. [1984 joint trial, 1145:3-8,
1258:19-1259:3, 1277:2-23; January 16, 1991
suppression hearing trans., 5:1-6:6, 40:6-41:7, 43:146:2; 1991 McCollum trial, 1468:15-1471:14; Snead
dep. I, 38:25-39:13; McCollum dep., 31:20-32:19,
99:20-24]
Upon their arrival at the Red Springs Police
Department, McCollum was again advised that he
was not under arrest. He was told on several
occasions that he could leave at any time. [1984 trial
1146:11-13, 1150:21-22, 1166:8-16, 1273; January 17,
1991 suppression hearing trans., 7:22-8:3; McCollum
dep., 69:11-15; Snead dep., 37:12-38:15; Sealey Aff., ¶
10] McCollum consented to his fingerprints being
taken by Agent Allen. [1984 joint trial, 1145:11-14;
January 17, 1991 suppression hearing trans., 7:18-21;
1991 McCollum retrial, 1417:16-1418:2, 1471:221472:1; Sealey dep. I, 114:7-115:25] Officers then
spoke to McCollum for 20 to 30 minutes about matters
unrelated to Sabrina Buie. When the subject of the
murder of Sabrina Buie was raised, officers observed
McCollum to become visibly nervous. [1984 trial
1146:6-7, 1159:20-21; January 17, 1991 suppression
hearing trans., 6:16-7:11, 8:6-9, 23:23-24:11; 1991
McCollum
retrial,
1472:7-13,
1473:6-1474:12;
McCollum dep., 48:8-12; Sealey dep. I, 131:22-133:4;
Sealey Aff., ¶ 10] Agent Snead advised McCollum of
his Miranda rights, which McCollum waived in
writing at 10:26 p.m. [McCollum rights waiver form,

94a
1984 joint trial, 1146:7-1149:15, 1169:9-22, 1354:91358:13; January 17, 1991 suppression hearing
trans., 8:25-11:3, 41:19-42:22; 1991 McCollum retrial
1474:15-1480:6; Snead dep., 39:25-40:45, 43:12-45:12;
Sealey dep. I, 127:4-130:1; Sealey Aff., ¶ 10]
McCollum provided a statement, which was reduced
to writing by Snead and signed in six places by
McCollum, in which he confessed his involvement,
along with several other individuals including his
half-brother, Leon Brown, in the rape and murder of
Sabrina Buie. [McCollum confession; 1984 joint trial,
1149:16-1150:13, 1162:8-1163:24, 1359:15-1365:24;
January 17, 1991 suppression hearing trans., 11:1216:12, 26:21-27:11; 1991 McCollum retrial, 1480:51491:3; 1496:22-1497:11; Snead dep. 40:1-68:3; Sealey
Aff., ¶¶ 12-13; McCollum dep., 106:23-107:2] During
his questioning, McCollum was provided with
cigarettes, soft drinks, and was permitted water and
restroom breaks. [1984 trial, 1149:16-1150:13, 116263, 1359:2-6; January 17, 1991 suppression hearing
trans., 11:7-11, 16:19-17:10; 1991 McCollum retrial,
1487:22-1488:22; McCollum dep., 49:3-50:2, 52:1-11]
McCollum also drew a diagram of the crime scene,
with the assistance of Agent Allen. [McCollum crime
scene sketch; January 17, 1991 suppression hearing
trans., 18:18-22; Allen dep., 119:15-121:4]
After McCollum signed his statement, Sealey
took another short statement from McCollum in the
presence of Red Springs Police Chief Luther Haggins
and Agent Allen, in which McCollum recounted his
individual acts committed during the rape and
murder of Sabrina Buie. [McCollum confessions (last
page); January 16, 1991 suppression hearing trans.,
47:11-23, 49:7-20, 51:12-52:3; McCollum dep., Ex. 2,
(final page); Sealey dep. I 137:16-140:5; Sealey Aff.,

95a
14] Thereafter, McCollum was placed under arrest.
[1984 joint trial, 1376:1-11; January 17, 1991
suppression hearing trans., 25:19-26-26; 1991
McCollum retrial, 1493:20-22]
During this time, Leon Brown voluntarily came
to the Red Springs Police Station with his mother.
[Brown dep., 33:14-20; 1984 joint trial, 1198:12-18,
1317:16-18] There, Brown voluntarily spoke with the
officers. Agent Allen advised Brown of his Miranda
rights, which he waived. [Leon Brown, Juvenile
Rights petition; 1984 joint trial, 1151:2-1152:19,
1170:19-1172:18, 1365:25-1370:7; 1992 Brown retrial
14:23-21:25; 25:25-28:19] At the direction of SBI
Agents, Brown was then interviewed by Detective
Locklear, with Chief Haggins also present. [1984 joint
trial, 1154:17-20, 1181:13-19, 1189:15-17, 1388:211389:16; 1992 Brown retrial 16:15-21:25] Prior to the
start of Brown’s interview, McCollum confronted
Brown and advised his brother that he had told the
truth – that they had raped and murdered Buie -- and
encouraged Brown to also tell the truth. [1984 joint
trial,
1771:20-1772:9,
1390:17-1402:3;
1991
McCollum retrial, 1493:11-19; January 16, 1991
suppression trans., 56:7-14; 1992 Brown retrial 27:1117; 233:8-10; Brown dep. 81:8-18, Ex. 8]
During his interview, Leon Brown confessed to
being present and involved in the rape and murder of
Sabrina Buie. [1984 joint trial, 1180:21-1193:22,
1390:17-1402:3; 1992 Brown retrial 40:7-48:24, 243:6253:6; 261:5-268:17-271:21, Brown dep., Ex. 6]
Brown’s statements were reduced to writing by
Locklear, who sat next to him and carefully reviewed
it with him for accuracy. [1984 joint trial, 1191:141192:4, 1390:17-1402:3-1410:19; 1992 Brown retrial

96a
34:14-22, 37:15-38:8, 254:6-255:4; Stellato dep., Ex. 24,
30:1-5] Brown initialed corrections to his confession
in numerous places and then signed it. [Leon Brown
confession; 1984 joint trial 1336:20-1339:3; 1992
Brown retrial 41:32-34, 49:15-18; 253:10-225:8;
Brown dep. 54:13-57:21 59:17-60:3, 60:17-61:7, Ex. 6]
Brown also assisted Locklear in creating a sketch of
the crime scene. [Leon Brown sketch; 1992 Brown
retrial, 257:10-261:3] After confessing to the rape and
murder of Sabrina Buie, Brown was placed under
arrest. [1992 Brown retrial, 268:6-10]
Warrant/juvenile petitions for the plaintiffs’
arrests were issued by a magistrate on September 29,
1983. [See copies of arrest warrants for Henry
McCollum and Juvenile Petition for Leon Brown]
On or about September 30, 1983, following his
first appearance in the Robeson County Courthouse,
McCollum admitted on camera to a television reporter
that he had held Buie down while others raped and
murdered her, stating “I just hold her down. That’s
it.” [Barnes Aff., ¶ 6, Ex A (copy of video recording);
1984 joint trial 1275:1-23, 1596:12-1599:22;
McCollum dep. 74:12-75:7; 109:24-112:11]
During the investigation, Locklear and Sealey
worked under the direction of the SBI. Locklear and
Sealey provided copies of all notes and documents
that they created or obtained to members of the SBI
for incorporation into the final SBI investigation
report to be produced to the District Attorney. [Sealey
Aff., ¶ 17]
Both plaintiffs were indicted by a grand jury on
charges of First Degree Murder and Rape on January
3, 1984. [See copies Indictments]

97a
Plaintiffs were tried together in Robeson
County Superior Court in October 1984. During a
hearing on the plaintiffs’ motion to suppress their
confessions, the plaintiffs both testified, contending
that their confessions were coerced by law enforcement
officers who shouted at them, threatened them and
called them names. [1984 joint trial, 1255:21-1299:13
(McCollum), 1317:4-1339:16 (Brown)] In his
testimony during the motion to suppress, McCollum
admitted to holding Sabrina down while she was
raped and killed. [1984 joint trial, 1273:1-8] Plaintiff
Brown also offered the expert testimony of Dr.
Franklin Egolf, Jr., a psychologist, who opined that
Brown’s I.Q. scores fell within the mild range of
mental retardation, but that Brown was capable of
understanding his rights and waiving the opportunity
to have a lawyer present on a concrete level. [1984
joint trial, 1300:4-1307:4] After hearing testimony
from Snead and Locklear for the State and both of the
plaintiffs, their mother, their sister, Lewis Sinclair
and Dr. Egolf, for the defense, the trial court ruled
that the plaintiffs’ confessions were each knowingly,
intelligently and voluntarily made, and therefore
admissible. [1984 joint trial, 1346:6-1351:9] Following
a trial in which both of the plaintiffs testified during
the case in chief, both plaintiffs were convicted of first
degree murder and rape and were sentenced to death.
On appeal, the North Carolina Supreme Court
reversed and remanded for a new trial, finding error in
the trial court’s jury instructions. State v. McCollum,
321 N.C. 557, 563, 364 S.E.2d 112, 115 (1988). The
Plaintiffs were subsequently retried separately.
During pre-trial motions in McCollum’s 1991
retrial, his criminal defense attorney, James C.

98a
Fuller, strenuously litigated to exclude McCollum’s
confession. In hearings held on January 16 and 17,
1991, defense counsel cross-examined States’
witnesses Snead, Sealey, Allen and Floyd. [January
16, 1991 suppression hearing trans., 3:23-60:4]
Defense counsel also offered the testimony of
psychologist Dr. Faye Sultan that McCollum would
not have been able to comprehend Miranda warnings
or the true meaning of his statement. [January 17,
1991 trans., 82:23-128:5] On July 31, 1991, the trial
court entered an Order finding McCollum’s
confessions to be knowing, intelligent and voluntary,
and therefore admissible. [July 31, 1991 Order]
During his opening statement during
McCollum’s October 1991 retrial, Mr. Fuller, on
McCollum’s behalf, admitted that McCollum was
present for and involved in the murder of Buie. [1991
McCollum retrial, 1330:11-1332:7] During closing
argument,
Fuller
acknowledged
McCollum’s
involvement in the murder, but asked the jury to
return a verdict of second degree murder. [1991
McCollum trial, 1602:10-1609:25] The jury returned a
verdict of first degree murder and first degree rape.
[1991 McCollum retrial, 1632:23-1634:16]
During the sentencing phase of his re-trial,
McCollum offered testimony from his psychological
expert Dr. Sultan, who testified that McCollum
admitted to her that he was present for Sabrina Buie’s
rape and murder, and that he had helped to hold her
down while she was raped and killed. [1991 McCollum
trial, 1808:17-1810:10; Sultan dep. 217:1-220:12]
McCollum’s conviction was affirmed by the
North Carolina Supreme Court. State v. McCollum,

99a
334 N.C. 208, 433 S.E.2d 144 (1993). Among other
findings, the Supreme Court held that the trial court
correctly concluded that McCollum knowingly and
intelligently waived his constitutional rights and
voluntarily made statements to the officers,
notwithstanding his contention that mental
retardation and emotional disabilities prevented him
from making a knowing and intelligent waiver of his
constitutional rights. Id., 334 N.C. at 236-237.
McCollum’s writ for petition of certiorari to the United
States Supreme Court was denied. McCollum v.
North Carolina, 512 U.S. 1254, 114 S.Ct. 2784 (1994).
Brown was re-tried in June 1992 in Bladen
County Superior Court. Brown’s attorneys also
worked strenuously to exclude his confession. [1992
Brown retrial, 14:22-148:9] Brown’s attorneys crossexamined the State’s witnesses, Locklear and Allen,
and offered the testimony of clinical psychologist Dr.
Baroff, along with an evaluation report from
psychologist Dr. Egolf, that Brown was not capable of
understanding Miranda warnings or the meaning of
his confession. After hearing this testimony and
lengthy arguments, the trial court found that Brown
had knowingly, intelligently and voluntarily waived
his Miranda rights, that none of his rights were
violated, that his statement was not the product of
any coercion, pressure or intimidation, and that it was
voluntarily in all respects and therefore admissible.
[1992 Brown retrial, 116:8-148:9; June 9, 1992 Order]
At the close of the trial, the jury found Brown guilty
of first degree rape. [1992 Brown retrial, 310:15-23]
Brown’s conviction was affirmed on appeal.
The North Carolina Court of Appeals held that the
trial court’s findings of fact, which Brown did not

100a
dispute, adequately supported its conclusions that
Brown had knowingly, intelligently and voluntarily
waived his Miranda rights, that none of his rights
were violated, that his statement was not the product
of any coercion, pressure or intimidation, and was
voluntary in all respects. State v. Brown, 112
N.C.App. 390, 394-398, 436 S.E.2d 163, 164-168
(1993). The North Carolina Supreme Court affirmed,
per curiam. State v. Brown, 339 N.C. 606, 453 S.E.2d
165 (1995).
In 2009, Brown sought assistance from the
North Carolina Innocence Commission (NCIIC).
During the course of its investigation, the NCIIC
discovered evidence of additional confessions that
McCollum had made regarding his involvement in the
rape and murder of Sabrina Buie: (1) In telephone
conversations in July and August of 2010, Geraldine
Ransom (Brown’s sister and McCollum’s half sister)
told NCIIC Assistant Director Sharon Stellato that
McCollum had confessed his involvement in Buie’s
rape and murder [Stellato dep., 42:8-49:15, 51:853:16, 54:3-56:4, Ex. 21, 22]; (2) In February 2011,
plaintiffs’ mother told Stellato that McCollum
admitted to her that he was involved in the rape and
murder of Buie [Stellato dep., 57:20-65:4, Ex. 23]; and
(3) In August 2010 and July 2014, plaintiff Brown told
Stellato that McCollum told him that he was present
during Buie’s rape and murder. [Stellato dep., 66:568:4, 69:23-70:3, 72:21-73:24, 74:1-78:5, Ex. 24, (17:58, 18:8-10, 21:8-12, 21:6), Ex. 25; Brown dep., 84:1125, 86:7-87:15]
The NCIIC caused DNA testing to be conducted
on several items of physical evidence. DNA on a
cigarette butt found near a path that ran along the

101a
edge of the soybean field matched Roscoe Artis.
[Stellato dep., 118:7] The cigarette butt was found in
close proximity to a path used as a short cut between
a convenience store where cigarettes were sold and a
nearby neighborhood which included a residence
wherein Roscoe Artis lived with his sister. [Stellato
dep., 120:4-5; Sampson, 80:17-81:1] The DNA match
on the cigarette butt does not provide any information
regarding when Roscoe Artis may have smoked the
cigarette, what was happening while he did so, when
the cigarette was deposited at the scene (other than
sometime before September 26, 1983), or otherwise
link Artis to the rape and murder of Sabrina Buie.
[Stellato dep., 118:19-119:24; Sampson, dep. 80:1781:1; Sealey dep. II, 69:22-70:12] Other than Miss
Buie in some instances, DNA testing of the other
items of physical evidence did not match any known
individuals. [Stellato dep., 130:14-133:19; Ex 27, 57:2369:4] The NCIIC notified attorneys for Plaintiffs, as
well as the District Attorney, regarding the DNA
match to Artis on the cigarette butt. However, the
NCIIC did not advise the District Attorney regarding
McCollum’s additional confessions that it had had
uncovered.2 [Stellato dep., 232:20-234:10]
The plaintiffs filed motions for appropriate
relief (MAR) in State Court under N.C. Gen. Stat.
15A-269 and 15A-270, statutes dealing with DNA
testing. Stellato was subpoenaed to testify by counsel
for plaintiffs at a MAR hearing. [Stellato dep., 92:1116] Stellato testified at the MAR hearing regarding
the DNA match to Artis on the cigarette butt. However,
she did not disclose the additional confessions by
The NCIIC did not notify the District Attorney’s office of these
additional confessions until after the MAR hearing.

2

102a
McCollum, even when asked the question: “Is there
any evidence that has been developed during the
course of the [NCIIC] investigation that linked Mr.
McCollum and Mr. Brown to the rape and murder of
Sabrina Buie?” [Stellato dep., 134:11-140:7, 148:21152:10, 154:9; transcript of the September 2, 2014
MAR hearing, 115:20-24]
Based upon the testimony elicited from Ms.
Stellato, the only witness called to testify at the MAR
hearing,3 Judge Douglas B. Sasser entered an Order
vacating the plaintiffs’ convictions and ordered their
immediate release from prison. [September 2, 2014
Order for Relief] The Order was premised on the DNA
evidence. The Order does not address, determine or
state that the plaintiffs’ arrest was not based upon
probable cause, impeach the constitutionality of
plaintiffs’ confessions, or otherwise impugn the
conduct of law enforcement officers in any way.
[Order for Relief]
On June 5, 2015, Governor Pat McCrory issued
Pardon of Innocences to the plaintiffs. [Pardons of
Innocence] The pardons in no way impeach the
constitutionality of the plaintiffs’ confessions, suggest
improper conduct on the part of law enforcement
officers, or establish that the Plaintiffs’ constitutional
rights were violated in any manner.
Roscoe Artis has not been charged in the
murder of Sabrina Buie. [Luther Johnson Britt, III
Aff., ¶ 10]
None of the law enforcement officers involved in the case were
interviewed by the NCIIC or requested to participate in, the
MAR hearing. [Stellato, dep., 146:22-148:20; Snead dep., 99:21100:10, 156:17-24; Sealey dep. II, 72:17-73:12; Sampson dep.,
79:7-79:19]
3

103a
The moving defendants’ statement of
undisputed material facts pursuant to Local Rule 56.1
is a more complete statement of the facts, and is
hereby incorporated by reference.
I.

PLAINTIFFS’ FIRST AND THIRD CAUSES
OF ACTION, FOR “FALSE ARREST” AND
“MALICIOUS PROSECUTION” UNDER
SECTION 1983, FAIL AS A MATTER OF
LAW BECAUSE PROBABLE CAUSE
EXISTED TO ARREST THE PLAINTIFFS
A. Framework for Analyzing Fourth
Amendment Claims for Unreasonable
Seizure Involving Arrests

The plaintiff’s First and Third Causes of
Action, for “false arrest” and “malicious prosecution”
under Section 1983, are claims under the Fourth
Amendment for unreasonable seizure.4 “The Fourth
Amendment
prohibits…officers
from
making
unreasonable seizures, and a seizure of an individual
effected without probable cause is unreasonable.”
Brooks v. City of Winston-Salem, 85 F.3d 178, 183
(4th Cir. 1996). See also, e.g., Brown v. Gilmore, 278
F.3d 362, 367 (4th Cir. 2002) (“To establish an
unreasonable seizure under the Fourth Amendment,
The Fourth Circuit has made it clear that the Section 1983
“malicious prosecution” claim “is properly understood as a
Fourth Amendment claim for unreasonable seizure which
incorporates certain elements of the common law tort.” Lambert
v. Williams, 223 F.3d 257, 261-62 (4th Cir. 2000). Thus, since a
Section 1983 claim is “simply a claim founded on a Fourth
Amendment seizure,” plaintiffs’ claims under Section 1983 for
“malicious prosecution” are “wholly derivative of the false arrest
claim” and should not be analyzed separately. Rogers v.
Pendleton, 249 F.3d 279, 294 (4th Cir. 2001)
4

104a
[the plaintiff] needs to show that the officers decided
to arrest [him]…without probable cause”). Conversely,
a seizure effected with probable cause is reasonable
as a matter of law; thus, the existence of probable
cause defeats a claim of “unreasonable seizure” under
the Fourth Amendment. See, e.g., Street v. Surdyka,
492 F.3d 368, 372-3 (4th Cir. 1974) (“[T]here is no
cause of action for ‘false arrest’ under Section 1983
unless the arresting officer lacked probable cause”).
Furthermore, if an arrest is reasonable – i.e.,
supported by probable cause – then the continuing
pretrial seizure of a criminal defendant is also
reasonable. See, Brooks, 85 F.3d at 184; Taylor v.
Waters, 81 F.3d 429, 435-436 (4th Cir. 1996).
“Probable cause is determined from the totality
of the circumstances known to the officer at the time
of the arrest.” Brown, 278 F.3d at 368; United States
v. Garcia, 848 F.2d 58, 59-60 (4th Cir. 1988). Probable
cause is a commonsense, nontechnical concept that
“deals with the factual and practical considerations of
everyday life on which reasonable and prudent men,
not legal technicians, act.” Ornelas v. United States,
517 U.S. 690, 695, 116 S. Ct. 1657, 1661 (1996). The
circumstances are weighed “not in terms of library
analysis by scholars, but as understood by those
versed in the field of law enforcement.” United States
v. Dickey-Bey, 393 F.3d 449, 453 (4th Cir. 2004).
Thus, probable cause requires substantially less
evidence than is necessary to convict. See, e.g.,
Porterfield v. Lott, 156 F.3d 563, 569 (4th Cir. 1998).
Indeed, the Fourth Circuit has specifically rejected
the argument that “probable cause means more likely
than not, [more than] 50/50,” and made it clear that
“the probable-cause standard does not require that
the officer’s belief be more likely true than false.”

105a
United States v. Humphries, 372 F.3d 653, 660 (4th
Cir. 2004) (emphasis added).
In determining whether probable cause exists,
courts are to limit their consideration to the facts and
circumstances “known to the officer at the time of the
arrest.” Taylor v. Waters, 81 F.3d at 434 (emphasis
added). See also, e.g., Gomez v. Atkins, 296 F.3d 253,
262 (4th Cir. 2002); United States v. Al-Talib, 55 F.3d
923, 931 (4th Cir. 1995). Because the existence of
probable cause is determined solely by reference to
the facts and circumstances known to the officer at
the time of the arrest, it necessarily follows that
evidence which was unknown to the officer at the time
of the arrest is totally irrelevant to the determination
of whether probable cause existed to arrest the
suspect. See, e.g., Xing Qian v. Kautz, 168 F.3d 949,
953-54 (7th Cir. 1999); Reynolds v. Jamison, 488 F.3d
756, 765 (7th Cir. 2007).5
In the instant case, plaintiffs voluntarily came
to the station and spoke to officers, and confessed to
participating in the rape and/or murder of Sabrina
Buie. As explained below, under North Carolina
collateral estoppel law, the plaintiffs’ convictions
conclusively establish the existence of probable cause.
It is well established that “once probable cause to arrest is
established, an officer is not required to continue to investigate
for exculpatory evidence before arresting such suspect.” United
States v. Galloway, 274 Fed. Appx. 241, 2008 WL 1751686 (4th
Cir. 2008). In other words, law enforcement officers “have no
constitutional duty to keep investigating a crime once they have
established probable cause.” Kompare v. Stein, 801 F.2d 883, 890
(7th Cir. 1986). In fact, if an arrest is reasonable – i.e., supported
by probable cause – the Fourth Amendment does not require any
further investigation after the arrest in order “to render pretrial
seizure reasonable.” Taylor v. Waters, 81 F.3d at 436.
5

106a
Moreover, under North Carolina collateral estoppel
law, the plaintiffs’ confessions were voluntary and not
coerced. The plaintiffs’ confessions clearly established
probable cause for their arrests. Since probable cause
existed, plaintiffs’ Section 1983 claims for “false arrest”
and “malicious prosecution” fail as a matter of law.
B. The Application Of The Law To The
Circumstances Of This Case Reveals
That The Plaintiffs’ Fourth Amendment
Rights Were Not Violated: At The Time
Plaintiffs’ Were Arrested, Probable
Cause Existed
1. Under the North Carolina Doctrine of
Collateral Estoppel, the Plaintiffs’
Convictions Conclusively Establish the
Existence of Probable Cause, and
Moreover, the State Judges’ Rulings on
Plaintiffs’ Motions to Suppress their
Confessions Establish that Plaintiffs’
Confessions Were Not Coerced, but
Were, Instead, Voluntary Confessions
Under the United States Constitution
a. This Court must apply the North
Carolina law of collateral estoppel
to determined whether collateral
estoppel
bars
plaintiffs
from
relitigating any issues in this case
In Allen v. McCurry, 449 U.S. 90, 66 L.Ed.2d
308, 101 S.Ct. 411 (1980), the Supreme Court held
that res judicata and collateral estoppel principles are
applicable to Section 1983 actions. The Court also
stated: “Congress has specifically required all federal
courts to give preclusive effect to state-court

107a
judgments whenever the courts of the State from
which the judgments emerged would do the same.”
449 U.S. at 96. See also, e.g., Migra v. Warren City
School Dist. Bd. Of Ed., 465 U.S. 75, 83-85, 79 L.Ed.2d
56, 104 S.Ct. 892 (1983); Kremer v. Chemical Const.
Corp., 456 U.S. 461, 467 n. 6, 72 L.Ed.2d 262, 101
S.Ct. 411 (1980). In other words, this Court is
obligated to apply the North Carolina law of collateral
estoppel to determine whether collateral estoppel
bars plaintiffs from relitigating any of the issues in
this case. See, e.g., Davenport v. North Carolina Dept.
of Transp., 3 F.3d 89, 92 (4th Cir. 1993), citing Migra,
supra.
As shown by the discussion below, under the
North Carolina law of collateral estoppel, (1) the
plaintiffs’ convictions on the charges of murder and/or
rape conclusively establish that probable cause
existed, and (2) the state court judges’ rulings on
plaintiffs’ motions to suppress their confessions at the
state criminal trials conclusively establish that
plaintiffs’ confessions were voluntary.
b. Under North Carolina’s doctrine of
collateral estoppel, the plaintiffs’
convictions conclusively establish
that probable cause existed
In the instant case, plaintiffs were convicted of
murder and rape in 1984. After the 1984 convictions
were reversed, plaintiffs were retried. McCollum was
convicted in 1991 of murder and rape, and Brown was
convicted of rape in 1992. These convictions were
affirmed on appeal. As explained below, under well
established North Carolina law – which is part of the
doctrine of collateral estoppel in North Carolina – the

108a
plaintiffs’ convictions conclusively establish that
probable cause existed for the plaintiffs’ arrests.
Under longstanding and well established
North Carolina law, a conviction in a court of
competent jurisdiction conclusively establishes the
existence of probable cause, even in the situation
where the verdict is later reversed, vacated, or
otherwise set aside. For example, in Griffis v. Sellars,
20 N.C. 315, 3 & 4 Dev. & Bat. 315 (1838), the North
Carolina Supreme Court held that a verdict and
judgment of conviction in a court of competent
jurisdiction was conclusive evidence of probable
cause, even where, on appeal, “a contrary judgment
and verdict be given in a higher court.” In Overton v.
Combs, 182 N.C. 4, 108 S.E. 357 (1921), the North
Carolina Supreme Court made it clear that a
conviction conclusively established the existence of
probable cause even if the conviction “is thereafter set
aside or reversed on appeal or other ruling in the
orderly progress of the cause.” 182 N.C. at 7, 108 S.E.
at 358.
This rule has been applied in numerous cases,
and remains settled North Carolina law to this day.
Most of the reported cases involved the situation
where the suspect was convicted in a North Carolina
District Court, and was later acquitted in a North
Carolina Superior Court. See, e.g., Hill v. Winn-Dixie
Charlotte, Inc., 100 N.C. App. 518, 521-22, 397 S.E.2d
347, 349-50 (1990) (holding that a conviction in
District Court conclusively establishes the existence
of probable cause, even though the suspect was
subsequently acquitted of the charge in Superior
Court); Myrick v. Cooley, 91 N.C. App. 209, 213-14,
371 S.E.2d 492, 495-6 (1988) (holding that where a

109a
suspect was convicted in District Court and the
charges were subsequently dismissed in Superior
Court, “the conviction establishes, as a matter of law,
the existence of probable cause for his arrest and
defeats both his federal and state claims for false
arrest or imprisonment . . . .”); Falkner v. Almon, 22
N.C. App. 643, 645, 207 S.E.2d 388, 389 (1974);
Priddy v. Cook’s United Dept. Store et al., 17 N.C.
App. 322, 324, 194 S.E.2d 58, 59 (1973).
However, this well established rule also applies
where a conviction in North Carolina Superior Court
is later reversed on appeal. For example, in Cashion
v. Texas Gulf, 79 N.C. App. 632, 339 S.E.2d 797
(1986), the Court held that the existence of probable
cause was conclusively established by the convictions
in Beaufort County Superior Court, even though the
North Carolina Court of Appeals later reversed the
convictions. 79 N.C. App. At 634-5, 339 S.E.2d at 798.
Of course, a North Carolina appellate court’s reversal
of a trial court’s decision serves to vacate the lower
court’s decision. See, e.g., D&W, Inc. v. City of
Charlotte, 268 N.C. 720, 722, 152 S.E.2d 199, 202
(1966) (holding that the Supreme Court’s decision
“reversing” the judgment entered in the trial court
had the effect of vacating the trial court’s judgment);
Crowder v. Crowder, 147 N.C. App. 677, 682, 556
S.E.2d 639, 642 (2001) (“This Court’s first decision
reversed the trial court’s equitable distribution order,
and thus served to vacate the judgment below”). See
also Black’s Law Dictionary 1319 (6h Ed. 1990)
(defining “reverse” as follows: “to overthrow, vacate,
set aside, make void, annul, or revoke. . . .”). Thus,
under the rule discussed at length above, a conviction
in a lower court conclusively establishes probable

110a
cause even in the situation where the conviction is
later vacated.
The above-referenced rule – that a conviction
in a lower court conclusively establishes the existence
of probable cause – is part of the North Carolina
doctrine or law of collateral estoppel. This is shown,
for example, by the case of Mays v. Clanton, 169 N.C.
App. 239, 609 S.E.2d 453 (2005), where the Court
stated as follows:
For the use of defensive collateral
estoppel, North Carolina does not
require mutuality of parties. Where an
issue in a civil suit has already been fully
litigated in a criminal trial, evidence of
that criminal conviction is admittable in
the civil suit. . . .
Indeed, . . . this Court has upheld
collateral estoppel of an issue in a civil
suit when that issue was previously
established as an element in a criminal
conviction. Hill v. Winn-Dixie Charlotte,
Inc., 100 N.C. App. 518, 397 S.E.2d 347,
349 (1990) (plaintiff’s conviction in
district court is conclusive as evidence of
probable cause in a subsequent civil case
for malicious prosecution [...])….
169 N.C. App. At 240-2, 454-6. Similarly, in Burton v.
City of Durham, 118 N.C. App. 676, 457 S.E.2d 329
(1995), the North Carolina Court of Appeals made it
clear that the rule discussed at length above is part of
the North Carolina doctrine of collateral estoppel:

111a
Neither the United States Supreme
Court nor [the North Carolina Supreme
Court] requires mutuality of parties
when collateral estoppel is used
defensively, as defendants seek to do
here now. See Parklane Hosiery Co. v.
Shore, 439 U.S. 322, 327-28, 99 S.Ct.
645, 649-50, 58 L.Ed.2d 552, 560 (1979)
and Thomas M. McInnis & Assoc., Inc. v.
Hall, 318 N.C. 421, 434, 349 S.E.2d 552,
560 (1986)….
This Court has upheld collateral
estoppel of an issue in a civil suit when
that issue was previously established as
an element in a criminal conviction. See
Hill v. Winn-Dixie Charlotte, Inc., 100
N.C. App. 518, 397 S.E.2d 347, 349
(1990)….
****
Plaintiff’s conviction in district court of
exceeding safe speed establishes that
there was probable cause to stop
plaintiff for this infraction. This is true
even though the district court conviction
was appealed to and dismissed by the
superior court. See Myrick v. Cooley, 91
N.C. App. 209, 213-14, 371 S.E.2d 492,
495, disc. review denied, 323 N.C. 477,
373 S.E.2d 865 (1988).
118 N.C. App. At 680 and 682-3, 457 S.E.2d at 331333. Since the rule discussed above is part of the
North Carolina law of collateral estoppel, this Court
must apply the rule to the instant case.

112a
It is true that under the rule discussed above,
a conviction in a lower court can be impeached for
fraud or other unfair means in its procurement in the
situation where the conviction is not sustained on
appeal. See, e.g., Moore v. Winfield, 207 N.C. 767, 770,
178 S.E. 605, 606 (1935); Simpson v. Sears, Roebuck,
and Co., 231 N.C. App. 412, 415, 752 S.E.2d 508, 509
(2013), citing Moore v. Winfield, supra; Hill v. WinnDixie, supra; Myrick, supra; Cashion, supra; Falkner,
supra; Priddy, supra. However, North Carolina
precedent makes it clear that a conviction in a North
Carolina court can be impeached for fraud or other
unfair means only in the situation where the
conviction was not sustained on appeal. Moore v.
Winfield, supra (holding that “a conviction and
judgment in a lower court is conclusive [on the issue
of probable cause],” but the conviction “can be
impeached for fraud or other unfair means in its
procurement” if the conviction is “not sustained on
appeal. . . .”) (emphasis added); Simpson v. Sears,
Roebuck, and Co., supra (holding that a conviction in
a lower court is conclusive on the issue of probable
cause, “but if [the conviction is] not sustained on
appeal, it can be impeached for fraud or other unfair
means. . . .”) (emphasis added). In the instant case,
both plaintiffs’ second convictions were affirmed on
appeal. Therefore, under North Carolina law, these
convictions conclusively establish the existence of
probable cause and cannot be impeached.6
In short, under the North Carolina law of
collateral estoppel, the plaintiffs’ convictions
conclusively establish the existence of probable cause.
Moreover, a review of criminal trial transcripts shows that the
convictions were fairly obtained.
6

113a
Thus, the moving defendants are entitled to summary
judgment as to plaintiffs’ Section 1983 claims for
“false arrest” and “malicious prosecution.”
c. Under North Carolina’s doctrine of
collateral estoppel, the state judges’
rulings on plaintiffs’ motions to
suppress their confessions establish
that plaintiffs’ confessions were
not coerced, but were, instead,
voluntary confessions under the
Constitution
In their criminal trials in state court, both
plaintiffs filed motions to suppress, arguing that their
respective confessions should be suppressed on the
grounds that the plaintiffs had not knowingly waived
their Miranda rights and that their confessions were
not voluntary, but were instead the product of
unconstitutional coercion. The state courts, after full
hearings in each trial, held that the plaintiffs
voluntarily came to the station and spoke with
officers, knowingly waived their Miranda rights, and
that plaintiffs’ confessions were not unconstitutionally
coerced but were voluntary confessions. These
findings were upheld on appeal. The arguments made
by plaintiffs at their criminal trials regarding their
confessions are the same arguments being made by
plaintiffs in this lawsuit. As explained below, the
North Carolina doctrine of collateral estoppel
prevents the plaintiffs from relitigating the issues of
whether their confessions were voluntary confessions.
Under North Carolina law, mutuality of parties
is not required where, as here, parties seek to assert
collateral estoppel defensively. Thomas M. McInnis &

114a
Assoc., Inc. v. Hall, 318 N.C. 421, 434, 349 S.E.2d 552,
560 (1986). The party invoking collateral estoppel
need not have been a party or in privity with a party
in the first action “as long as the party to be
collaterally estopped had a full and fair opportunity
to litigate the issue in the earlier action.” 318 N.C. at
432, 349 S.E.2d at 559. Thus, it is clear that collateral
estoppel can be used by a defendant in a civil suit
when the issue was previously litigated and decided
in an earlier criminal action. See Mays v. Clanton,
supra.; Burton v. City of Durham, supra. Indeed,
there have been numerous federal court decisions in
which the federal court held that state collateral
estoppel law operated to bar a plaintiff in Section
1983 lawsuit from relitigating an issue decided
against him in a previous criminal action. See, e.g.,
Allen v. McCurry, supra. (holding that a plaintiff was
barred from relitigating the constitutionality of a
search in a Section 1983 suit when the issue had been
decided against him in a suppression motion in an
earlier state criminal action ); Gray v. Farley, 13 F.3d
142, 146 (4th Cir. 1993) (holding that a plaintiff in a
Section 1983 action was barred by collateral estoppel
from relitigating the issue of whether his confession
had been coerced, because the issue had been decided
against him in the earlier state criminal action when
the judge denied plaintiff’s motion to suppress the
confession). Thus, “[a] suppression hearing in an
earlier state criminal proceeding collaterally estops
the relitigation of the same issues in a §1983 action if
the elements of collateral estoppel are met.” Gray v.
Farley, 13 F.3d at 146.
Under North Carolina law, defensive collateral
estoppel applies when the following requirements are
met: (1) the issues must be the same as those in the

115a
prior action; (2) the issues were raised and actually
litigated in the prior action; (3) the issues were
actually determined in the prior action; (4) the issues
actually determined were necessary to the resulting
judgment; and (5) a final judgment on the merits was
reached. Thomas M. McInnis, 318 N.C. at 429-30, 349
S.E.2d at 560. In addition, North Carolina law
requires that the party against whom collateral
estoppel is asserted had a “full and fair opportunity”
to litigate the issue. Thomas M. McInnis, 318 N.C. at
434, 349 S.E.2d at 560.7
In the instant case, each requirement is met for
the application of collateral estoppel. The issues that
plaintiffs seek to relitigate – whether plaintiffs
voluntarily came to the station and spoke with
officers, knowingly waived their Miranda rights and
whether plaintiffs’ confessions were coerced – are the
exact issues (including the same or similar evidence
and arguments) that were raised and actually
litigated in plaintiffs’ criminal trials. The relevant
issues were determined against plaintiffs in the state
criminal trials and were necessary to the resulting
judgment, and final judgments were reached which
were affirmed on appeal. Furthermore, a review of the
relevant transcripts for the state criminal trials
demonstrates that plaintiffs had a full and fair
opportunity to litigate the issues.

Furthermore, as discussed above, under North Carolina
collateral estoppel law, the decided issue is entitled to collateral
estoppel effect even in the situation where the judgment is later
reversed or vacated. See Mays v. Clanton, supra, and Burton v.
Durham, supra, and cases cited therein. See also, e.g., Cashion,
supra.
7

116a
Thus, it is clear that all of the requirements for
the application of defensive collateral estoppel are
satisfied in this case. The state court judges’ rulings
on plaintiffs’ motion to suppress their confessions in
plaintiffs’ criminal trials, which were affirmed on
appeal, establish that plaintiffs voluntarily came to
the station and spoke with officers, and that plaintiffs’
confessions were not coerced, but were instead
voluntary confessions. Because the plaintiffs
voluntarily confessed to participating in the murder
and/or rape of Sabrina Buie, it is clear that probable
cause existed for their arrests.
2. Furthermore, Even
if Collateral
Estoppel Did Not Apply, Probable
Cause Existed for Plaintiffs’ Arrest
In the facts of this case, the plaintiffs were not
arrested until after they confessed. The plaintiffs’
confessions were not coerced, and establish the
existence of probable cause. A neutral and detached
magistrate issued arrest warrants, which are
presumed to be reasonable, Torchinsky v. Siwinski,
942 F.2d 257, 262 (4th Cir. 1991) and are “the clearest
indication that the officers acted in an objectively
reasonable manner.” Messerschmidt v. Millender, 565
U.S. 535, 546, 132 S.Ct. 1235 (2012). Furthermore,
the indictments by the Grand Jury establish probable
cause. See Gernstein v. Pugh, 420 U.S. 103, 118 n. 19,
95 S.Ct. 854 (1975). Moreover, McCollum’s attorney’s
admissions in open court, in his 1991 retrial, that
McCollum was present for and involved in the murder
and rape of Buie are judicial admissions which are
binding on McCollum, and further establish the
existence of probable cause. See, e.g., United States v.
Bentson, 947 F.2d 1353, 1356 (9th Cir. 1991). Also,

117a
the moving defendants incorporate by reference the
arguments made by defendants Snead and Allen
regarding probable cause at pages 9-18 of their
summary judgment brief.
Since probable cause existed for plaintiffs’
arrests, plaintiffs’ Section 1983 claims for “false arrest”
and “malicious prosecution” fail as a matter of law.
II.

THE
DEFENDANTS
SEALEY
AND
LOCKLEAR
ARE
ENTITLED
TO
SUMMARY
JUDGMENT
AS
TO
PLAINTIFFS’
SECOND
CAUSE OF
ACTION FOR “DEPRIVATION OF DUE
PROCESS”

The plaintiffs’ Due Process claims against
Sealey and Locklear, as set forth in plaintiffs’ Second
Cause of Action, put these defendants on notice of
three categories of Due Process claims: (1) Bradybased Due Process claims for alleged suppression of
material exculpatory evidence; (2) claims for alleged
fabrication of evidence; and (3) claims that the officers
gave perjurious testimony at judicial proceedings.
(Amended Complaint, ¶¶ 135-150). As shown by the
discussion below, defendants Sealey and Locklear are
entitled to summary judgment as to all of plaintiffs’
Due Process claims.
A. Plaintiffs’ Brady-Based Due Process
Claims Against Sealey and Locklear for
Alleged Suppression of Exculpatory
Evidence Fails as a Matter of Law
In their Second Cause of Action, plaintiffs assert
Brady-based Due Process claims, alleging that the
defendants “deprived Plaintiffs of their Constitutional

118a
right to Due Process of Law and a fair trial” by failing
to disclose exculpatory evidence prior to trial to
plaintiffs’ criminal defense attorneys, the Robeson
County District Attorney’s Office, and the North
Carolina Courts. (Amended Complaint, ¶¶ 135-150).
Plaintiffs’ Amended Complaint puts defendants
on notice of claims that the following alleged
exculpatory evidence was suppressed: (1) evidence
that Louis Moore was in Kentucky at the time of the
murder (Amended Complaint, ¶¶ 62-63, 73); (2)
evidence that Ethel Furmage had no personal
knowledge as to plaintiffs’ involvement in Buie’s rape
and murder (Amended Complaint, ¶¶ 74, 135(d)); (3)
evidence “that on October 5, 1984, three days before
the start of plaintiffs’ [first] trial, the Red Springs
Police Department submitted a request to the [SBI]
for fingerprint comparisons” (Amended Complaint,
¶¶ 71-72, 75); (4) unspecified evidence that inculpated
Roscoe Artis (Amended Complaint, ¶¶ 75, 135(a));
and (5) that the plaintiffs’ confessions had been
coerced (Complaint, ¶¶ 2, 44-59, 76). In their
amended responses to Sealey’s interrogatories, the
plaintiffs alleged that defendants also withheld
written reports or statements regarding interviews
with L.P. Sinclair, Louis Moore’s mother, Darrell
Suber, plaintiff McCollum, and Ethel Furmage. (See
Plaintiff’s Amended Responses to Defendant Sealey’s
Interrogatories, Response to Interrogatory 4).
1. The test for making out a Bradybased Due Process claim against
law enforcement officers
In Brady v. Maryland, 373 U.S. 83, 87, 83 S.Ct.
1194, 10 L.Ed.2d 215 (1963), the United States

119a
Supreme Court held that a prosecutor’s suppression
of material exculpatory evidence violates the Due
Process clause. In the case of Owens v. Baltimore
State Attorney’s Office, 767 F.3d 379 (4th Cir. 2014),
the Fourth Circuit held that in order for a plaintiff to
make out a Due Process claim that officers violated
his constitutional right by suppressing exculpatory
Brady evidence, a plaintiff must prove that the
officers suppressed material Brady exculpatory
evidence in bad faith. 767 F.3d at 396-97, 401.8
Moreover, in order to prove a Due Process violation,
the plaintiffs must prove both but-for causation and
proximate causation – i.e., that the alleged wrongful
act(s) caused the loss of liberty and that the loss of
liberty was a reasonably forseeable result of the act.
See Evans v. Chalmers, 703 F.3d 636, 647-8 (4th Cir.
2012).
In order to satisfy Brady’s materiality
requirement, the plaintiffs must show that the
suppression “cast serious doubt on the proceedings’
integrity,” Owens, 767 F.3d at 398, or “undermine[s]
confidence in the outcome” of the case. United States
v. Bagley, 473 U.S. 667, 682, 105 S.Ct. 3375, 87
L.Ed.2d 481 (1985). However, “the mere possibility
that an item of undisclosed information might have
helped the defense…does not establish ‘materiality’ in
Of course, law enforcement officers have no duty to disclose
exculpatory evidence directly to the criminal defense attorneys.
Instead, officers have a responsibility to make exculpatory
evidence available to the prosecutor’s office. See, e.g., Jean v.
Collins, 155 F.3d 701, 705-8 (4th Cir. 1998), superseded on other
grounds, 221 F.3d 656 (4th Cir. 2000) (holding that officers have
no duty to disclose any evidence directly to the defense, and are
“absolutely immune from suits challenging a failure to disclose
evidence directly to the defense”).
8

120a
the constitutional sense.” United States v. Agurs, 427
U.S. 97, 109-110, 96 S.Ct. 2392 (1976).
It is well established that undisclosed evidence
is not considered to be “suppressed” under Brady
when the criminal defendant or his attorney could
have obtained the evidence with any reasonable
diligence. See Lynn v. Tanney, 405 Fed.Appx. 753,
762 (4th Cir. 2010). Therefore, the Brady rule is not
violated when the evidence that is not disclosed is
“available to the defendant from other sources,
including diligent investigation by the defense.”
Fullwood v. Lee, 290 F.3d 663, 686 (4th Cir. 2002),
quoting Stockton v. Murray, 41 F.3d 920, 927 (4th Cir.
1994). For example, in United States v. Wilson, 901
F.2d 378 (4th Cir. 1990), the Court held that the
government’s alleged failure to turn over an
exculpatory witness statement did not violate Brady
because the criminal defense “was free to question”
the witness, and “it would have been natural” for the
defense to interview the witness. The Court held: “In
situations… where the exculpatory information is not
only available to the defendant but also lies in a
source where a reasonable defendant would have
looked, a defendant is not entitled to the benefit of the
Brady doctrine.” 901 F.2d at 381. Similarly, in Hoke
v. Netherland, 92 F.3d 1350 (4th Cir. 1996), the Court
held that the State’s failure to disclose interviews of
three witnesses did not violate Brady where the
criminal defense attorney would have discovered the
witnesses if he had conducted a “reasonable and
diligent investigation.” 92 F.3d at 1355-56. As the
Court stated in Barnes v. Thompson, 58 F.3d 971 (4th
Cir. 1995):

121a
Brady requires that the government
disclose only evidence that is not
available to the defense from other
sources, either directly or through
diligent investigation…. Nondisclosure,
therefore, does not denote that no
exculpatory evidence exists, but that the
government possesses no exculpatory
evidence that would be unavailable to a
reasonably diligent defendant….
58 F.3d at 975, fn. 4. Furthermore, there is no Brady
violation where “the defense already possesses the
evidence.” United States v. Higgs, 663 F.3d 726, 735
(4th Cir. 2011); United States v. Roane, 378 F.3d 382,
402 (4th Cir. 2004).
2. The plaintiffs’ Brady-based Due
Process claims against Sealey and
Locklear fail as a matter of law
Under the facts of this case, plaintiffs’ Bradybased Due Process claims against Sealey and
Locklear fail for multiple reasons. First, under the
facts and North Carolina collateral estoppel law, the
plaintiffs’ confessions were voluntary and not coerced.
Second, defendants Sealey and Locklear acted in good
faith: They furnished all information they gathered in
the course of their participation in the investigation
to the SBI, with the understanding and belief that all
the evidence would be provided to the prosecutor’s
office. Furthermore, even assuming for the sake of
argument that the above-referenced evidence was not
turned over by the prosecutors to plaintiffs’ criminal
attorneys, the information was either possessed by
plaintiffs
(for
example,
the
circumstances

122a
surrounding plaintiffs’ confessions) or could have
been discovered by a reasonable and diligent
investigation. Moreover, aside from plaintiffs’
confessions, the evidence that the plaintiffs allege was
suppressed was not material, and did not cause or
proximately cause plaintiffs’ loss of liberty. Therefore,
defendants Sealey and Locklear are entitled to
summary judgment as to plaintiffs’ Brady-based Due
Process claims.
B. Plaintiffs’ Due Process Claims for Alleged
Fabrication of Evidence Against Sealey
and Locklear Fail as a Matter of Law
In their Second Cause of Action, the plaintiffs
also allege that the defendants “deprived plaintiffs of
their Constitutional right to Due Process of Law and
a fair trial” by fabricating evidence. (Amended
Complaint, par. 135). In their Amended Complaint
and amended interrogatory responses, plaintiffs put
defendants on notice of the following alleged
“fabricated evidence”: (1) the plaintiffs’ written
confessions; (2) reports from May 1988 alleging that
McCollum made incriminating statements to inmate
Carl Pait; (3) L.P. Sinclair’s testimony at the first
trial; and (4) Sealey told the District Attorney that
McCollum told Sealey that “I’m going to get your ass
for this.” (Amended Complaint, ¶¶ 2, 44-59, 135(b),
(c), and (f); Plaintiffs’ Amended Responses to
Defendant Sealey’s Interrogatories, Response to
Interrogatory 5).
The Fourth Circuit has recognized that the
fabrication of evidence by an officer “acting in an
investigating capacity” may constitute a violation of
Due Process. Washington v. Wilmore, 407 F.3d 274,

123a
282 (4th Cir. 2005). However, “[f]abrication of
evidence alone is insufficient to state a claim for a due
process violation….” Massey v. Ojaniit, 759 F.3d 343,
354 (4th Cir. 2014). Instead, the plaintiffs must prove
both but-for and proximate causation – i.e., that the
fabrication caused the loss of liberty and that the loss
of liberty was a reasonably foreseeable result of the
fabrication. See Massey, 759 F.3d at 354-356; Evans
v. Chalmers, supra.
The plaintiffs’ Due Process claims against
Sealey and Locklear fail as a matter of law. As
discussed earlier, plaintiffs’ confessions were
voluntary and not coerced. The plaintiffs have not
shown that any evidence was fabricated by any
defendant. Furthermore, aside from the voluntary
confessions, the evidence that plaintiffs allege was
“fabricated” did not cause or proximately cause
plaintiffs’ loss of liberty. Thus, defendants Sealey and
Locklear are entitled to summary judgment as to
plaintiffs’ purported Due Process claims for alleged
“fabrication” of evidence.
C. Plaintiffs’ Attempt to Sue the Officers for
Their Testimony at Various Judicial
Proceedings Fails as a Matter of Law
Because the Officers are Absolutely
Immune Under Section 1983 for Their
Testimony at Trial and Other Judicial
Proceedings
The plaintiffs also allege that defendants
Sealey and Locklear deprived plaintiffs of their Due
Process rights by giving false or perjurious testimony
at the trials and/or other judicial proceedings.
(Amended Complaint, ¶¶ 80, 135; Plaintiffs’ Amended

124a
Responses to Defendant Sealey’s Interrogatories,
Response to Interrogatory 6).
It is well established that officers are entitled
to absolute immunity for testimony before a grand
jury or at a trial. Briscoe v. Lattue, 460 U.S. 325, 332333, 103 S.Ct. 1108, 75 L.Ed.2d 96 (1983); Rehberg v.
Paulk, 566 U.S. 356, 366-375, 132 S.Ct. 1497, 182
L.Ed.2d 593 (2012). See also Lyles v. Sparks, 79 F.3d
372, 378 (4th Cir. 1996). Absolute immunity extends
to all witnesses in judicial proceedings, Burke v.
Miller, 580 F.2d 108 (4th Cir. 1978), cert. den., 440
U.S. 930 (1979), including law enforcement officers.
Brisco, supra.; Rehberg, supra. Moreover, a witness is
entitled to testimonial immunity “no matter how
egregious or perjurious that testimony was alleged to
have been.” Spurlock v. Satterfield, 167 F.3d 995,
1001 (6th Cir. 1999).
Therefore, the defendants Sealey and Locklear
are entitled to absolute immunity for any purported
claims based on these officers’ testimony before the
Grand Jury, pre-trial proceedings, or at plaintiffs’
criminal trials.
III.

PLAINTIFFS’
FEDERAL
CLAIMS
AGAINST SEALEY AND LOCKLEAR, IN
THEIR INDIVIDUAL CAPACITIES, FAIL
AS A MATTER OF LAW BECAUSE
SEALEY AND OFFICER LOCKLEAR ARE
ENTITLED TO QUALIFIED IMMUNITY

A court required to rule upon the qualified
immunity issue considers whether the plaintiff has
proved that a constitutional violation occurred.
Saucier v. Katz, 533 U.S. 194, 201, 121 S.Ct. 2151,
2156 (2001). If there has been no constitutional

125a
violation, then the officers are entitled to qualified
immunity. Saucier, supra. However, if the facts could
establish a constitutional violation, the Court must
analyze whether the constitutional right alleged to
have been violated was “clearly established” at the
time of the officer’s actions. Id.9 In considering this
second prong of the Saucier framework, the key issue
is whether the law “gave the officials ‘fair warning’
that their conduct was unconstitutional.” Ridpath v.
Board of Governors Marshall Univ., 447 F.3d 292, 313
(4th Cir. 2006). For the right to have been clearly
established, “existing precedent must have placed the…
constitutional question beyond debate.” Ashcroft v. alKidd, 563 U.S. 731, 741, 131 S. Ct. 2074, 2083 (2011).
“[T]he ‘contours of the right’ must have been so
conclusively drawn as to leave no doubt that the
challenged action was unconstitutional.” Swanson v.
Powers, 937 F.2d 965, 969 (4th Cir. 1991), quoting
Anderson v. Creighton, 483 U.S. 635, 640, 107 S. Ct.
3034 (1987). Thus, the inquiry into whether the right
was clearly established must “be undertaken in light
of the specific context of the case” and “not as a broad
general proposition….” Saucier, supra. See White v.
Pauly, 137 S.Ct. 548, 552, 137 L.Ed.2d 548 (2017)
(reiterating the “longstanding principle that ‘clearly
established law’ should not be defined ‘at a high level
of generality,’” but must be “particularized to the facts
of the case”).
The doctrine of qualified immunity serves
fundamental concerns of fairness: “Officers sued in a
civil action for damages…have the same right to fair
In Pearson v. Callahan, 555 U.S. 194, 129 S. Ct. 808, 817-18
(2009), the Supreme Court granted courts discretion over the
order of application of the Saucier analysis, while recognizing
that conducting the analysis in order is often beneficial. Id.
9

126a
notice as to defendants charged with criminal
offense[s].” Hope v. Pelzer, 536 U.S. 730, 739, 122 S.
Ct. 2508 (2002). “[T]he qualified immunity test is
simply the adaptation of the fair warning standard to
give officials…the same protection from civil liability
and its consequences that individuals have
traditionally possessed in the face of vague criminal
statutes.” United States v. Lanier, 520 U.S. 259, 27071, 117 S. Ct. 1219 (1997). In other words, officers are
entitled to qualified immunity “if a reasonable officer
possessing the same information could have believed
that his conduct was lawful.” Slattery v. Rizzo, 939
F.2d 213, 216 (4h Cir. 1991) (emphasis added). The
“safe harbor” of qualified immunity “ensures that
officers will not be liable for ‘bad guesses in gray
areas’ but only for ‘transgressing bright lines.’” Doe v.
Broderick, 225 F.3d 440, 453 (4th Cir. 2000) (citations
omitted). Thus, an officer will be entitled to qualified
immunity unless “every reasonable official would
have understood that what he [was] doing” violated
the Constitution. Ashcroft v. al-Kidd, 131 S. Ct. at
2083, quoting Anderson, 483 U.S. at 640.
As shown at length above, Sealey and Locklear
did not violate the plaintiffs’ constitutional rights.
However, even assuming arguendo that the plaintiffs’
constitutional rights may have been violated by these
officers, it was not clearly established, at the time of
the officers’ actions, that their actions violated the
Constitution. For example, on the issue of probable
cause, an officer is entitled to qualified immunity “if
officers of reasonable competence could disagree” on
the issue of probable cause. Mally v. Briggs, 475 U.S.
335, 341 and 346 n. 9, 106 S.Ct. 1092 (1988). In 1983,
suspects’ confessions were obviously sufficient to
provide probable cause, and the case law existing in

127a
1983 did not clearly establish that the plaintiffs’
confessions were coerced under the specific facts of
this case. Indeed, a Magistrate issued warrants, a
Grand Jury indicted both plaintiffs, every judge to
consider the issue held that the plaintiffs’ confessions
were voluntary, both plaintiffs were convicted, and
the convictions were affirmed on appeal. See
McKinney v. Richland County Sheriff’s Dept., 431
F.3d 415, 419 (4th Cir. 2005) (holding that an officer
was entitled to qualified immunity in part because a
magistrate and prosecutor concluded that probable
cause existed). See also, e.g., Keil v. Triveline, 661
F.3d 981, 986-87 (11th Cir. 2011) (Officers are entitled
to qualified immunity if there was “arguable probable
cause”). As to the Due Process Brady-based claims, it
was not even clearly established in 1984 that officers
had the duty to turn exculpatory evidence over to
prosecutors. See Jean v. Collins, 155 F.3d 701 (4th
Cir. 1998), superseded by Jean v. Collins, 221 F.3d
656 (4th Cir. 2000). However, in this case, Sealey and
Locklear gave all the information in their possession
to the SBI, with the understanding and belief that all
evidence would be produced by the SBI to prosecutors.
This conduct does not violate Due Process, and did not
violate “clearly established” Due Process law as it
existed in 1984. Furthermore, plaintiffs cannot show
that the moving defendants fabricated any evidence,
and it cannot be argued, under the facts of this case,
that it was clearly established that the evidence
plaintiffs allege was suppressed or fabricated was
material and/or the cause or proximate cause of
plaintiffs’ loss of liberty. In other words, reasonable
officers in the specific factual scenario faced by Sealey
and Locklear in this case could have believed that
their conduct was lawful. Slattery, supra. Therefore,

128a
Sealey and Locklear in their individual capacities are
entitled to qualified immunity.
IV.

DEFENDANTS SEALY AND LOCKLEAR
IN THEIR OFFICIAL CAPACITY ARE
ENTITLED TO SUMMARY JUDGMENT
AS TO PLAINTIFFS’ FOURTH CAUSE OF
ACTION FOR “MUNICIPAL LIABILITY”

Plaintiffs’ Fourth Cause of Action is a claim
under Section 1983 against Sealey and Locklear in
their official capacity for “municipal liability.”
Plaintiffs’ “official capacity” claims against Sealey
and Locklear are really a suit against the Robeson
County Sheriff’s Office. Kentucky v. Graham, 473
U.S. 159, 165-66, 105 S.Ct. 3099-3015 (1985). The
plaintiffs’ federal claim for Section 1983 “municipal
liability” against the Sheriff’s Office must fail,
because as demonstrated in other sections of this
brief, the officers did not violate plaintiffs’
constitutional rights. It is well established that a
municipality cannot be held liable under Section 1983
where there has been no constitutional violation.
See, e.g., Belcher v. Oliver, 898 F.2d 32, 36 (4th Cir.
1990). Even assuming arguendo that plaintiffs’
constitutional rights were violated, the Sheriff’s
Office is nevertheless entitled to summary judgment
because the alleged constitutional violations were not
the result of any official policy, practice, or custom of
the Sheriff’s Office.
The Robeson County Sheriff’s Office may not be
held liable under 42 U.S.C. § 1983 “unless action
pursuant to official municipal policy of some nature
caused [the] constitutional tort.” Collins v. City of
Harker Heights, 503 U.S. 115, 120-121, 112 S. Ct.

129a
1061, 1066, 117 L. Ed. 2d 261 (1992) (quoting Monell
v. New York City Dept. of Social Services, 436 U.S.
658, 691, 98 S. Ct. 2018, 2036, 56 L. Ed. 2d 611
(1978)). In other words, respondeat superior may not
serve as the basis for imposing section 1983 liability
on a governmental entity. Collins, 503 U.S. at 121,
112 S. Ct. at 1067; City of Canton v. Harris, 489 U.S.
378, 392, 109 S. Ct. 1197, 1206-07, 103 L. Ed. 2d 412
(1989). Instead, governmental liability attaches only
when “execution of a government’s policy or custom,
whether made by its law makers or those whose edicts
or acts may fairly be said to represent official policy,
inflicts the injury.” Monell, 435 U.S. at 694. “Thus, not
only must there be some degree of ‘fault’ on the part
of the [governmental entity] in establishing or
tolerating the custom or policy, but there also must
exist a causal link between the custom or policy and
the deprivation.” City of Oklahoma City v. Tuttle, 471
U.S. 808, 820, 105 S. Ct. 2427, 2434-35, 85 L. Ed. 2d
791 (1985).
In practice, plaintiffs must show (1) that their
rights were impaired as a result of an official policy,
practice, or custom promulgated by the governmental
entity, Jett v. Dallas Independent School District, 491
U.S. 701, 735-736, 109 S. Ct. 2702, 2723, 105 L. Ed.
2d 598 (1989); Monell, supra; or (2) that their rights
were impaired by the act or acts of an individual who
has final policymaking authority for the challenged
act to establish municipal liability. Pembaur v. City
of Cincinnati, 475 U.S. 469, 106 S. Ct. 1292, 89 L. Ed.
2d 452 (1986); Jett, supra.
In the instant case, plaintiffs have brought
forward no evidence that the alleged constitutional
violations were caused by an official custom or policy

130a
of the Sheriff’s Office, or that the alleged
constitutional violations were caused by the actions of
an individual with final policymaking authority.
Indeed, the evidence before this court actually
demonstrates that, assuming arguendo that
plaintiffs’ constitutional rights were violated, they
were not violated as a result of any official policy or
practice of the Sheriff’s Office. Given that neither
Sealey nor Locklear had “final policymaking
authority” and plaintiffs’ failure to establish that
their injury resulted from a policy of the Sheriff’s
Office, plaintiffs have failed to meet the requirements
for establishing Section 1983 liability under Jett and
Pembaur. Thus, defendants Sealey and Locklear are
entitled to summary judgments as to plaintiffs’
Section 1983 claims for “municipal liability.”
CONCLUSION
Based on the foregoing argument and
authorities, defendants Sealey and Locklear
respectfully submit that their motion for summary
judgment should be granted.
2017.

Respectfully submitted, this 3rd day of April,
/S/ James R. Morgan, Jr.
James R. Morgan, Jr.
N.C. State Bar No.: 12496
/S/ Bradley O. Wood
Bradley O. Wood
N.C. State Bar No.: 22392
WOMBLE CARLYLE SANDRIDGE & RICE,
A Limited Liability Partnership
One West Fourth Street
Winston-Salem, NC 27101

131a
Telephone: (336) 721-3600
Facsimile: (336) 721-3660
E-mail: jmorgan@wcsr.com
E-mail: bwood@wcsr.com
Counsel for Defendants Kenneth Sealey,
individually and in his official capacity as the
Sheriff of Robeson County, and Robert E.
Price, as Administrator C.T.A. of The Estate
of Joel Garth Locklear, Sr.
CERTIFICATE OF SERVICE
This is to certify that on April 3, 2017, the
undersigned caused to be served the foregoing
BRIEF IN SUPPORT OF MOTION FOR
SUMMARY JUDGMENT (ON BEHALF OF
DEFENDANTS ROBERT E. PRICE, AS
ADMINISTRATOR C.T.A. OF THE ESTATE OF
JOEL GARTH LOCKLEAR, AND KENNETH
SEALEY) upon the following addressees via firstclass mail.
Jaime T. Halscott
Patrick M. Megaro
Halscott Megaro, P.A.
33 East Robinson Street
Suite 220
Orlando, FL 32801
Email: jhalscott@halscottmegaro.com
Email: pmegaro@appealslawgroup.com
Scott Brettschneider
118-35 Queens Boulevard, Suite 400
Forest Hills, NY 11375
Email: scottfreelaw@aol.com
Counsel for Plaintiffs

132a
Hal F. Askins
Special Deputy Attorney General
J. Joy Strickland
Assistant Attorney General
N.C. Department of Justice
P. O. Box 629
Raleigh, NC 27602-0629
Email: haskins@ncdoj.com
Email: jstrickland@ncdoj.com
Counsel for Defendants Kenneth Snead and Leroy
Allen
Garris Neil Yarborough
Timothy C. Smith, Jr.
Yarborough Winters & Neville, P.A.
P. O. Box 705
Fayetteville, NC 28302-0705
Email: gnyesq@ywnlaw.com
Email: timsmith@ywnlaw.com
Counsel for Defendants Town of Red Springs, Larry
Floyd, and Paul Canady, Administrator of the Estate
of Luther Haggins
Dan M. Hartzog
Dan M. Hartzog, Jr.
Katherine M. Barber-Jones
Cranfill Sumner & Hartzog, LLP
Post Office Box 2708
Raleigh, NC 27611
Email: dmh@cshlaw.com
Email: dhartzogjr@cshlaw.com
Email: kbarber-jones@cshlaw.com
Counsel for Defendant Town of Red Springs

133a
John Stewart Butler , III
Anderson, Johnson, Lawrence & Butler, LLP
P. O. Box 53945
Fayetteville, NC 28305-3945
Email: jsbutler@andersonjohnson.com
Counsel for Defendants Town of Red Springs, Larry
Floyd, and Paul Canady, Administrator of the Estate
of Luther Haggins
/S/ Bradley O. Wood
Bradley O. Wood
N.C. State Bar No.: 22392
WOMBLE CARLYLE SANDRIDGE & RICE,
A Limited Liability Partnership
One West Fourth Street
Winston-Salem, NC 27101
Telephone: (336) 728-7012
Facsimile: (336) 726-6913
E-mail: bwood@wcsr.com
Counsel for Defendants Kenneth Sealey,
individually and in his official capacity as the
Sheriff of Robeson County, and Robert E.
Price, as Administrator C.T.A. of The Estate
of Joel Garth Locklear, Sr.

134a
[ENTERED: April 3, 2017]
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
NORTH CAROLINA WESTERN DIVISION
Case No. 5:15-cv-00451-BO
HENRY LEE MCCOLLUM )
and J. DUANE GILLIAM, )
as Guardian of the Estate )
of LEON BROWN,
)
)
Plaintiffs,
)
STATEMENT OF
)
UNDISPUTED
v.
) MATERIAL FACTS
)
PURSUANT
TOWN OF RED
) TO LOCAL CIVIL
SPRINGS, KENNETH
)
RULE 56.1 OF
SEALEY, both individually )
DEFENDANTS
and in his official capacity ) KENNETH SEALEY
as the Sheriff of Robeson )
AND ROBERT E.
County, KENNETH
)
PRICE, AS
SNEAD, ROBERT E.
) ADMINISTRATOR
PRICE, as Administrator )
C.T.A. OF THE
C.T.A. of the Estate of Joel )
ESTATE OF
Garth Locklear, Sr.,
)
JOEL GARTH
LARRY FLOYD, LEROY )
LOCKLEAR, SR.
ALLEN, PAUL CANADY, )
as Administrator C.T.A. of )
the Estate of Luther
)
Haggins,
)
)
Defendants.
)

135a
NOW COME defendants KENNETH SEALEY
and ROBERT E. PRICE, as Administrator C.T.A. of
the Estate of Joel Garth Locklear, Sr., by and through
counsel, pursuant to Local Civil Rule 56.1(a)(1), and
submit this Statement of Undisputed Material Facts
in support of their Motion for Summary Judgment
previously filed in this matter on September 29, 2016.
There is no genuine dispute as to the following facts:
1.
On Saturday night, September 24, 1983,
eleven year-old Sabrina Buie went missing. [1984
joint trial: 982:3-10, 996:13-18; 1991 McCollum
retrial, 1339:22-1342:14]
2.
Her parents filed a missing person
report with the Red Springs Police Department the
next day. [1984 joint trial, 985:9-13, 1003:13-18; 1991
McCollum retrial, 1342:20-1343:5, 1352:17-1353:12]
3.
On Monday afternoon, September 26,
1983, Mr. James Shaw found Sabrina’s nude body in
a soybean field in Red Springs. [1984 joint trial,
989:2-10, 1013; 1991 McCollum retrial, 1346:21347:12]
4. The Red Springs Police Department
requested the North Carolina State Bureau of
Investigation (SBI) to take control of the murder
investigation. SBI agents began arriving in Red
Springs in the afternoon and evening of September
26, 1983 to begin work on the investigation. [1984
trial, 1023:5-9, 1144:9-14; 1991 McCollum trial,
1368:24-1370:7, 1468:15-1469:7; 1992 Brown trial
14:6-8, 181:24-182:10; Snead dep., 10:7-12:3; Allen
dep. 37:15-38:3]

136a
5.
The Sheriff of Robeson County assigned
defendants Detective Garth Locklear (now deceased)
and Detective Kenneth Sealey (now the Sheriff of
Robeson County) to provide additional support to the
SBI. Neither Locklear nor Sealey were involved in
processing the crime scene, which was conducted by
SBI Agent Leroy Allen. [Sealey dep., 72:16-74:20;
Sealey Aff. ¶¶ 11, 18; 1992 Brown retrial, 237:18-24]
6.
Upon his arrival at the Red Springs
Police Department, Sealey was assigned to work with
defendant SBI Agent Kenneth Snead. Snead and
Sealey worked together during the course of the
investigation, canvassing the area in search of leads.
[January 17, 1991 suppression hearing trans., 33:2434:4; Sealey dep. I, 74:12-20; Sealey Aff. ¶ 8; Snead
dep. 11:21-12:23]
7.
Detective Locklear assisted Red Springs
Police Department officers in canvassing the area.
[1992 Brown trial, 237:22-24]
8.
On September 27, 1983, Detective
Locklear spoke with Plaintiff Henry McCollum in his
yard while McCollum was mowing the grass.
According to McCollum, “He pulled up in the yard
when I was cutting my mother’s grass, and he asked
me do I have a free minute. And I told him yeah.”
Detective Locklear asked McCollum his name and
whether he lived in Red Springs. McCollum replied
that he was visiting from New Jersey. McCollum
states Detective Locklear asked him “where I was the
night of September 24th when that little girl was
missing.” Plaintiff McCollum responded that he was
at his mother’s house watching television with
friends. After a short conversation lasting no more

137a
than five minutes, Detective Locklear departed.
[McCollum dep., 25:6-28:13; excerpt of SBI
investigative file 1983-00300] (McCollum’s 2016
deposition testimony differs to some extent with the
summary of Detective Locklear’s interview of him in
the 1983 SBI report.
In any event, however,
McCollum denied any knowledge regarding the
disappearance of Miss Buie.)
9.
Agent Snead and Detective Sealey
interviewed seventeen year-old Ethel Furmage at her
residence at approximately 6:20 p.m. on September
28, 1983. Miss Furmage advised Snead and Sealey
that she had heard at school that “Buddy” (Plaintiff
Henry McCollum) had killed Ms. Buie, and that
individuals named David Murray and Chris Brown
were also involved in the murder. [Snead dep., 18:2124:18; 27:1-8; Sealey Aff. ¶ 9; SBI investigative file
1983-00300 summary]
10.
Following up on this lead, Snead, Sealey
and SBI Agent Leroy Allen went to McCollum’s
residence at approximately 9:10 p.m. on September
28, 1983 to see if he would be willing to speak with
them. [1984 trial, 1145:1-3, 1155:16-18; Snead dep.,
37:12-38:15; Sealey dep. I, 114:7-115:25; Sealey Aff.,
¶ 9] Officers spoke with McCollum’s mother, Mamie
Brown, and asked her if they could speak with her
son, Henry McCollum. McCollum came to the front
door from a back room. After being advised that he
was not under arrest and that he had no obligation to
speak with or accompany them, McCollum
voluntarily agreed to ride with the officers to the
nearby Red Springs Police Department to talk. [1984
joint trial, 1145:3-8, 1258:19-1259:3, 1277:2-23;
January 16, 1991 suppression hearing trans., 5:1-6:6,

138a
40:6-41:7, 43:1-46:2; 1991 McCollum retrial, 1468:151471:14; Snead dep., 38:25-39:13; McCollum’s
response to Request for Admission # 1 by Defendants’
Snead and Allen] When asked if he voluntarily
accompanied the officers to the police station,
McCollum testified, “Yes, I went willingly.”
[McCollum dep., 99:20-24] “They asked me would I
mind going down to the police station. . . I told them
okay.” “We got in the car and went straight to the Red
Springs Police Department.” [McCollum dep., 30:732:19] McCollum was not handcuffed. [McCollum
dep., 46:12-23]
11.
Upon their arrival at the Red Springs
Police Department, McCollum was again advised that
he was not under arrest. He was told on several
occasions that he could leave at any time. [1984 trial
1146:11-13, 1150:21-22, 1166:8-16, 1273; January 17,
1991 suppression hearing trans., 7:22-8:3; McCollum
dep., 69:11-15; Snead dep., 37:12-38:15; Sealey Aff., ¶
10]
12.
McCollum consented to having his
fingerprints taken by Agent Allen. [1984 joint trial,
1145:11-14; January 17, 1991 suppression hearing
trans., 7:18-21; 1991 McCollum retrial, 1417:161418:2, 1471:22-1472:1; Sealey dep. I, 114:7-115:25]
13.
After this took place, McCollum was
asked to be seated in an office belonging to the Red
Springs Chief of Police. “They told me to sit down. And
they said they’ll be back.” [McCollum dep., 35:20-25]
14.
Officers then spoke to McCollum about
matters unrelated to Sabrina Buie. When the subject
of the murder of Sabrina Buie was raised, officers
observed McCollum to become visibly nervous. [1984

139a
trial 1146:6-7, 1159:20-21; January 17, 1991
suppression hearing trans., 6:16-7:11, 8:6-9, 23:2324:11; 1991 McCollum retrial, 1472:7-13, 1473:61474:12; McCollum dep., 48:8-12; Sealey dep. I,
131:22-133:4; Sealey Aff., ¶ 10]
15.
As forth in the testimony at McCollum’s
1984 trial, in McCollum’s 1991 retrial, and in
deposition testimony, Snead advised McCollum of his
Miranda rights, which McCollum waived in writing at
10:26 p.m. [McCollum rights waiver form; 1984 joint
trial, 1146:7-1149:15, 1169:9-22, 1354:9-1358:13;
January 17, 1991 suppression hearing trans., 8:2511:3, 41:19-42:22; 1991 McCollum retrial 1474:151480:6; Snead dep., 39:25-40:45, 43:12-45:12; Sealey
dep. I, 127:4-130:1; Sealey Aff., ¶ 10]
16.
During the course of his questioning
McCollum was provided with cigarettes, soft drinks,
and was permitted numerous water and restroom
breaks.
[1984 trial, 1149:16-1150:13, 1162-63,
1359:2-6; January 17, 1991 suppression hearing
trans., 11:7-11, 16:19-17:10; 1991 McCollum retrial,
1487:22-1488:22; McCollum dep., 49:3-50:2, 52:1-11]
He did not request to make a telephone call to anyone.
[McCollum dep., 101:20-24]
17.
As McCollum was talking with the
officers, Snead wrote down what he said. [McCollum
dep., 107-21-108:5] McCollum signed this document,
in which he confessed his involvement, along with
several other individuals including his half-brother,
Leon Brown, in the rape and murder of Sabrina Buie.
[McCollum September 29, 1983 confessions; 1984
joint trial, 1149:16-1150:13, 1162:8-1163:24, 1359:151365:24; January 17, 1991 suppression hearing

140a
trans., 11:12-16:12, 26:21-27:11; 1991 McCollum
retrial, 1480:5-1491:3; 1496:22-1497:11; Snead dep.
40:1-68:3; Sealey Aff., ¶¶ 12-13; McCollum dep.,
106:23-107:2; Ex. 2;] McCollum signed each and
every page of the document. [McCollum dep., 67:6-8]
McCollum also drew a diagram of the crime scene,
with the assistance of Agent Allen. [McCollum crime
scene sketch; January 17, 1991 suppression hearing
trans., 18:18-22; Allen dep., 119:15-121:4]
18.
After McCollum signed his statement,
Sealey took another short statement from McCollum
in the presence of Red Springs Police Chief Luther
Haggins and Agent Allen, in which McCollum related
his individual actions during the rape and murder of
Sabrina Buie. [McCollum September 29, 1983
confessions [last page]; January 16, 1991 suppression
hearing trans., 47:11-23, 49:7-20, 51:12-52:3;
McCollum dep., Ex. 2, (final page); Sealey dep. I,
137:16-140:5; Sealey Aff., 14]
19.
After he had confessed to the rape and
murder of Sabrina Buie, McCollum was placed under
arrest, as his confession established probable cause to
believe that he had committed those crimes. [1984
joint trial, 1376:1-11; January 17, 1991 suppression
hearing trans., 25:19-26-26; 1991 McCollum retrial,
1493:20-22] McCollum recalls that he was arrested
by Red Springs Police Officer Larry Floyd.
[McCollum dep., 71:6-9; Sealey dep. I, 140:10-14]
20.
While Agent Snead, Detective Sealey
and Agent Allen were talking with Plaintiff
McCollum, Leon Brown voluntarily came to the Red
Springs Police Station with his mother. [J. Duane
Gilliam’s response to Request for Admission # 1 by

141a
Defendants’ Snead and Allen] Brown testified at his
deposition that an officer “asked me would I come in
and talk to him for a minute. I say yes. So I – I went
in there with him.” [Brown dep., 33:14-20; 1984 joint
trial, 1198:12-18, 1317:16-18] At the direction of SBI
Special Agent in Charge Frank Johnson, Agent Allen
advised Leon Brown of his Miranda rights, which he
waived. [Leon Brown juvenile rights waiver form;
1984 joint trial, 1151:2-1152:19, 1170:19-1172:18,
1365:25-1370:7; 1992 Brown retrial 14:23-21:25;
25:25-28:19]
21.
At the direction of SBI Agents, Detective
Garth Locklear interviewed Brown, along with Red
Springs Police Chief Luther Haggins. [1984 joint
trial, 1154:17-20, 1181:13-19, 1189:15-17, 1388:211389:16; 1992 Brown retrial 16:15-21:25]
22.
Prior to the start of Brown’s interview,
McCollum confronted Brown and advised his brother
that he had told the truth – that they had raped and
murdered Sabrina Buie -- and encouraged Brown to
also tell the truth. [1984 joint trial, 1771:20-1772:9,
1390:17-1402:3; 1991 McCollum retrial, 1493:11-19;
January 16, 1991 suppression trans., 56:7-14; 1992
Brown retrial 27:11-17; 233:8-10; Brown dep. 81:8-18,
Ex. 8] Brown later related to Sharon Stellato, the
Assistant Director of the North Carolina Innocence
Inquiry Commission, in 2014 that “my brother come
back in the room and say we did it.” [Stellato dep.,
79:8-80:6, Ex. 24, 30:17-18]
23.
During his interview, Leon Brown
confessed to being present and involved in the rape
and murder of Sabrina Buie along with several
others, including his brother, Henry McCollum. [1984

142a
joint trial, 1180:21-1193:22, 1390:17-1402:3; 1992
Brown retrial 40:7-48:24, 243:6-253:6; 261:5-268:17271:21, Brown dep., Ex. 6] Brown’s statements were
reduced to writing by Detective Locklear, who sat
next to him and reviewed it with him for accuracy.
[Leon Brown confession; 1984 joint trial, 1191:141192:4, 1390:17-1402:3-1410:19; 1992 Brown retrial
34:14-22, 37:15-38:8, 254:6-255:4; Stellato dep., Ex.
24, 30:1-5]
Brown initialed corrections to his
confession in numerous places and then signed it.
[1984 joint trial 1336:20-1339:3; 1992 Brown retrial
41:32-34, 49:15-18; 253:10-225:8; Brown dep. 54:1357:21 59:17-60:3, 60:17-61:7, Ex. 6] Brown also
assisted Detective Locklear in creating a sketch of the
crime scene. [Leon Brown crime scene sketch; 1992
Brown retrial, 257:10-261:3]
24.
After he had confessed to the rape and
murder of Sabrina Buie, Brown was also placed under
arrest, as his confession established probable cause to
believe that he had committed those crimes. [1992
Brown retrial, 268:6-10]
25.
Prior to McCollum and Brown each
confessing to the participation in the rape and murder
of Sabrina, neither Sealey nor Locklear knew how she
had been killed or the details of the crime scene.
[1984 joint trial, 1371:13 1992 Brown retrial, 237:25238:3; Snead dep., 16:2-18:22; Sealey Aff., ¶ 11; Sealey
dep. I, 75:14-16, 92:22-95:5; Sealey dep. II, 57:2-14]
26.
Plaintiff McCollum was transported
from the Red Springs Police Department to the
Robeson County Jail by Red Springs Police Officer
Larry Floyd. [McCollum dep., 72:6-12]

143a
27.
Floyd testified at trial that during the
drive to the Robeson County Jail, McCollum made a
statement that he did not kill anyone. Instead,
McCollum stated that he had only held Sabrina’s
hands. McCollum further told Officer Floyd that after
Brown had left the scene to go home, he and the
others had moved Sabrina’s body from a ditch to the
soybean field. [1984 joint trial, 1744:4-1756:10; 1991
McCollum retrial, 1364:16-1365:5; January 16, 1991
suppression hearing, 57:3-58:3]
28.
On September 29, 1983, Magistrate
Harry B. Chapman issued warrants for the arrest of
Henry McCollum for the rape and murder of Sabrina
Buie. [Copies of warrants] On September 29, 1983,
juvenile petitions were filed against Leon Brown for
the rape and murder of Sabrina Buie. [Copy of
juvenile petitions]
29.
On or about September 30, 1983,
following his first appearance in the Robeson County
Courthouse, McCollum admitted on camera to a
television reporter that he had held Sabrina down
while others raped and murdered her, stating “I just
held her down. That’s it.” [Barnes Aff., ¶ 6, Ex A (copy
of video recording); 1984 joint trial 1275:1-23,
1596:12-1599:22; McCollum dep. 74:12-75:7; 109:24112:11] On camera, McCollum stated that “Izar” (the
nickname of Chris Brown [McCollum dep., 101:9-15])
and Darrell Suber, two of the individuals he had
implicated in his confession, were the ones who had
raped and killed Sabrina Buie. [Barnes Aff., Ex A.
(video recording)] McCollum admits that the video
recording depicts him stating “I held the girl arm
down while they killed her.” [McCollum dep., 112:1011]

144a
30.
During the investigation, Detective
Locklear and Detective Sealey worked under the
direction of the SBI. As the SBI was the lead agency
in the investigation and would produce the final
investigation report to the District Attorney, Locklear
and Sealey provided copies of all notes and documents
that they created or obtained to members of the SBI
for incorporation into the SBI investigative report.
Neither withheld notes or information from the SBI.
It was Locklear’s and Sealey’s belief that the State
Bureau of Investigation would provide all the
information in its file, including the information that
Locklear and Sealey had provided, to the District
Attorney’s office. [Sealey Aff., ¶ 17]
31.
Neither Sealey nor Locklear had any
involvement in obtaining or processing any physical
evidence regarding the rape and murder of Sabrina
Buie. Neither had any involvement in requesting
that any evidence be examined or processed by the
North Carolina Crime Lab or cancellation of any such
request. [Sealey Aff., ¶ 17]
32.
As set forth on the cover, a copy of the
SBI’s investigative report was forwarded to the
Robeson County District Attorney’s Office. [See SBI
reports, DE # 146-10, p. 20; DE # 149-2, p. 6; DE #
161-40, p. 3; DE # 161-41, p. 2]
33.
On January 3, 1984, Plaintiffs were each
indicted by a grand jury on charges of First Degree
Murder and Rape. [See copies of Indictments]
34.
Plaintiffs were tried together in Robeson
County Superior Court in October 1984. During a
hearing on the Plaintiffs’ motion to suppress their
confessions, the Plaintiffs each testified, contending

145a
that their confessions were coerced by law
enforcement officers who shouted at them, threatened
them and called them names. [1984 joint trial,
1255:21-1299:13
(McCollum),
1317:4-1339:16
(Brown)] In his testimony during motion to suppress,
McCollum admitted to holding Sabrina down while
she was raped and killed. [1984 joint trial, 1273:1-8]
Plaintiff Brown also offered the expert testimony of
Dr. Franklin Egolf, Jr., a psychologist, who opined
that Brown’s I.Q. scores fell within the mild range of
mental retardation, but that Brown was capable of
understanding his rights and waiving the opportunity
to have a lawyer present on a concrete level. [1984
joint trial, 1300:4-1307:4; 1672:20-1693:23]
35.
After hearing testimony from Snead and
Locklear for the State and from both of the Plaintiffs,
their mother Mamie Brown, their sister Geraldine
Brown, another witness, Lewis Sinclair, and Dr.
Egolf, for the defense, the trial court ruled that the
Plaintiffs’ confessions were each knowingly,
intelligently and voluntarily made, and therefore
admissible. [1984 joint trial, 1346:6-1351:9] More
specifically, the Court held:
In the absence of the jury a voir
dire examination was conducted with
evidence being received both from the
State of North Carolina and from the
respective defendants, and based upon
the believable evidence in the case the
Court makes the findings of fact:
That the defendant McCollum
voluntarily went to the police station in
Red Springs, North Carolina, to be

146a
questioned by the officers involved and
that after questions were asked of that
defendant the defendant was charged
with the murder and rape of Sabrina
Buie.
That the defendant Leon Brown
voluntarily and in the absence of officers
visited the police station in Red Springs,
North Carolina, and was questioned by
the officers there, and that after such
questioning that defendant was arrested
for murder and rape.
That before each defendant was
questioned that defendant was advised
of his constitutional rights. That each
defendant was given a written waiver of
rights form setting out his various rights
and that the defendant indicated to the
officer that he understood his rights as
they were read to him and that each
defendant affixed his signature to the
end of the rights form indicating his
answers given therein were true.
That the defendants and each of
them was specificallay [sic] advised that
he had the right to remain silent and
that each defendant advised the officer
that he understood that right.
That
each
defendant
was
specifically advised whatever he said
would and could be used against him,
and each defendant that he understood
that right.

147a
That each of the defendants was
advised that he had a right to consult a
lawyer and to have a lawyer present
while he was being questioned and that
each defendant indicated he understood
that right.
That the defendant Brown was
advised that he had the right to have his
parent or guardian present during any
questioning made by the officer and that
he understood – he indicated that he
understood that right.
That the defendant and each of
them was advised that if he could not
afford a lawyer that a lawyer would be
appointed to represent him and that the
defendant indicated that he understood
that right.
That the defendant and each of
them was advised that in the event he
elected to make a statement that he
could at any time he deemed it desirable
stop answering questions and each
defendant indicated he understood that
right.
That neither defendant indicated
at any time that he desired an attorney
to be present during questioning and the
defendant Brown did not indicated that
he desired the presence of his parent or
guardian.

148a
That at the time of interrogation
of each defendant neither was under the
influence of alcoholic beverage or any
impairing substance That each was
coherent during the interrogation, even
though there was nervousness and some
crying on the part of each defendant.
That the answers of the defendant
and each of them as given to the
respective officers were not incoherent
and were sensible. That the officers
made no offer of hope of reward or
inducement to either defendant to
secure from him the statement made.
That neither officer may any threat or
show of violence and made no act which
suggested violence to persuade or induce
the defendant to make his statement.
That during the questions
refreshments, food and water and toilet
facilities were available.
That the
defendant Brown, though limited in
mental capacity, did not – [sic] was
capable of understanding his rights as
advised by the officers involved.
That each defendant was orally
question about the facts of the case and
then after the oral interrogation was
completed the statement of the
individual defendant was reduced in
writing by the officer involved, which
said statement was individually signed

149a
on each page by the defendant at the end
thereof and witnessed by the officers.
Therefore, based upon the
foregoing findings of facts, the Court
concludes as a matter of law there was
no offer of reward or inducement to
either defendant to make him make
statement. That there was no threats or
suggested violence or show of violence to
persuade or induce the defendant to
make a statement or either of them.
That any statement made by the
defendant McCollum and the defendant
Brown on September 28th and 29th, was
made freely, voluntarily, knowingly,
understandingly, and independently
without duress, coercion or inducement.
That each defendant at the time
he made the statement was in full
understanding of his constitutional
rights to remain silent, the right to
counsel, the right to have his parent or
guardian present and all of his other
constitutional rights as set forth in the
United States Supreme Court case of
Miranda versus Arizona, and each
defendant was orally advised of those
rights before being questioned.
Therefore, that each defendant
purposely, freely, knowingly and
affirmatively waived each of these
rights, including his right to the
presence of counsel, retained or

150a
appointed, and his right to the presence
of a parent or guardian during
questioning, and therefore made a
statement to the officer, and so, for those
reasons, then, the motion to suppress
with respect to each defendant is denied,
and we’ll show that each defendant
excepts to the ruling of the Court.
And having ruled, the statement
as made by each defendant will be
admitted, and of course, available to be
heard by the jury.
[1984 joint trial, 1346:6-1351:9]
36.
Following a trial in which both of the
Plaintiffs testified during the case in chief, the
Plaintiffs were each convicted of first degree murder
and rape and were each sentenced to death. [1984
joint trial, 1546:9-1649:18 (McCollum), 1649:191670:20]
37.
On appeal, the North Carolina Supreme
Court reversed and remanded for a new trial, finding
error in the trial court’s jury instructions. State v.
McCollum, 321 N.C. 557, 563, 364 S.E.2d 112, 115
(1988). In its opinion, the North Carolina Supreme
Court held:
This Court has long held that where, as
here, “two or more defendants are jointly
tried for the same offense, a charge
which is susceptible to the construction
that the jury should convict all if it finds
one guilty is reversible error.” State v.
Tomblin, 276 N.C. at 276, 171 S.E.2d at

151a
903. The instructions in the present case
being susceptible to just such a
construction, these defendants must be,
and are, granted a new trial as to all of
the charges against them giving rise to
this appeal.
State v. McCollum, 321
N.C. at 563, 364 S.E.2d at 115.
The Court of Appeals’ opinion was confined
solely to the jury instruction issue. There was no
ruling that the Plaintiffs’ confessions were
inadmissible or otherwise unconstitutional.
38.
The Plaintiffs were subsequently retried
separately in adjacent counties, McCollum in
Cumberland County in 1991 and Brown in Bladen
County in 1992.
39.
During pre-trial motions held in
McCollum’s 1991 retrial in Cumberland County
Superior Court, his criminal defense attorney, James
C. Fuller, litigated strenuously to exclude McCollum’s
confession. In hearings held on January 16 and 17,
1991, defense counsel cross-examined States’
witnesses Snead, Sealey, Allen and Floyd. [January
16, 1991 suppression hearing trans., 3:23-60:4]
Defense counsel also offered the testimony of
psychologist Dr. Faye Sultan that McCollum would
not have been able to comprehend Miranda warnings
or the true meaning of his statement. [January 17,
1991 suppression hearing trans., 82:23-128:5] (The
Plaintiffs have designated Dr. Sultan as an expert
witness in this case.) During the hearing, Mr. Fuller
stated to the Court “What I’m suggesting to the Court,
were talking about rational conduct – we’re talking
about a person’s psychological make-up. This is not

152a
a case about police misconduct.” [January 17,
1991 trans., 136:17-18] (emphasis added)
40.
On July 31, 1991, the trial court entered
an Order finding McCollum’s confessions to be
knowing, intelligent and voluntary, and therefore
admissible. This Order states as follows:
From the believable evidence, the
Court finds the following facts by at least
a preponderance of the evidence:
1.
The Defendant, Henry Lee
McCollum, was personally present in
open Court along with his counsels,
William L. Davis, III, Marshal Dyan,
and James C. Fuller.
2.
This evidentiary hearing
was held in the absence of jury.
3.
The Court has had an
opportunity to see and observe each
witness’s and to determine what weight
and credibility to give to each witnesses
testimony.
4.
The evidence shows that on
or about September 24, 1983 an eleven
year old female living in Red Springs,
North Carolina was raped and murdered
Her body was found in a soy bean field
on September 26, 1983 in the city of Red
Springs.
5.
The Defendant, Henry Lee
McCollum, came to the attention of the
investigating officers as a person having

153a
information about the alleged crimes.
On
the
28th
September
1983,
approximately 9:10 p.m., Special Agents
Kenneth Ray Snead, Jr, and Leroy Allen
of the State Bureau of Investigation,
along with Detective Kenneth Sealey
of the Robeson County Sheriff’s
Department, went to the residence of
the defendant at 401 Malpass Street,
Red Springs, North Carolina. Detective
Sealey went to the defendant’s front
door where he observed the defendant,
the defendant’s mother and other
individuals, Detective Sealey asked the
defendant if he (the defendant) would go
or come down to the Red Springs Police
Department and talk with the officers.
The defendant did not appear nervous,
nor did he appear to be under the
influence of any drugs or intoxicating
beverage The defendant appeared
normal to the Detective. The defendant
was told he could accompany the officers
to the police department if he wished to
do so. The defendant was told by officers
he was not under arrest and did not have
to go with the officers to the police
station. No threats, coersion [sic] or
promises were made to the defendant by
any of the officers. The Defendant
appeared to have no problems
understanding what the officers talked
about or any instruction given to the
Defendant
by
the
officers.
Approximately ten minutes later the

154a
defendant went with the officers to the
Red Springs Police Department where
they arrived around 9:20 p.m. on
September 28th. After arriving at the
police station, the Defendant was again
told he was not under arrest and was
free to leave at any time. Agent Snead
talked with the Defendant from about
9:20 to 10:20 concerning other matters
during which time the Defendant agreed
to be fingerprinted. Four times between
9:20 and 10:20, the Defendant was told
by Agent Snead and Detective Sealey, he
was not under arrest and free to leave
any time he wanted. Up until 10:20 no
mention was made of Sabrina Buies
death.
At 10:26 the Agent Snead
obtained a standard Miranda form and
advised the Defendant of his rights (see
State Exhibit l). Prior to being advised
of his rights the defendant gave his
address, 401 Malpass Street, Red
Springs, North Carolina; date of birth,
XXXXXXX; Social Security number
XXXXXXX: and the number years of
completed schooling -- eleven years.
The Defendant had no problem
understanding the officers or any
instructions given to the defendant by
the officers. Defendant responses were
logical responses to questions asked by
the officers. Agent Snead then advised
the Defendant:
You have the right to remain
silent and not make any statement. His

155a
answer was yes that he understood that
and he put his initials beside that
statement.
Anything you say can and will be
used against you in Court, again, his
answer was yes that he understood it
and he initialed it.
You have the right to talk to a
lawyer before we or I ask you any
questions and have him with you during
questioning. His answer was right, and
his initials are beside that.
You have the same right to advise
[sic] and presence of a lawyer even if you
cannot afford one. And if you are
indigent a lawyer will be appointed to
represent you before any questions if you
desire.
He answered yes that he
understood that and he initialed it.
Do you want a lawyer? His
answer was no and againshe [sic]
initialed that.
If you decide to answer questions
now without a lawyer present you will
still have the right to stop answering
them at any time. You also have the
right to stop answering them at any time
until you talk to a lawyer.
He
acknowledged that he understood that
and he initialed it.

156a
Do you understand each of these
rights that we or I have explained to you.
Again, he said yes and initialed it.
Having these rights in mind do
you wish to talk to us and answer these
questions now. His reply was I’m going
to tell you and then I’m going to tell it in
Court. He then initialed that response.
I have read this statement of my
rights. I understand what my rights are.
I’m willing to make a statement and
answer questions. I do not want a
lawyer. I understand and know what I
am doing. No promises or threats have
been made to me. No pressure or
coercion of any kind has been used
against me.
The rights form was executed by
Defendant, Henry McCollum and
witnessed by Agent Snead, Agent Allen
and Detective Sealey.
The Defendant placed his initial
beside each question and his response to
each question indicating he understood
his rights. At no time during this time
did the Defendant request either an
attorney or the presence of a family
member. No threats, promises, pressure
or coercion of any kind was made to or
against the Defendant. The Defendant
never requested water, food, or the use
of facilities that were denied him. At
10:26 the Defendant signed the

157a
statement of his rights form in the
presence of the officers. The Defendant
appeared normal and fully able to
understand all his rights. Agent Snead
then being [sic] questioning the
Defendant concerning Sabrina Buie’s
death. At that point the Defendant
made a voluntary statement to the
officers detailing his involvement in the
rape and murder of Sabrina Buie. This
statement consisted of five pages and
lasted until 1:37 a.m., September 28,
1983, During the period of time from
9:20 p.m. until 1:37 a.m. the Defendant
was asked twice if he was hungry and
responded he was not. The Defendant
went to the bathroom twice. He received
Cokes at 10:25 p.m., 11:15 p.m. and 1:27
a.m. He got water at 12:02 a.m. and
12:25 a.m. He smoked Vantage Menthol
and Salem 100’s cigarettes throughout
the interview which were provided to the
Defendant by the officers. No one
threatened the Defendant in any
manner and the Defendant was very
cooperative. No promises were made to
the Defendant. The Defendant never
asked for the presence of any other
persons and never told the officers he
wished to stop talking with them. The
defendant never asked to leave the
police station or be taken home. The
Defendant sat down during most of the
statement except to go to the bathroom,
obtain water and also when he

158a
demonstrated how the victim, Sabrina
Buie was killed. The Defendant also
helped draw a map, assisted by Agent
Allen, showing where the crimes took
place. After the Defendant made his
statement to the officers, Agent Snead
completely went through the statement
orally talking with the Defendant. Once
that was completed, Agent Snead went
back over the statement reducing it to
writing and then read the statement to
the Defendant. The Defendant was
allowed to initial any corrections. Agent
Snead
gave
the
Defendant
an
opportunity to read the statement and
after that the Defendant signed the
statement on each individual page. At
12:00 September 29th, the Defendant
made a statement to Detective Sealey
stating only the Defendant’s part in the
alleged crimes against Sabrina Buie,
Agent Snead who had taken the earlier
statement was not present. Detective
Sealey had been present when the
Defendant had earlier been advised of
his rights. The Defendant appeared
normal to Detective Sealey, appeared to
understand his rights and was very
cooperative with Detective Sealey.
Detective Sealey never threatened the
Defendant or make any promises to him
to obtain Defendant’s statement. The
Defendant knowingly, voluntarily, and
intelligently made a statement to
Detective
Sealey
indicating
his

159a
involvement in the alleged crimes
against Sabrina Buie. This statement
ended at 2:10 am, September 29,
Considering the nature of the crimes
involved and the seriousness of those
crimes, the length of the interrogations
from 9:20 p.m. September 28 to 2:10
a.m., September 29, was reasonable and
not unduly burdensome or prolonged. All
of the Defendant’s answer [sic] were
reasonable in relation to the questions
asked by the officers.
All the
Defendant’s physical needs were met by
the officers in offering food, water, and
the use of bathroom facilities. The
Defendant never indicated he wanted to
stop talking to officers or wanted the
presence of an attorney even though he
understood those rights. A written
waiver, statements, and map signed by
the Defendant have been introduced into
evidence as State’s Exhibits 1, 2, 3, 4,
and 5. After the Defendant completed
his statement to Detective Sealey, he
started to leave the police station and
told another officer Agent Snead earlier
told the Defendant he was not under
arrest and free to leave. At that time
Agent Snead placed the Defendant
under arrest.
The officer’s [sic]
conversation with the Defendant ended
at 2:10.
On September 29, between 8:00 or
8:30 a.m., Sgt. Larry Floyd of the Red
Springs Police Department was asked to

160a
transport the Defendant to the Robeson
County Jail in Lumberton, He had
known the Defendant prior to
September of 1983 and had talked with
the Defendant a number of times before.
On those occasions, the Defendant
carried on a normal conversation and
had no trouble understanding the officer
and the officer had no trouble
understanding the Defendant. Sgt.
Floyd saw the Defendant when he
arrived at the Red Springs Police
Department with Agent Snead and
Detective Sealey on the night of
September 28, 1983. The Defendant
appeared normal, not upset nor under
the influence of any impairing
substance. The Defendant was familiar
with the English language and
understood it. As the Defendant was
being transported to Lumberton from
Red Springs by Sgt. Floyd, the
Defendant initiated a conversation with
the officer about the death of Sabrina
Buie, Sgt. Floyd did not question the
Defendant concerning Sabrina Buie’s
death.
The statements were made
wholly on the initiative of the Defendant
and not pursuant to any interrogation on
the part of Sgt Floyd. The statements of
the Defendant to Sgt. Floyd were
voluntarily made and not because of
threats, promises, or coercion on the part
of Sgt Floyd. No inducement was made
to the Defendant in any manner.

161a
Upon the foregoing findings, as
found by at least a preponderance of the
evidence, the Court concludes as a
matter of law:
1.
None of the Constitutional
rights, either Federal or State, of
Defendant, were violated by his arrest,
detention, interrogation, or statement;
2.
There were no promises,
offers of reward, or inducements to
Defendant to make a statement;
3.
There was no threat or
suggested violence or show of violence to
persuade or induce Defendant to make a
statement;
4.
The statement made by
Defendant to Agents Kenneth Snead,
Leroy Allen, Detective Kenneth Sealey
and Sgt. Larry Floyd on September 28
and 29, 1983 was made freely,
voluntarily, and understandingly;
5.
The Defendant was in full
understanding of his Constitutional
right to remain silent and right to
counsel, and all other rights; and
6.
He
freely,
knowingly,
intelligently, and voluntarily, waived
each of those rights, and thereupon
made the statement to the officers;
above mentioned.

162a
It is now therefore ordered that
the Defendant’s objection to the
admission of the statement is overruled
and Defendant’s motion to suppress is
denied.
[July 31, 1991 Order]
41.
During his opening statement during
McCollum’s October 1991 retrial, Mr. Fuller, on
McCollum’s behalf, admitted that McCollum was
present for and involved in the murder of Sabrina
Buie. [1991 McCollum retrial, 1330:11-1332:7] Prior
to closing argument, Mr. Fuller advised the trial court
he intended to either invite, or not oppose, a
conviction for second degree murder on behalf of his
client. The trial court questioned McCollum to
confirm his understanding and consent to Mr. Fuller
making such an argument. Mr. McCollum told the
trial court that he understood the implications of such
an argument and consented to his attorney making it
on his behalf. [1991 McCollum trial, 1597:17-1599:8]
During closing argument, Mr. Fuller acknowledged
McCollum’s involvement in the murder, but asked the
jury to return a verdict that McCollum was guilty of
second degree murder.
[1991 McCollum trial,
1602:10-1609:25] Mr. Fuller commented that with
respect to the law enforcement officers (the
defendants in this case) who investigated the Sabrina
Buie murders, “These are good, hard working officers
and I have no criticism of them.” [1991 McCollum
trial, 1602:8-9] The jury returned a guilty verdict of
first degree murder and first degree rape. [1991
McCollum retrial, 1632:23-1634:16]

163a
42.
During the sentencing phase of his retrial, McCollum again offered testimony from his
expert psychology witness, Dr. Faye Sultan. Dr.
Sultan testified that during one her meetings with
McCollum:
Mr. McCollum told me that he was one
among five men – boys who met together
one evening.
He named those
participants as himself, Leon Brown,
Darrell Suber, Chris Brown and Louis.
And that when he met with those guys,
Darrell suggested to the group that they
were going to abduct a young girl named
Sabrina and that they were going to rape
her.
***
He described them walking with Sabrina
to a location and several of those men
raping Sabrina there. He told me that
he refused to rape Sabrina and that
Darrell held him down on top of her but
that he did not penetrate her body.
***
He told me that he was instructed by
Darrell Suber to grab Sabrina’s arm and
to hold her arm. He told me, “I didn’t
mean for them to kill her. I was afraid
of those guys.” He reported to me that
he made an attempt to intervene in the
process that he describes as very
inadequate. He said he grabbed Darrell
Suber’s arm when Suber reached out to

164a
strike Sabrina or to hurt her with a knife
that Mr. McCollum thought he was
holding in his hand, and that Darrell
Suber pushed him back. And that Chris
said to him at that point, “If you try
something, I’ll hurt you.”
Mr. McCollum reported that he
continued to hold onto the arm of
Sabrina because he was afraid that
those guys would hurt him. What he
said it, “I did it to keep those guys from
hurting me. Chris was already mad at
me. I would have saved her if I knew
how to.”
***
And he concluded his story by describing
to me that a stick had been shoved down
her throat with her panties; and
concluded by saying, “I wish I was dead.”
[1991 McCollum trial, 1808:17-1810:10; Sultan dep.
217:1-220:12]
43.
McCollum confirms that Dr. Sultan
never threatened him, raised her voice to him, or ever
caused him any stress or worry. [McCollum dep.,
113:16-24]
44.
McCollum’s convictions and capital
sentence were affirmed by the North Carolina
Supreme Court. State v. McCollum, 334 N.C. 208,
433 S.E.2d 144 (1993). Among other findings, the
North Carolina Supreme Court held that the trial
court correctly concluded that McCollum knowingly

165a
and intelligently waived his constitutional rights and
voluntarily made statements to the officers,
notwithstanding his contention that mental
retardation and emotional disabilities prevented him
from making a knowing and intelligent waiver of his
constitutional rights. Id., 334 N.C. at 236-237. More
specifically, the North Carolina Supreme Court held:
By another assignment of error,
the defendant contends that the trial
court erred in failing to exclude from
evidence the defendant’s statements
made to police officers because they
were obtained in violation of his
constitutional rights. Specifically, the
defendant contends that his mental
retardation and emotional disabilities
prohibited him from making a knowing
and
intelligent
waiver
of
his
constitutional rights. Based upon
evidence introduced during the voir dire
hearing on the admissibility of the
defendant’s statements, the trial court
made findings and concluded that the
defendant knowingly and intelligently
waived his constitutional rights and
voluntarily made the statements in
question. The trial court found from
substantial evidence introduced during
the voir dire that the officers told the
defendant that he could accompany
them to the police station if he wished to
do so. He chose to go with them and he
appeared to have no problems
understanding what the officers talked
about or any instructions given by the

166a
officers. While at the police station, the
officers read each of the defendant’s
constitutional rights to him, and he
indicated that he understood them and
then signed a waiver of rights form.
During the interview, all of the
defendant’s answers were reasonable in
relation to the questions asked by the
officers.
It is well established that mental
retardation is a factor to be considered in
determining the voluntariness of a
confession, but this condition standing
alone does not render an otherwise
voluntary confession inadmissible. E.g.,
State v. Allen, 322 N.C. 176, 367 S.E.2d
626 (1988); State v. Thompson, 287 N.C.
303, 214 S.E.2d 742 (1975). We have also
repeatedly held that the trial court’s
findings of fact following a voir dire
hearing concerning the admissibility of a
confession are conclusive and binding on
the appellate courts when, as here, they
are supported by substantial competent
evidence. State v. Mahaley, 332 N.C.
583, 423 S.E.2d 58 (1992). The
conclusions of law made by the trial
court from such findings, however, are
fully reviewable on appeal. Id. Those
conclusions of law will be sustained on
appeal if they are correct in light of the
findings. Id. In the present case, the trial
court’s findings were amply supported
by substantial evidence presented on
voir dire. Furthermore, the trial court’s

167a
conclusion that the defendant knowingly
and
intelligently
waived
his
constitutional rights and voluntarily
made his statements to the officers was
a correct conclusion of law in light of the
findings. Therefore, we conclude that the
trial court did not err in this regard. This
assignment of error is without merit.
Id., 334 N.C. at 236-237.
45.
McCollum’s writ for petition of certiorari
to the United States Supreme Court was denied.
McCollum v. North Carolina, 512 U.S. 1254, 114 S.Ct.
2784 (1994).
46.
Brown was re-tried in June 1992 in
Bladen County Superior Court. Brown’s attorneys
worked strenuously to exclude his confession. [1992
Brown retrial, 14:22-148:9] Brown’s attorneys crossexamined the State’s witnesses, Joel Garth Locklear1
and SBI Agent Allen and offered the testimony of an
expert witness, clinical psychologist Dr. George S.
Baroff, together with an evaluation report from
psychologist Dr. Franklin Egolf, the same
psychologist who had testified for the Plaintiffs in
their 1984 joint trial, that Brown was not capable of
understanding Miranda warnings or the meaning of
his confession. After hearing this testimony and
lengthy arguments by counsel, the trial court found
that Brown had knowingly, intelligently and
voluntarily waived his Miranda rights, that none of
By 1992, Mr. Locklear had retired from the Robeson County
Sheriff’s Office and was working as an investigator for the
Robeson County Public Defender’s Office. [1992 Brown trial,
29:17-19]

1

168a
his rights were violated, that his statement was not
the product of any coercion, pressure or intimidation,
and that it was voluntarily in all respects and
therefore admissible. [1992 Brown retrial, 116:8148:9; June 9, 1992 Order]
47.
In its June 9, 1992 Order denying
Brown’s motion to suppress, the trial court held as
follows:
This cause coming on to be heard
and being heard before the undersigned
at the June 8, 1992, Special Criminal
Session of Superior Court, Bladen
County, North Carolina; and the
defendant, Leon Brown, being present
and represented by attorneys Adam
Stein, Thomas H. Maher, and E. Knox
Chavis; and the State being represented
by Assistant District Attorney John B.
Carter; and the Court, after hearing
evidence and arguments of counsel upon
the above-named defendant’s motion to
suppress dated March 22, 1992, makes
the
following
findings
of
fact,
conclusions of law, and enters the
following orders:
FINDINGS OF FACT
(1)
That Special Agent Leroy
Allen of the North Carolina State
Bureau of Investigation was directed by
his superior on Monday, September 26,
1983, to assist in the investigation of a
homicide occurring in Red Springs,
North Carolina.

169a
(2)
That on September 29,
1983, Special Agent Allen was
instructed by his supervisor, Frank
Johnson, to advise the defendant, Leon
Brown, of his rights; that Special Agent
Allen had, had no prior contact with the
defendant.
(3)
That Special Agent Allen
entered a room at the Red Springs Police
Department with Chief Haggins and
Special Agent Ken Sneed; that the
defendant was seated near a desk with
his head hanging low; that Special Agent
Allen introduced himself and advised
the defendant that he was not under
arrest; that the defendant was not
frightened or upset and was not under
the influence of alcohol nor drugs; that
the defendant was quiet and did not ask
for anyone; that the defendant in
response to questions by Special Agent
Allen furnished his name, age, sex, race,
date of birth, parent, and number of
years of school, all of which are reflected
on State’s Exhibit No, 1 for voir dire, a
copy of which is attached to this order
and incorporated herein by reference.
(4)
That in respect to rights
designated as Nos. 1, 2, 4,5, 6, 8, and 9,
the defendant responded, “Yes,” in each
separate case that he understood such
rights; that in respect to rights
designated No 3 and No. 7, the
defendant
responded,
“Yes,
sir,”

170a
indicating that he understood those
rights, those rights being reflected on
State’s Exhibit No. 1 for voir dire; that
the defendant acknowledged the
understanding of the rights by printing
his name in the space provided; that the
defendant did not assert at any time that
he did not understand any of the
enumerated rights; that the defendant
had no difficulty in providing the
information reflected at the top of State’s
Exhibit No. 1 for voir dire; that the
defendant has been previously involved
in court proceedings prior to September,
1983, as a result of a previous charge for
breaking and entering and larceny and
was thus familiar with court proceedings
by way of experience.
(5)
That the defendant, Leon
Brown, after being advised of the rights
reflected on State’s Exhibit No 1 for voir
dire, gave a statement to Detective
Garth Locklear; that the defendant
appeared to be nervous, but was sober;
that the defendant did not ask for a
parent or lawyer, although the
defendant’s mother was at the Red
Springs Police Department during the
interview Process of Henry Lee
McCollum and the defendant in the
police department; that the defendant
gave a lengthy and detailed statement
concerning his participation with others
in the alleged rape of Sabrina Buie; that
the defendant gave reasonable and

171a
logical responses to the questions asked
by Detective Locklear; that the
defendant made corrections to the
statement when read very slowly by
Detective Locklear back to the defendant
to acknowledge that he had limitations
on his ability to read and write; that the
defendant also reflected his movement
and the movement of the others on map
drawn by Detective Locklear, that
Detective Locklear was not aware of the
details of a statement given by Henry
Lee McCollum; that the defendant also
made oral statements to Detective
Locklear reflecting detailed participation
in the alleged rape; that a copy of States
Exhibit No. it for voir dire and States
Exhibit No. 3 for voir dire are attached
hereto and incorporated herein by
reference.
(6)
That the defendant has an
I.Q. variously tested between 49 and 65,
but has been generally classified as
suffering from mild mental retardation;
that the defendant’s chronological age at
the time of the interview was 15;
(7)
That State’s Exhibit No.2
for voir dire consists of six handwritten
pages and one supplemental page.
(8)
That
the
defendant’s
maturity scale was measured at 12.6
giving the defendant a higher result
than the intellectual assessment, that

172a
although the defendant has difficulty
understanding abstractions, he is
capable of understanding information on
a concrete level, that the defendant has
a general understanding of the role of
lawyers and police in the criminal justice
system.
CONCLUSIONS OF LAW
Based upon the foregoing findings
of fact, the Court enters the following
conclusions of law;
(1)
That
the
defendant
knowingly, intelligently, and voluntarily
waived each of the rights reflected on
States Exhibit No.1 for voir dire and the
waiver reflected thereon,
(2)
That
none
of
the
defendant’s rights under the North
Carolina
Constitution,
U.S.
Constitution, nor the North Carolina
General Statutes have been violated.
(3)
That the statement made
by the defendant was not the product of
any coercion, pressure, or intimidation.
(4)
That
the
defendant’s
statement was voluntary in all respects.
ORDER
Based upon the foregoing findings
of fact and conclusions of law, the Court
enters the following order:

173a
(1)
That
the
defendant’s
motion to suppress dated March 22,
1992, be and is hereby denied.
(June 9, 1992 Order in Brown’s retrial)
48.
After the court granted a defense motion
to dismiss the first degree murder charge, finding
that Brown had withdrawn from a conspiracy to
commit murder, [1992 Brown trial, 288:13-20], a
Bladen County jury found Brown guilty of first degree
rape and sentenced to him to life in prison. [1992
Brown retrial, 310:15-23]
49.
Brown’s conviction and sentence were
affirmed on appeal. The North Carolina Court of
Appeals held that the trial court’s findings of fact,
which Brown did not dispute, supported its
conclusions that Brown had knowingly, intelligently
and voluntarily waived his Miranda rights, that none
of his rights were violated, that his statement was not
the product of any coercion, pressure or intimidation,
and was voluntary in all respects. State v. Brown, 112
N.C.App. 390, 394-398, 436 S.E.2d 163, 164-168
(1993). Specifically, the North Carolina Court of
Appeals held:
A defendant may waive his
Miranda rights, but the State bears the
burden of proving that the defendant
made a knowing and intelligent waiver.
State v. Simpson, 314 N.C. 359, 334
S.E.2d 53 (1985); Miranda v. Arizona,
384 U.S. 436, 444, 16 L.Ed.2d 694, 707,
reh’g denied, 385 U.S. 890, 87 S.Ct. 11,
17 L.Ed.2d 121 (1966). Whether a waiver
is knowingly and intelligently made

174a
depends on the specific facts of each
case,
including
the
defendant’s
background, experience, and conduct. Id.
314 N.C. at 367, 334 S.E.2d at 59;
Edwards v. Arizona, 451 U.S. 477, 101
S.Ct. 1880, 68 L.Ed.2d 378, reh’g denied,
452 U.S. 973, 101 S.Ct. 3128, 69 L.Ed.2d
984 (1981). Although the trial court found
that defendant was mildly retarded, “a
subnormal mental condition standing
alone will not render an otherwise
voluntary confession inadmissible.”
State v. Massey, 316 N.C. 558, 575, 342
S.E.2d 811, 821 (1986) (quoting from
State v. Stokes, 308 N.C. 634, 647, 304
S.E.2d 184, 192 (1983)). We look at the
totality of the circumstances, and in the
case of mentally retarded defendants,
we pay particular attention to the
defendant’s personal characteristics and
the details of the interrogation. State v.
Fincher, 309 N.C. 1, 19, 305 S.E.2d 685,
697 (1983); State v. Spence, 36 N.C.App.
627, 629, 244 S.E.2d 442, 443, disc. rev.
denied, 295 N.C. 556, 248 S.E.2d 734
(1978).
We note at the outset that the
trial court’s findings of fact are
conclusive on appeal when they are
supported by competent evidence in the
record. State v. Massey, 316 N.C. 558,
575, 342 S.E.2d 811, 820 (1986).
However, since defendant does not
dispute the trial court’s findings of fact,
our task is to determine whether the

175a
trial court’s legal conclusions
supported by its findings.

are

The trial court found that as
Special Agent Allen read defendant his
rights from the waiver form, defendant
indicated that he understood each of
those rights by writing “Yes” or “Yes sir”
beside each rights paragraph on the
form. Defendant never indicated to
Special Agent Allen that he did not
understand any of his rights, and he
gave reasonable and logical answers to
Detective Locklear’s questions. The trial
court found that although defendant had
difficulty understanding abstractions,
he could understand information on a
concrete level. The trial court also found
that defendant had previously been
involved in court proceedings and that
he had a general understanding of the
role of lawyers and police in the criminal
justice system. Prior experience with the
criminal justice system is an important
factor in determining whether the
defendant made a knowing and
intelligent waiver. State v. Fincher, 309
N.C. 1, 305 S.E.2d 685 (1983); see also
State v. Jackson, 308 N.C. 549, 304
S.E.2d 134 (1983). In State v. Fincher,
309 N.C. 1, 305 S.E.2d 685 (1983), the
North Carolina Supreme Court held that
the confession of a mentally retarded
defendant was admissible despite expert
testimony that he could not read and
understand the waiver form. The court

176a
held that the trial court’s findings of fact
were sufficient to support its conclusion
that the defendant made a valid waiver.
In Fincher, the trial court found that
each time the defendant was read his
rights, “he unhesitatingly responded
that he understood them.” Id. at 20, 305
S.E.2d at 697. The Fincher court also
found that the defendant’s answers to
the officer’s questions were responsive
and reasonable, and that no threats or
inducements were made to the
defendant. The Fincher trial court also
found that the defendant had prior
experience with the criminal justice
system. Accordingly, we hold that under
Fincher, the trial court’s findings of fact
adequately support its conclusion that
defendant voluntarily, knowingly, and
intelligently waived his Miranda rights.
112 N.C.App. 390, 394-398, 436 S.E.2d 163, 164-168.
50.
The North Carolina Supreme Court
affirmed, per curiam. State v. Brown, 339 N.C. 606,
453 S.E.2d 165 (1995).
51.
In 2009, Leon Brown sought assistance
from the North Carolina Innocence Commission
(NCIIC). The NCIIC agreed to accept Brown’s case
and began its investigation, which included DNA
testing of various pieces of physical evidence found at
the scene of the crime, testing that was not possible
in 1983 or 1992. [Stellato dep., 39:18-40:17, 117:25118:8]

177a
52.
During the course of its investigation,
the NCIIC discovered numerous additional
confessions that McCollum had made regarding his
involvement in the rape and murder of Sabrina Buie.
53. During a July 19, 2010 telephone
conversation with Geraldine Ransom, Brown’s sister
and McCollum’s half-sister, Ms. Ransom told NCIIC
Assistant Director Sharon Stellato that McCollum
had written her a letter in which he related that
James Shaw and a man named Curtis or Kurt had
picked McCollum up in a car on the night of the
murder. In a memorandum created by the NCIIC in
the normal course of business, Ms. Ransom related
that McCollum told her that “They drive down the dirt
road behind the store and Shaw pulled out a gun and
told Henry ‘Buddy’ McCollum to shut up, that they
were going to kill Sabrina. Henry McCollum said they
made him help hold Sabrina down.” [Stellato dep.,
42:8-49:15, 51:8-53:16, Ex. 21]
54.
In a recorded follow-up telephone
conversation with Ms. Ransom on August 20, 2010,
documented in a memorandum created by the NCIIC
in the normal course of its business, Ms. Ransom
advised Stellato that she could not find any of
McCollum’s letters, but reiterated that she was
“very confident” that McCollum had confessed his
involvement in Sabrina’s murder. Ransom even
offered to elicit another letter from McCollum
admitting his involvement in the murder. Stellato
advised against this course of action. [Stellato dep.,
54:3-56:4, Ex. 22]
55.
On February 16, 2011, Stellato spoke
with the Plaintiffs’ mother, Mamie Brown, via

178a
telephone in a recorded conversation that was
documented in a memorandum created by the NCIIC
in the normal course of business. Ms. Brown advised
Ms. Stellato that “Henry told her that night that
James Shaw caught him and made him ride with
them and made him hold victim’s hand while they
raped her. Henry was afraid not to do it or he would
be killed.” [Stellato dep., 57:20-64:10, Ex. 23] Ms.
Brown advised that she believed that McCollum had
implicated his brother Leon because he had always
been jealous of him. [Stellato dep., 64:11-65:4, Ex. 23]
56.
During an interview with Plaintiff Leon
Brown on August 4, 2010, documented in the normal
course of NCIIC business, Brown told Ms. Stellato
that during a prison visit with his brother Henry
McCollum, McCollum told Brown that he [McCollum]
was present during the murder of Sabrina Buie, but
had only held her down. [Stellato dep., 74:1-78:5, Ex.
25]
57.
During a subsequent interview with
Brown on July 21, 2014, which was recorded and
transcribed and included in the NCIIC’s case file,
Brown told Ms. Stellato that McCollum had related to
him during a prison visit McCollum had held
Sabrina’s arm down while she was murdered. “He
said he just held her arm down.” [Stellato dep., 66:568:4, Ex. 24, 17:5-8] “He told me he just held her
down, he didn’t do nothing.” [Stellato dep., 69:2370:3, Ex. 24, 18:8-10; Brown dep., 84:11-25] “He, he
said that he held her down and one put her panties
on a stick – inaudible – down her throat.” [Stellato
dep., 72:21-73:24, Ex. 24, 21:8-12] Brown also
acknowledged that McCollum had implicated him,
stating “He told the people that I was involved in

179a
something like that.” [Stellato dep., Ex. 24, 21:6;
Brown dep., 86:7-87:15] Brown confirmed in his
deposition that he had told Ms. Stellato the truth.
[Brown dep., 75:14-17; 106:18-107:3]
58.
During
Plaintiff
Brown’s
2016
deposition, he confirmed that his brother, Henry
McCollum, had admitted to him that he was present
during the murder of Sabrina Buie.
A:
I don’t – I don’t – I don’t
recall him telling me that, though. But
he – he – he said – he said he was there.
Q:
A:
though –

He said he was there?
Yeah, he said he was there,

Q:

– Okay.

A:

– But he ain’t do nothing.

Q:

What did he say he saw?

A:
He didn’t recall. He just
said – he told me he was there.
Q:

He was there, where?

A:
At – at – at the night of the
crime. He was there.
(Brown dep., 84:13-25)
59.
The NCIIC caused DNA testing to be
conducted on several items of physical evidence found
at the crime scene. DNA on a cigarette butt found
near a path that ran along the edge of the soybean

180a
field was determined to match Roscoe Artis. [Stellato
dep., 118:7] This path was used as a short cut
between a convenience store where cigarettes were
sold and a nearby neighborhood which included a
residence wherein Roscoe Artis lived with his sister.
[Stellato dep., 120:4-5; Sampson, 80:17-81:1]
60.
The DNA match on the cigarette butt
does not provide any information regarding when
Roscoe Artis may have smoked the cigarette, what
was happening while he did so, when the cigarette
was deposited at the scene (other than sometime
before September 26, 1983), or otherwise link Artis to
the rape and murder of Sabrina Buie. [Stellato dep.,
118:19-119:24; Sampson, dep. 80:17-81:1; Sealey dep.
II, 69:22-70:12]
61.
Other than to Miss Buie in some
instances, DNA testing of the other items of physical
evidence did not result in a match to any known
individuals, to include Plaintiffs or Roscoe Artis.
[Stellato dep., 130:14-133:19; Ex 27, 57:23-69:4]
62.
The NCIIC advised the attorneys
representing the Plaintiffs (not the counsel
representing Plaintiffs in this civil matter), as well as
the Robeson County District Attorney, regarding the
DNA match to Roscoe Artis on the cigarette butt.
However, the NCIIC did not advise the District
Attorney
regarding
McCollum’s
additional
confessions that it had had uncovered. [Stellato dep.,
232:20-234:10]
63.
Counsel for the plaintiffs (again, not the
counsel representing Plaintiffs in this civil matter)
subpoenaed Ms. Stellato was to testify at a hearing on
a Motion for Appropriate Relief (MAR) held in

181a
Robeson County Superior Court on September 2,
2014. [Stellato dep., 92:11-17]
64.
Ms. Stellato testified at the MAR
hearing regarding the DNA match to Roscoe Artis on
the cigarette butt. Notwithstanding the NCIIC’s
charter as a neutral fact finding agency [Stellato dep.,
14:18-20, 16:18-20], Stellato also testified regarding
her subjective perceptions of inconsistencies within
the Plaintiffs’ confessions and her theories regarding
Roscoe Artis’ potential involvement in the murder of
Sabrina Buie. [Stellato dep., 103:5-116:23] However,
she remained silent regarding the additional
confessions by McCollum to his brother, sister and
mother that she had uncovered, even in response to
the question: “Is there any evidence that has been
developed during the course of the [NCIIC]
investigation that linked Mr. McCollum and Mr.
Brown to the rape and murder of Sabrina Buie?”
[Stellato dep., 134:11-140:7, 148:21-152:10, 154:9;
transcript of the September 2, 2014 MAR hearing,
115:20-24]
65.
None of the law enforcement officers
involved in the investigation of the murder of Sabrina
Buie were ever interviewed by the NCIIC. [Stellato,
dep., 146:22-148:20; Snead dep., 99:21-100:10,
156:17-24; Sealey dep. II, 72:17-73:12; Sampson dep.,
79:7-79:19]
66.
Ms. Stellato was the only witness called
to testify at the MAR hearing. [Transcript of the
September 2, 2014 MAR hearing] None of the law
enforcement officers involved in the investigation of
the murder of Sabrina Buie were notified of the MAR
hearing or asked to testify in it. [Stellato, dep.,

182a
146:22-148:20; Snead dep., 99:21-100:10, 156:17-24;
Sealey dep., 72:17-73:12; Sampson dep., 79:7-79:19]
However, Sheriff Sealey did attend portions of the
hearing. [Sealey dep., 72:17-73:12]
67.
The Motion for Appropriate Relief was
based solely on the cigarette butt. [Stellato dep.,
135:23-25; Transcript of the September 2, 2014 MAR]
Based solely upon the DNA match on the cigarette
butt to Roscoe Artis and a lack of opposition from the
District Attorney,2 Superior Court Judge Douglas B.
Sasser entered an Order vacating the Plaintiffs’
convictions and ordered their immediate discharge
from prison. [September 2, 2014 Order for Relief]
68.
The September 2, 2014 Order for
Relief does not determine or state that the Plaintiffs’
arrests were not based upon probable cause, does
not impeach the constitutionality of Plaintiffs’
confessions, and does not impugn the conduct of law
enforcement officers, including defendants Sealey and
Locklear, in any way. The Order does not find that
the Plaintiffs’ rights were violated in any manner
[September 2, 2014 Order for Relief]
69.
After the September 2, 2014, MAR
hearing, the NCIIC terminated its investigation,
which was largely unfinished. [Stellato dep., 235:5235:25]
70.
On June 5, 2015, Governor Pat McCrory
issued Pardons of Innocence to the Plaintiffs. The
It would seem doubtful that the District Attorney would have
joined the motion for appropriate relief had he been apprised of
all of the results of the North Carolina Innocence Inquiry
Commission’s investigation, such as McCollum’s ongoing
confessions of his involvement in the crime.
2

183a
Pardons of Innocence in no way impeach the
constitutionality of the Plaintiffs’ confessions, suggest
improper conduct on the part of law enforcement
officers, or establish that the Plaintiffs’ rights were
violated in any manner. [June 5, 2015 Pardons of
Innocence]
71.
Roscoe Artis has not been charged in the
murder of Sabrina Buie. [Luther Johnson Britt, III
Aff., ¶ 10]
72.
During the investigation of the murder
of Sabrina Buie 1983 and the Plaintiffs’ criminal
trials in 1984, 1991 and 1992, it was the policy of the
Robeson County Sheriff’s Office that all deputies and
Sheriff’s Office personnel would at all times comply
with and follow the Constitution of the United States
Constitution and the North Carolina Constitution,
and would comply with all state and federal laws and
regulations in effect at that time, to include authority
relating to the questioning of criminal suspects and
the disclosure of exculpatory evidence. It would have
been contrary to the policies and practices of the
Sheriff of Robeson County for a deputy to have
violated the United States Constitution, the North
Carolina Constitution, or the laws and regulations of
the United States or the State of North Carolina.
[Sealey, Aff., ¶ 7] That policy remains the case today.
[Sealey, Aff., ¶ 5]
73.
During its more than four year
investigation, the NCIIC found no evidence of any
coercion, improper conduct or wrongdoing on the part
of any law enforcement officers involved in the
Plaintiffs’ cases, to include the withholding of any
evidence or information by any member of Robeson

184a
County Sheriff’s Office, including defendants Sealey
and Locklear. [Stellato dep., 185:18-186:10; 277:1416; 286:15-286:20]
74.
The current Robeson County District
Attorney cannot account for what was and was not
contained in the District Attorney’s files at the time
of the plaintiffs’ criminal trials. [Luther Johnson
Britt, III Aff., ¶ 9] As determined by the NCIIC, after
more than twenty years following the plaintiffs’ trials,
the Robeson County District Attorney’s files
regarding these matters no longer existed to a large
extent. [NCIIC Journal; 113, 116] As set forth in the
NCIIC’s activity journal, November 19, 2011, District
Attorney Johnson Britt reported to Ms. Stellato that
he “has not been able to ‘put his hands on any matters
related to Leon Brown’ – he has ‘just a few matters
related to the codefendant McCollum’ and if we need
that, he will copy. He has been in touch with his
predecessor and the ADA that tried the Brown case
and none of them know where the file could be.”
[NCIIC Journal; 113]
Mr. Britt subsequently
reported on February 15, 2011 that he had found
“part” of the file. [NCIIC Journal; 110]
75.
After
obtaining
and
reviewing
documents and information from many sources,
including information compiled by the North Carolina
Actual Innocence Commission, the Robeson County
District Attorney cannot say that any of the
defendants withheld information from the Robeson
County District Attorney’s office of failed to produce
any information to it. [Luther Johnson Britt, III Aff.,
¶ 9]

185a
Respectfully submitted, this 3rd day of April,
2017.
/s/ BRADLEY O. WOOD
James R. Morgan, Jr.
N.C. State Bar No.: 12496
Bradley O. Wood
N.C. State Bar No.: 22392
WOMBLE CARLYLE SANDRIDGE & RICE,
A Limited Liability Partnership
One West Fourth Street
Winston-Salem, NC 27101
Telephone: (336) 721-3600
Facsimile: (336) 721-3660
E-mail: jmorgan@wcsr.com
E-mail: bwood@wcsr.com
Counsel for Defendants Kenneth Sealey and
Robert E. Price, Administrator C.T.A. of the
Estate of Joel Garth Locklear, Sr.
CERTIFICATE OF SERVICE
On April 3, 2017, the undersigned
electronically filed the foregoing STATEMENT OF
UNDISPUTED MATERIAL FACTS PURSUANT
TO LOCAL CIVIL RULE 56.1 OF DEFENDANTS
KENNETH SEALEY AND ROBERT E. PRICE,
AS ADMINISTRATOR C.T.A. OF THE ESTATE
OF JOEL GARTH LOCKLEAR, SR. with the Clerk
of Court using CM/ECF system, which will send
notification of such filing to the following:
Jaime T. Halscott
Patrick M. Megaro
Halscott Megaro, P.A.
33 East Robinson Street
Suite 220

186a
Orlando, FL 32801
Email: jhalscott@halscottmegaro.com
Email: pmegaro@appealslawgroup.com
Scott Brettschneider
118-35 Queens Boulevard, Suite 400
Forest Hills, NY 11375
Email: scottfreelaw@aol.com
Counsel for Plaintiffs
Garris Neil Yarborough
Timothy C. Smith, Jr.
Yarborough Winters & Neville, P.A.
P. O. Box 705
Fayetteville, NC 28302-0705
Email: gnyesq@ywnlaw.com
Email: timsmith@ywnlaw.com
John Stewart Butler , III
Anderson, Johnson, Lawrence & Butler, LLP
P. O. Box 53945
Fayetteville, NC 28305-3945
jsbutler@andersonjohnson.com
Counsel for Defendants Town of Red Springs, Larry
Floyd, and Paul Canady, Administrator of the Estate
of Luther Haggins
Hal F. Askins
Special Deputy Attorney General
J. Joy Strickland
Assistant Attorney General
N.C. Department of Justice
P. O. Box 629
Raleigh, NC 27602-0629
Email: haskins@ncdoj.com
Email: jstrickland@ncdoj.com

187a
Counsel for Defendants Kenneth Snead and Leroy
Allen
Dan M. Hartzog
Dan M. Hartzog, Jr.
Katherine M. Barber-Jones
Cranfill Sumner & Hartzog, LLP
Post Office Box 2708
Raleigh, NC 27611
Email: dmh@cshlaw.com
Email: dhartzogjr@cshlaw.com
Email: kbarber-jones@cshlaw.com
Counsel for Defendant Town of Red Springs
/s/ BRADLEY O. WOOD
Bradley O. Wood
N.C. State Bar No.: 22392
WOMBLE CARLYLE SANDRIDGE & RICE,
A Limited Liability Partnership
One West Fourth Street
Winston-Salem, NC 27101
Telephone: (336) 728-7012
Facsimile: (336) 726-6913
E-mail: bwood@wcsr.com
Counsel for Defendants Kenneth Sealey, and
Robert E. Price, Administrator C.T.A. of the
Estate of Joel Garth Locklear, Sr.

188a
[ENTERED: May 5, 2017]
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
NORTH CAROLINA WESTERN DIVISION
Case No. 5:15-cv-00451-BO
HENRY LEE MCCOLLUM ) REPLY BRIEF IN
SUPPORT OF
and J. DUANE GILLIAM, )
MOTION FOR
as Guardian of the Estate )
SUMMARY
of LEON BROWN,
)
JUDGMENT (ON
)
BEHALF OF
Plaintiffs,
)
DEFENDANTS
)
v.
) KENNETH SEALEY
AND ROBERT E.
)
PRICE, AS
TOWN OF RED
)
SPRINGS, et al.,
) ADMINISTRATOR
)
C.T.A. OF THE
Defendants.
) ESTATE OF JOEL
) GARTH LOCKLEAR)
Many of the arguments made by plaintiffs in
Plaintiffs’ Response to Defendants Sealey and
Locklear’s Motion for Summary Judgment (D.E. 185)
(hereafter “plaintiffs’ response”) are the same
arguments made by plaintiffs in their summary
judgment motion/brief. (D.E. 127). Therefore, the
defendants incorporate by reference “Defendants
Sealey and Locklear’s Response in Opposition to
‘Plaintiffs’ Motion for Summary Judgment as to
Plaintiffs’ Claims and Summary Judgment as to
Defendants’ Affirmative Defenses with Incorporated
Memorandum of Law.’” (D.E. 177) (hereafter
“defendants’ response”), and further incorporate by

189a
reference Sealey and Locklear’s response to plaintiffs’
motion for sanctions. (D.E. 153).
I. PLAINTIFFS’ FIRST AND THIRD CAUSES
OF ACTION, FOR “FALSE ARREST” AND
“MALICIOUS PROSECUTION” UNDER
SECTION 1983, FAIL AS A MATTER OF
LAW BECAUSE PROBABLE CAUSE
EXISTED
As plaintiffs concede, if probable cause existed,
plaintiffs’ Section 1983 claims for “false arrest” and
“malicious prosecution” fail as a matter of law.
(Plaintiffs’ response, pp. 8, 13).
A. This Court Must Apply the North
Carolina Law of Collateral Estoppel
At pages 13-14 of defendants’ summary
judgment brief, defendants demonstrate that this
Court is obligated to apply the North Carolina law of
collateral estoppel to determine whether collateral
estoppel bars plaintiffs from relitigating any issues in
this case. Plaintiffs have cited no contrary authority.
See, e.g., Feldman v. Law Enforcement Associates,
Inc., 955 F. Supp. 2d 528, 536 (E.D.N.C. 2013) aff’d,
752 F.3d 339 (4th Cir. 2014) (“[W]hen a party does not
address arguments made by a movant, the Court may
treat those arguments as conceded.”).
B. Under the North Carolina Law of
Collateral Estoppel, the Plaintiffs’
Convictions Conclusively Establish the
Existence of Probable Cause, and,
Moreover, the State Judges’ Rulings on
Plaintiffs’
Motions
to
Suppress
Establish that Plaintiffs Voluntarily

190a
Came to the Police Station, Voluntarily
Waived Any Miranda Rights, and that
Their Confessions Were Voluntary
A large portion of plaintiffs’ response is devoted
to an attempt to relitigate whether plaintiffs
voluntarily came to the police station, voluntarily
spoke with officers, and voluntarily confessed.
(Plaintiffs’ response, pp. 1, 5-17, 21-22; pars. 8-9, 1655, 64-69). However, as shown in defendants’
summary judgment brief at pages 13-20 and
defendants’ response at pages 3-14, under North
Carolina
collateral
estoppel
law,
plaintiffs’
convictions conclusively establish the existence of
probable cause, and, moreover, the state judges’
rulings on plaintiffs’ motions to suppress establish
that plaintiffs voluntarily came to the police station
and spoke to officers, voluntarily waived any Miranda
rights, and that their confessions were voluntary.
At pages 14-20 of their summary judgment
brief, defendants Sealey and Locklear cite
longstanding, well established North Carolina case
authority demonstrating that issues litigated and
decided in a criminal case are entitled to collateral
estoppel effect in a later civil case in situations where
the elements of collateral estoppel are satisfied, even
if the judgment is later reversed, vacated, or set aside.
Plaintiffs do not contest defendants’ recitations or
interpretations of these cases, and do not argue that
defendants misstate the holdings of these cases.
Therefore, this Court should treat defendants’
statements of the interpretations and holdings of
these cases as being conceded by plaintiffs. See
Feldman, supra. Instead, plaintiffs assert, without
analysis, that the cases cited by defendants at pages

191a
14-20 of their summary judgment brief are
“inapposite.” (Plaintiffs’ response, p. 18). In fact, the
authority cited by defendants is directly relevant and
on point, and shows that under the North Carolina
law of collateral estoppel, the plaintiffs’ convictions
establish the existence of probable cause, and,
moreover, the state judges’ rulings on plaintiffs’
motions to suppress establish that plaintiffs
voluntarily came to the police station, voluntarily
spoke with officers, voluntarily waived any Miranda
rights, and voluntarily confessed.
C. The Arguments Made at Pages 6-8 of
Plaintiffs’ Response are Fatally Flawed
At page 6 of their response, plaintiffs are
apparently arguing that under United States
Supreme Court precedent, a judgment that has been
“vacated, set aside, or otherwise invalidated may not
be used for…collateral estoppel purposes.” However,
as shown below, the cases cited by plaintiffs do not
support plaintiffs’ argument on this point.
The plaintiffs cite Justice Stevens’ concurrence
in Matsushita Electrical Industrial Co., Ltd. v.
Epstein, 516 U.S. 367, 395 (1996), quoting Kremer v.
Chemical Construction Corp., 456 U.S. 461, 482
(1983) for the proposition that a “constitutionally
infirm judgment” is not entitled to preclusive effect.
(Plaintiffs’ response, p. 6). It is true that the Supreme
Court has held that a “constitutionally infirm
judgment” is not entitled to preclusive effect, Kremer,
supra.; however, this holding has no application to
this case. The transcripts of the plaintiffs’ criminal
proceedings show that the proceedings comported
with the requirements of the Constitution, including

192a
Due Process requirements. [D.E. 140-1, 141-1, 141-2,
142-1, 142-2, 142-3, 142-4, 143-1, 143-2, 144-1, 144-2,
147-2, 161-31, 145-1, 145-2, 146-1, 166-3]. The first
conviction was overturned due to a jury instruction
error, and the last two convictions were specifically
held on appeal to be constitutional. See State v.
McCollum, 334 N.C. 208, 433 S.E.2d 144 (1993), cert.
den., 512 U.S. 1254, 114 S.Ct. 2784 (1994); State v.
Brown, 112 N.C. App. 390, 436 S.E.2d 163 (1993),
aff’d per curiam, 339 N.C. 606, 453 S.E.2d 165 (1995).
Moreover, the state court’s September 2, 2014 Order
did not find that the plaintiffs’ constitutional rights
had been infringed. Instead, the Order was granted
solely under N.C. Gen. Stat. § 15A-270(c), which
authorizes a court to enter an appropriate order “[i]f
the results of DNA testing…are favorable to the
defendant….” [D.E. 155-7,161-25]. Thus, the
plaintiffs’ suggestion that plaintiffs’ convictions were
“constitutionally infirm” is without merit.
Similarly, plaintiffs’ reliance on Heck v.
Humphrey, 512 U.S. 477, 486 (1994) (See plaintiffs’
response, pp. 6-7) is completely misplaced. The Heck
decision held that a Section 1983 claim for damages
attributable to an alleged unconstitutional conviction
“does not accrue until the conviction or sentence has
been invalidated.” Id. at 489-90. The Heck decision
does not deal with collateral estoppel issues.
Accordingly, plaintiffs’ reliance upon Heck is
misplaced.
The plaintiffs’ reliance upon Thomas M.
McInnis & Associates, Inc. v. Hall, 318 N.C. 421, 349
S.E.2d 552 (1986) is also misplaced. It is true that the
court in McInnis adopted the position of the
Restatement (Second) of Judgments regarding

193a
mutuality, holding that mutuality of parties is not
required where defendants assert collateral estoppel
defensively. Id., 318 N.C. at 433-34, 349 S.E.2d at
559-60. However, North Carolina cases decided after
McInnis show that issues decided in criminal trials
are entitled to collateral estoppel effect even in the
situation where the judgment is later reversed or
vacated. See, e.g., Burton v. City of Durham, 118 N.C.
App. 676, 680 and 682-3, 457 S.E.2d 239, 331-333,
disc. rev. den. and cert. den., 341 N.C. 419, 461 S.E.
2d 756 (1995) (citing McInnis case, and holding that
plaintiffs’ convictions established probable cause even
though the convictions were later dismissed). Thus,
the plaintiffs’ reliance upon McInnis is misplaced.
The plaintiffs also cite the case of Stokely v.
Stokely, 30 N.C. App. 351, 354, 227 S.E.2d 131, 134
(N.C. App. 1976). Stokely is irrelevant to the instant
case, because it deals with a collateral attack in
equity upon a divorce judgment. However, even if the
Stokely decision has some relevance, it helps the
defendants, not the plaintiffs. The Court in Stokely
stated:
The final judgment of a court…can be
attacked…only if the alleged fraud is
extrinsic rather than intrinsic. Fraud is
extrinsic when it deprives the
unsuccessful party of an opportunity to
present his case to the court. If an
unsuccessful party…has been prevented
from fully participating therein there
has been no true adversary proceeding,
and the judgment is open to attack at
any time. A party who has been given
proper notice of an action, however, and

194a
who has not been prevented from full
participation, has had an opportunity to
present his case to the court and to
protect himself from any fraud
attempted by his adversary. Fraud
perpetrated under such circumstances is
intrinsic….It must be a fraud extrinsic
or collateral to the questions examined
and determined in the action. And we
think it is settled beyond controversy
that a decree will not be vacated merely
because it was obtained by forged
documents or perjured testimony. The
reason of this rule is that there must be
an end of litigation;…when he has a trial
he must be prepared to meet and expose
perjury then and there.
30 N.C. App at 354-5, 227 S.E.2d at 134. In the instant
case, plaintiffs’ arguments regarding probable cause,
particularly the confessions, are to the effect that the
State presented false testimony and/or evidence at
the plaintiffs’ criminal trials. Even if Stokely is
somehow relevant in this case, the rule articulated in
Stokely would defeat plaintiffs’ arguments: Plaintiffs
had a full and fair opportunity to litigate all the issues
at their criminal trials, and the alleged “fraud” was
intrinsic, not extrinsic. Thus, even if Stokely were
somehow relevant to this case – and it is not – the
Stokely decision would defeat plaintiffs’ arguments.
Plaintiffs also suggest, at page 8, paragraph 25
of their response, that this Court’s ruling on Snead
and Allen’s motion to dismiss under Rule 12(b)(6)
[D.E. 83] somehow forecloses defendants Sealey and
Locklear from relying upon the doctrine of collateral

195a
estoppel at the Rule 56 stage. However, this argument
is fatally flawed. See defendants’ response to
plaintiffs’ summary judgment motion/brief at pages
13-14, which is incorporated by reference.
D. McCollum’s Attorney’s Statements in
Opening and Closing Arguments at
McCollum’s 1991 Trial (that McCollum
Was Present for and Involved in Buie’s
Rape and Murder) Are Judicial
Admissions
Sealey and Locklear have cited authority
demonstrating that McCollum’s attorney’s statements
at McCollum’s 1991 trial (that McCollum was present
for and involved in Buie’s rape and murder) are
judicial admissions, and that McCollum is therefore
judicially estopped from taking a contrary position.
(See defendants’ summary judgment brief, p. 20 and
defendants’ response, pp. 15-16). In their summary
judgment response, plaintiffs do not address this
argument. Thus, plaintiffs should be deemed to have
conceded this argument. See Feldman, supra.
II. DEFENDANTS SEALEY AND LOCKLEAR
ARE
ENTITLED
TO
SUMMARY
JUDGMENT
AS
TO
PLAINTIFFS’
SECOND CAUSE OF ACTION FOR
“DEPRIVATION OF DUE PROCESS”
The plaintiffs’ arguments at pages 17-24 (pars.
56-71) of their response are almost identical to the
arguments contained in their summary judgment
motion/brief at pages 7-11 (pars. 22-32). Therefore,
Sealey and Locklear incorporate by reference their
response
to
plaintiffs’
summary
judgment
motion/brief at pages 17-27, which shows that

196a
defendants Sealey and Locklear are entitled to
summary judgment as to plaintiffs’ Second Cause of
Action.
Defendants would also point out that the
plaintiffs have come forward with no evidence to
support their false assertions that defendants
subjectively knew that Artis was the actual murderer;
that defendants “sanitized their files” to exclude
mention of Artis; that defendants concealed
unspecified exculpatory evidence; and that
defendants persuaded Sinclair and perhaps Floyd to
falsely testify. (Plaintiffs’ response, pp. 3, 4, 15, 17-20,
23; pars. 8, 11, 49, 56-59, 61, 69). Simply repeating
false statements over and over in multiple filings, as
plaintiffs have done, does not amount to evidence.
Plaintiffs’ speculation is not sufficient to defeat
defendants’ motion for summary judgment. See
Lovelace v. Sherwin-Williams Co., 681 F.2d 230, 242
(4th Cir. 1982). Plaintiff “cannot create a genuine
issue of fact through mere speculation or the building
of one inference upon another.” Harleysville Mutual
Ins. Co. v. Packer, 60 F.3d 1116, 1120 (4th Cir. 1995).1
Also, as shown in defendants’ summary
judgment brief at page 25, officers are absolutely
immune under Section 1983 for their testimony at
judicial proceedings. Plaintiffs have made no contrary
Also, contrary to plaintiffs’ suggestion (Plaintiffs’ response, pp.
20-21), there is no evidence of a “common plan or scheme” by
defendants to violate plaintiffs’ constitutional rights. The
deposition testimony of Lee Sampson, cited by plaintiffs as
evidence on this point, simply shows that officers helped the
District Attorney prepare for trials. (D.E. 161-33, pp. 30-31).
Plaintiffs’ citation of this testimony as evidence of a “scheme” to
violate constitutional rights is absurd.

1

197a
argument, and have therefore conceded this point.
See Feldman, supra.
As noted in defendants’ response to plaintiffs’
summary judgment motion/brief at pages 17-18, fn. 2,
the Ninth Circuit and Fifth Circuit cases relied upon
by plaintiffs – Deveraux v. Abbey, 263 F. 3d 1070 (9th
Cir. 2001) and Cole v. Carson, 802 F. 3d 752 (5th Cir.
2015), vacated and remanded, 137 S.Ct. 497 (2016) –
do not properly articulate the Fourth Circuit’s
standards for Due Process claims. However, even if
these standards are applied, defendants Sealey and
Locklear are nevertheless entitled to summary
judgment as to plaintiffs’ Due Process claims.
III. PLAINTIFFS’ CLAIMS AGAINST SEALEY
AND LOCKLEAR IN THEIR INDIVIDUAL
CAPACITIES FAIL AS A MATTER OF
LAW BECAUSE SEALEY AND LOCKLEAR
ARE
ENTITLED
TO
QUALIFIED
IMMUNITY
As shown in defendants’ summary judgment
brief at pages 25-28, the defendants Sealey and
Locklear are entitled to qualified immunity as to all
claims. Defendants Sealey and Locklear incorporate
by reference their response to plaintiffs’ summary
judgment motion/brief at pages 27-29.
IV. DEFENDANTS SEALEY AND LOCKLEAR
IN THEIR OFFICIAL CAPACITY ARE
ENTITLED TO SUMMARY JUDGMENT
AS TO PLAINTIFFS’ FOURTH CAUSE OF
ACTION FOR “MUNICIPAL LIABILITY”
In cases like this, where the summary judgment
issues are issues on which the plaintiffs bear the

198a
burden of proof at trial, the defendants are not
required to “support [their] motion with affidavits or
other similar material negating the opponent’s
claim.” Celotex Corp. v. Catrett, 477 U.S. 317, 323,
106 S.Ct. 2548, 2553, 91 L.Ed.2d 265 (1986). Instead,
the moving parties simply may “ ‘show [ ]’ – that is,
point [ ] out to the district court – that there is an
absence of evidence to support the nonmoving
part[ies’] case.” Id. at 324, 106 S.Ct. at 2554. If the
moving parties show the absence of a triable issue of
fact, “[t]he opposing part[ies] must demonstrate that
a triable issue of fact exists; they may not rest upon
mere allegations or denials.” Shaw v. Stroud, 13 F.3d
791, 798 (4th Cir.), cert. denied, 513 U.S. 813, 115
S.Ct. 67, 130 L.Ed.2d 24 (1994).
In their summary judgment brief, Sealey and
Locklear pointed out to this Court that “plaintiffs
have brought forward no evidence that the alleged
constitutional violations were caused by an official
custom or policy of the Sheriff’s Office. . . .” (Defendants’
summary judgment brief, p. 29). Moreover, defendants
went a step further, introducing evidence
affirmatively showing that, assuming arguendo that
plaintiffs’ constitutional rights were violated, they
were not violated as a result of any official policy of
the Sheriff’s Office. (Affidavit of Sealey). In response,
plaintiffs have introduced no evidence regarding the
official policies or customs of the Sheriff’s Office.
Thus, Sealey, and Locklear – in their official capacity
– are entitled to summary judgment as to plaintiffs’
claim for “Municipal Liability.”
Plaintiffs appear to be arguing that because
defendants Sealey and Locklear were working with
Chief Haggins of Red Springs when plaintiffs

199a
confessed, somehow Haggins could make official
policy for the Sheriff’s Office under Monell. (See
plaintiffs’ response, p. 25, pars. 75-76). The plaintiffs
cite no authority for this bizarre proposition, and,
indeed, no such authority exists.
Also, plaintiffs cite defendant Sealey’s
deposition (D.E. 139-5, pp. 33-34) for the proposition
that the Sheriff’s Office “did not have any
policies…from 1983 through 1994/95….” (Plaintiffs’
response, pp. 25-26). This is a misrepresentation of
Sealey’s testimony. In fact, Sealey testified that no
written policy or procedure manual existed until 1994
or 1995. However, an official policy or custom under
Monell need not be written. See, e.g., Pembaur v. City
of Cincinnati, 475 U.S. 469, 480-1, 106 S.Ct. 1292
(1986) (stating that an “official policy” under Monell
“often refers to formal rules or understandings” that
are “not always committed to writing….”). Sealey’s
affidavit, which is uncontradicted, shows that the
Sheriff’s Office did in fact have policies during the
relevant time period, and that, assuming arguendo
that plaintiffs’ constitutional rights were violated,
they were not violated as a result of any official policy
of the Sheriff’s Office.
Plaintiffs also appear to be attempting to assert
a “Municipal Liability” claim under Section 1983 for
failure to train. (Plaintiffs’ response, pp. 24-25, Point
V and par. 77). However, such a claim by plaintiffs
fails as a matter of law. As the Fourth Circuit has
stated:
[A] failure to train can constitute a “policy
or custom” actionable under section 1983
only where the “municipality’s failure to

200a
train its employees in a relevant respect
evidences a ‘deliberate indifference’ to the
rights of its inhabitants.” City of Canton
[v. Harris, 489 U.S. 378, 388, 109 S. Ct.
1197, 1205-7, 103 L. Ed. 2d 412 (1989)];
Mitchell v. Aluisi, 872 F.2d 577, 581 (4th
Cir. 1989); Spell [v. McDaniel, 824 F.2d
1380, 1390 (4th Cir. 1987)]. And only if,
“in light of the duties assigned to specific
officers or employees, the need for more or
different training is so obvious, and the
inadequacy so likely to result in the
violation of constitutional rights,” can a
municipality reasonably “be said to have
been deliberately indifferent to that
need.” City of Canton, 489 U.S. at 390,
109 S. Ct. at 1205. Mere negligence is
insufficient to impose section 1983
liability on a municipality for alleged
failure to train. The specifically identified
deficiency in training also must be shown
to have in fact caused the ultimate
violation. Id. at 391, 109 S. Ct. at 1206;
Spell, 824 F.2d at 1390. Moreover, neither
a policy or custom of deficient training nor
the required causal connection can be
shown by proof of a single incident of
unconstitutional activity alone.
Jordan by Jordan v. Jackson, 15 F.3d 333, 341 (4th
Cir. 1994). Plaintiffs have not come forward with any
evidence to establish any of the above elements. In
fact, Sealey’s supplemental affidavit, which is
attached, shows that the training was more than
adequate. Thus, plaintiffs’ purported Monell claim for
failure to train fails as a matter of law.

201a
The only “evidence” cited by plaintiffs
regarding training is Sealey’s testimony that he did
not recall “receiv[ing] specific training on office
policies, procedures, an employee handbook or
anything like that” between 1974 and 1983.
(Plaintiffs’ response, p. 26, par. 78, citing D. E. 139-5,
p. 34). Sealey’s testimony that he did not recall being
specifically trained on “office policies [or] procedures”
or “an employee handbook or anything like that” does
not come remotely close to the evidence plaintiffs
would need to support a Section 1983 Monell claim for
inadequate training.
Plaintiffs also appear to be attempting to assert
a claim under 42 U.S.C. § 1983 for failure to provide
proper supervision. (Plaintiffs’ response, p. 25, par.
77). The elements necessary to establish supervisory
liability under Section 1983 are: (1) that the supervisor
had knowledge that his subordinate was engaged in
conduct that posed “a pervasive and unreasonable
risk” of constitutional injury to citizens; (2) that the
supervisor’s response was so inadequate as to show
“deliberate indifference to or tacit authorization of the
alleged offensive practices”; and (3) that there was an
“affirmative causal link” between the supervisor’s
inaction and the particular constitutional injury
suffered by the plaintiffs. See, e.g., Wilkins v.
Montgomery, 751 F.3d 214, 226-27 (4th Cir. 2014).
However, plaintiffs have failed to bring forward any
evidence of the above elements necessary to establish
a claim for inadequate supervision.
The plaintiffs appear to be arguing that their
claim for inadequate supervision is “evidenced” by the
fact that defendants Sealey and Locklear were
working with Chief Haggins of the Red Springs Police

202a
Department. (Plaintiffs’ response, p. 25, par. 77).
However, the fact that the Sheriff’s Office was
working in concert with the Town of Red Springs and
the SBI to investigate the murder and rape of Buie
does not constitute evidence of an inadequate
supervision claim under Section 1983. Plaintiffs’
apparent suggestion to the contrary is without merit.2
CONCLUSION
Based on the foregoing arguments and
authorities, as well as the arguments and authorities
contained in defendants’ summary judgment brief
and defendants’ response, the defendants Sealey and
Locklear respectfully submit that their motion for
summary judgment should be granted.
2017.

Respectfully submitted, this 5th day of May,
/S/ James R. Morgan, Jr.
James R. Morgan, Jr.
N.C. State Bar No.: 12496
/S/ Bradley O. Wood
Bradley O. Wood
N.C. State Bar No.: 22392
WOMBLE CARLYLE SANDRIDGE & RICE,
A Limited Liability Partnership
One West Fourth Street
Winston-Salem, NC 27101

Contrary to plaintiffs’ argument at page 26, paragraph 81, the
case of Stockton v. Wake County, 173 F. Supp. 3d 292 (E.D.N.C.
2016) does not deal with “the same issue” as the instant case.
The Stockton decision does not affect the fact that, under wellestablished law, the defendants are entitled to summary
judgment as to plaintiffs’ Section 1983 claim for “Municipal
Liability.”
2

203a
Telephone: (336) 721-3600
Facsimile: (336) 721-3660
E-mail: jmorgan@wcsr.com
E-mail: bwood@wcsr.com
Counsel for Defendants Kenneth Sealey,
individually and in his official capacity as the
Sheriff of Robeson County, and Robert E.
Price, as Administrator C.T.A. of The Estate
of Joel Garth Locklear, Sr.
CERTIFICATE OF SERVICE
This is to certify that on May 5, 2017, the
undersigned caused to be served the foregoing
REPLY BRIEF IN SUPPORT OF MOTION FOR
SUMMARY JUDGMENT (ON BEHALF OF
DEFENDANTS ROBERT E. PRICE, AS
ADMINISTRATOR C.T.A. OF THE ESTATE OF
JOEL GARTH LOCKLEAR, AND KENNETH
SEALEY) upon the following addressees via firstclass mail.
Jaime T. Halscott
Patrick M. Megaro
Halscott Megaro, P.A.
33 East Robinson Street
Suite 220
Orlando, FL 32801
Email: jhalscott@halscottmegaro.com
Email: pmegaro@appealslawgroup.com
Scott Brettschneider
118-35 Queens Boulevard, Suite 400
Forest Hills, NY 11375
Email: scottfreelaw@aol.com
Counsel for Plaintiffs

204a
Hal F. Askins
Special Deputy Attorney General
J. Joy Strickland
Assistant Attorney General
N.C. Department of Justice
P. O. Box 629
Raleigh, NC 27602-0629
Email: haskins@ncdoj.com
Email: jstrickland@ncdoj.com
Counsel for Defendants Kenneth Snead and Leroy
Allen
Garris Neil Yarborough
Timothy C. Smith, Jr.
Yarborough Winters & Neville, P.A.
P. O. Box 705
Fayetteville, NC 28302-0705
Email: gnyesq@ywnlaw.com
Email: timsmith@ywnlaw.com
Counsel for Defendants Town of Red Springs, Larry
Floyd, and Paul Canady, Administrator of the Estate
of Luther Haggins
Dan M. Hartzog
Dan M. Hartzog, Jr.
Katherine M. Barber-Jones
Cranfill Sumner & Hartzog, LLP
Post Office Box 2708
Raleigh, NC 27611
Email: dmh@cshlaw.com
Email: dhartzogjr@cshlaw.com
Email: kbarber-jones@cshlaw.com
Counsel for Defendant Town of Red Springs

205a
John Stewart Butler , III
Anderson, Johnson, Lawrence & Butler, LLP
P. O. Box 53945
Fayetteville, NC 28305-3945
Email: jsbutler@andersonjohnson.com
Counsel for Defendants Town of Red Springs, Larry
Floyd, and Paul Canady, Administrator of the Estate
of Luther Haggins
/S/ Bradley O. Wood
Bradley O. Wood
N.C. State Bar No.: 22392
WOMBLE CARLYLE SANDRIDGE & RICE,
A Limited Liability Partnership
One West Fourth Street
Winston-Salem, NC 27101
Telephone: (336) 728-7012
Facsimile: (336) 726-6913
E-mail: bwood@wcsr.com
Counsel for Defendants Kenneth Sealey,
individually and in his official capacity as the
Sheriff of Robeson County, and Robert E.
Price, as Administrator C.T.A. of The Estate
of Joel Garth Locklear, Sr.

206a
ATTACHMENT 1
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
NORTH CAROLINA WESTERN DIVISION
Case No. 5:15-cv-00451-BO
HENRY LEE MCCOLLUM )
and J. DUANE GILLIAM, )
as Guardian of the Estate )
of LEON BROWN,
)
)
Plaintiffs,
) SUPPLEMENTAL
AFFIDAVIT OF
)
v.
) KENNETH SEALEY
)
TOWN OF RED
)
SPRINGS, et al.,
)
)
Defendants.
)
The undersigned, Kenneth Sealey, hereby
states the following:
1.
My name is Kenneth Sealey. I am over
18 years of age, suffer from no legal disability, and
have personal knowledge of the information set forth
in this Affidavit. I am a named defendant in this
matter, having been sued in my official capacity as the
Sheriff of Robeson County, North Carolina, and also
in my individual capacity. This Supplemental
Affidavit does not contradict my deposition testimony
or my prior affidavit, but merely provides
supplementary information regarding the training

207a
and certification of Robeson County Sheriff’s Deputies
in the early 1980s.
2.
Beginning in 1980, the North Carolina
Criminal Justice Education and Training Standards
Commission held authority over the minimum
employment, training and retention standards for all
law enforcement officers in North Carolina, including
Sheriffs and their deputies. The Robeson County
Sheriff’s Office fell under the jurisdiction of the North
Carolina Criminal Justice Education and Training
Standard Commission. All deputies, including myself,
undertook and completed the mandatory training
required by the North Carolina Criminal Justice
Education and Training Standard Commission,
including annual in-service training. Sheriff’s
deputies, including myself, completed the training
curriculum mandated by the North Carolina Criminal
Justice
Education
and
Training
Standard
Commission, doing soat various locations, including
the Robeson County Sheriff's Office in Lumberton, at
Robeson Community College, at the North Carolina
Justice Academy, and at other locations throughout
the State. I am not aware of any time in which my
training and certifications, or that of any other
Robeson County Deputy Sheriff that I can recall, was
determined to be deficient either by the North
Carolina Criminal Justice Education and Training
Standard Commission or by any other authority.
3.
In 1983, the North Carolina General
Assembly established the North Carolina Sheriffs’
Education and Training StandardsCommission to
govern the employment, training and certification of
Sheriffs personnel. As the North Carolina Criminal
Justice Education and Training Standards Commission

208a
had done before it, the North Carolina Sheriffs’
Education and Training StandardsCommission
promulgates and oversees statewide standards for the
employment, training, certification and retention of
Sheriffs personnel across North Carolina, including
Robeson County. As we had done before, Sheriff’s
deputies, including myself, continued to undergoboth
an initial entry training curriculum as well as an
annual training curriculum propounded by the North
Carolina
Sheriffs’
Education
and
Training
StandardsCommission, doing so at the Robeson
County Sheriff’s Office, Robeson Community College,
the North Carolina Justice Academy, and in other
locations throughout the State. Again, I am not aware
of any time in which my training and certifications, or
that of any other Robeson County Deputy Sheriff that
I can recall, was determined to be deficient either by
the North Carolina Sheriffs’ Education and Training
StandardsCommission or by any other authority.
4.
North Carolina Sheriffs’ Education and
Training StandardsCommission continues to certify
all Sheriff's personnel across the State of North
Carolina, including those of the Sheriff of Robeson
County,
and
oversees
the
establishment,
maintenance and revision of the training curriculum.
5.
According to personnel records, at no
time has there ever been any Robeson County Deputy
Sheriff named Herman Leon Oxendine. In my more
than forty years with the Robeson County Sheriff's
Office, I do not recall any Deputy named Herman
Leon Oxendine. This individual may have been a Red
Springs Police Officer, or with some other law
enforcement agency, but he was not a Robeson County
Deputy Sheriff.

209a
/s/
KENNETH SEALEY
SUBSCRIBED and SWORN to before me
This 5th day of MAY, 2017.
/s/
Notary Public
My Commission Expires 2/13/2018

210a
[ENTERED: August 13, 2019]
RECORD NOS. 18-1366(L); 18-1402
In The
United States Court of Appeals
For The Fourth Circuit
J. DUANE GILLIAM, Guardian of the Estate of
Leon Brown; RAYMOND C. TARLTON,
Guardian Ad Litem for Henry Lee McCollum,
Plaintiffs – Appellees,
and
HENRY LEE MCCOLLUM; LEON BROWN;
GERALDINE BROWN RANSOM, Guardian of
Leon Brown; KIMBERLY PINCHBECK, as
limited guardian and conservator of the Estate
of Henry Lee McCollum,
Plaintiffs,
v.
KENNETH SEALEY, both individually and in
his official capacity as the Sheriff of Robeson
County; ROBERT E. PRICE, Administrator
C.T.A. of the Estate of Joel Garth Locklear, Sr.;
KENNETH SNEAD; LEROY ALLEN,
Defendants – Appellants,
and
ROBESON COUNTY; TOWN OF RED SPRINGS;
JOEL GARTH LOCKLEAR; LARRY FLOYD;
ESTATE OF LUTHER HAGGINS; GERALDINE
BRITT HAGGINS, as Administratix/Executrix

211a
of the Estate of Luther Haggins; PAUL
CANADY, Administrator C.T.A of the Estate of
Luther Haggins; FAYETTEVILLE OBSERVERTIMES; ASSOCIATED PRESS; WTVD
TELEVISION LLC; CHARLOTTE OBSERVER,
Defendants.
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE EASTERN
DISTRICT OF NORTH CAROLINA
AT RALEIGH
APPELLANTS KENNETH SEALEY AND
ROBERT E. PRICE, ADMINISTRATOR C.T.A.
OF THE ESTATE OF JOEL GARTH
LOCKLEAR, SR.’S PETITION FOR
REHEARING AND PETITION FOR
REHEARING EN BANC
James R. Morgan, Jr.
Bradley O. Wood
WOMBLE BOND DICKINSON (US) LLP
1 West 4th Street
Winston-Salem, North Carolina 27101
(336) 721-3600
Counsel for Appellants K. Sealey & R. Price
THE LEX GROUP
i 1108 East Main Street i Suite 1400 i
Richmond, VA 23219 i (800) 856-4419 i
Fax: (804) 644-3660 i www.thelexgroup.com

212a
*

*

*

Appellants Kenneth Sealey and Robert E.
Price, Administrator C.T.A. of the Estate of Joe
Garth Locklear, Sr., through counsel, hereby file this
Petition for Rehearing and Petition for Rehearing En
Banc, pursuant to Rules 35 and 40 of the Federal
Rules of Appellate Procedure.
INTRODUCTION AND STATEMENT OF
COUNSEL
As explained in detail below, in the
professional judgment of the undersigned counsel,
the July 30, 2019 panel opinion issued in this case
(hereafter “panel opinion”) is in conflict with binding
Supreme Court and Fourth Circuit precedent on
issues of critical importance; therefore, consideration
by the full court is necessary to ensure that the
Fourth Circuit decision in this case does not conflict
with binding Supreme Court authority, and secure
and maintain uniformity of this Circuit’s decisions.
STATEMENT OF THE COURSE OF
PROCEEDINGS
Plaintiffs filed suit against a number of
defendants, including Kenneth Sealey and Joel
Garth Locklear, Sr., arising out of the alleged
wrongful arrests and convictions of plaintiffs. 1
Plaintiffs asserted the following claims: (1) a
claim under 42 U.S.C. § 1983 for “false arrest” (JA
Shortly after being served, Officer Locklear passed away.
Thereafter, Robert E. Price, as Administrator C.T.A. of the
Estate of Joel Garth Locklear, Sr., was substituted as a party.
In an attempt to avoid confusion, this Petition will refer to this
defendant as “Locklear.”

1

213a
134-136); (2) a claim under 42 U.S.C. § 1983 for
“malicious prosecution” (JA 140-142); and (3) a claim
under 42 U.S.C. § 1983 for “deprivation of due
process” (JA 136-140).
Defendants moved for summary judgment on
all claims. In an Order dated March 1, 2018, the
district court denied the motions for summary
judgment of Sealey and Locklear in their individual
capacities as to all claims, rejecting the officers’
claims of entitlement to qualified immunity. In so
ruling, the district court failed to fulfill its duty to
analyze each claim of plaintiffs as to each individual
defendant. Instead, the district court stated that, “in
light of plaintiffs’ allegations that defendants worked
in concert to deny the plaintiffs their constitutional
rights, as well as the specifics regarding the
grouping of SBI and Robeson County defendants to
engage
in
different
aspects
of
plaintiffs’
interrogations, arrests, and investigations, the Court
will not at this time attempt to parse the liability of
each officer as it relates to each claim.” (JA 330). In
other words, the district court declined to apply the
qualified immunity analysis to the specific actions of
Sealey and Locklear at the Rule 56 stage; instead,
the district court postponed a ruling on Sealey and
Locklear’s qualified immunity claims until trial.
This was clear error under binding Supreme Court
and Fourth Circuit authority.
The panel opinion issued its decision on July
30, 2019. The panel opinion erroneously held that it
was permissible for a district court to fail to fulfill its
duty to analyze each individual defendant’s
entitlement to qualified immunity as to each claim

214a
at the Rule 56 stage. (Panel opinion, p. 21). More
particularly, the panel opinion held that the district
court could disregard its duty to analyze each
individual defendant’s entitlement to qualified
immunity at the Rule 56 stage – and, therefore,
postpone ruling on each officer’s entitlement to
qualified immunity until trial – because (1) the facts
were “convoluted”; (2) the facts “have yet to be
resolved” at trial; (3) the plaintiffs “alleged” that the
officers acted in concert to violate their
constitutional rights; and (4) the panel opinion
mistakenly stated that Sealey and Locklear did not
argue to the district court that these officers were
entitled to qualified immunity based on each officer’s
individual actions. (Panel opinion, pp. 20-21).
The panel opinion’s holding that a district
court can disregard its duty to analyze each
individual officer’s entitlement to qualified immunity
at the Rule 56 stage is clearly erroneous. Under
binding Supreme Court and Fourth Circuit
precedent, a district court (and a Circuit Court
hearing the appeal de novo): (1) must rule upon the
qualified immunity issue at the earliest possible
stage of the proceeding; (2) must not postpone a
ruling on qualified immunity until after the Rule 56
stage; (3) must hold plaintiffs to their burden of
showing that each officer, through his own personal
actions, violated the Constitution; and (4) must
properly apply the qualified immunity test at the
Rule 56 stage by analyzing whether each individual
officer is entitled to qualified immunity as to each
claim. This is explained in more detail below.

215a
REASONS WHY A REHEARING EN BANC
SHOULD BE GRANTED
I. THE PANEL OPINION IS IN CONFLICT
WITH
BINDING
SUPREME
COURT
PRECEDENT IN ITS RULING THAT THE
DISTRICT COURT WAS NOT REQUIRED
TO PROPERLY APPLY THE QUALIFIED
IMMUNITY ANALYSIS AT THE RULE 56
STAGE AS TO EACH OFFICER AND EACH
CLAIM
A. A District Court Must Rule Upon the
Qualified Immunity Issue, As to Each
Individual Officer and Each Claim, at the
Rule 56 Stage And Cannot Postpone the
Ruling Until Trial
Under binding United States Supreme Court
precedent, when an officer seeks a ruling from a
district court that he or she is entitled to qualified
immunity, the court is “required to rule upon the
qualified immunity issue” at the earliest possible
stage of the proceedings. See Saucier v. Katz, 533
U.S. 194, 200-201, 121 S.Ct. 2151, 2156 (2001). This
is because qualified immunity is “an entitlement not
to stand trial or face the other burdens of litigation,”
Mitchell v. Forsyth, 472 U.S. 511, 526 (1985), and it
is therefore important to “resolv[e] immunity
questions at the earliest possible stage of litigation.”
Hunter v. Bryant, 502 U.S. 224, 227, 112 S.Ct. 534
(1991) (per curiam). See also, e.g., Ashcroft v. Iqbal,
556 U.S. 662, 672 and 684-5 (2009); Saucier, 533
U.S. at 201; Harlow v. Fitzgerald, 457 U.S. 800, 818
(1982).

216a
Indeed, this Circuit has specifically held that
the failure of a district court to rule on the question
of qualified immunity raised by an officer’s
dispositive motion is error, and immediately
appealable. See, e.g., District of Columbia v. Trump,
___ F.3d ___ (4th Cir. 2019); Nero v. Mosby, 890 F.3d
106, 125 (4th Cir. 2018); Jenkins v. Medford, 119
F.3d 1156, 1159 (4th Cir. 1977).
Thus, it was error for the panel opinion to
hold that a district court does not have to analyze
each individual defendant’s entitlement to qualified
immunity at the Rule 56 stage, but instead can
postpone such a ruling until later.
1. The duty of the district court and the
Fourth Circuit panel to properly apply the
qualified immunity analysis at the Rule
56 stage as to each officer and each claim
is not excused because the facts are
“convoluted”
The district court was not excused from
properly applying the qualified immunity analysis to
Sealey and Locklear as to each claim because the
facts are “convoluted” or because the facts have yet
to be fully resolved. Instead, the district court and
the panel must analyze Sealey and Locklear’s
entitlement to qualified immunity at the Rule 56
stage by viewing the evidence in the light most
favorable to plaintiffs. See, e.g., Danser v.
Stansberry, 772 F.3d 340, 345 (4th Cir. 2014); Brown
v. Gilmore, 278 F.3d 362, 266 fn. 2 (4th Cir. 2002).
Thus, the panel opinion’s holding that a
district court need not apply the qualified immunity
test as to each officer and each claim if the facts are

217a
“convoluted” is in conflict with binding Supreme
Court and Fourth Circuit precedent.
2. The duty of the district court and the
Fourth Circuit to properly apply the
qualified immunity analysis at the Rule 56
stage as to each officer and each claim is
not excused in cases where plaintiffs
“allege” that officers acted in concert
Under binding Supreme Court precedent, in
order to hold any individual liable under Section
1983, plaintiffs must “prove that each Governmentofficial defendant, through the official’s own
individual actions, has violated the Constitution . . . .
[E]ach Government official . . . is only liable for his
or her own misconduct.” Ashcroft v. Iqbal, 556 U.S.
676-77 (2009). This is relevant to the first prong of
the Saucier qualified immunity analysis. Saucier v.
Katz, 533 U.S. 194, 201 (2001).
Correspondingly, under binding Fourth
Circuit precedent, in order to hold any officer liable
under Section 1983, plaintiffs must show that each
officer “acted personally in the deprivation of
plaintiff’s rights.” Wright v. Collins, 766 F.2d 841,
850 (4th Cir. 1985), quoting Vinnedge v. Gibbs, 550
F.2d 926, 928 (4th Cir. 1977). This is because
“liability is personal, based upon each defendant’s
own constitutional violations.” Trulock v. Freeh, 275
F.3d 391, 402 (4th Cir. 2001).
The Tenth Circuit’s decision in Pahls v.
Thomas, 718 F.3d 1210 (10th Cir. 2013) contains an
instructive articulation of how the binding Supreme
Court authority must be applied in cases involving
multiple individual defendants:

218a
But common to all § 1983 . . . claims is
the requirement that liability be
predicated on a violation traceable to a
defendant-official’s “own individual
actions.” Iqbal, 556 U.S. at 676 . . . .
. . . . To make out viable § 1983 . . . claims
and to overcome defendants’ assertions
of qualified immunity, plaintiffs here
must establish that each defendant –
whether by direct participation or by
virtue of a policy over which he possessed
supervisory responsibility – caused a
violation of plaintiffs’ clearly established
constitutional rights . . . . Plaintiffs must
do more than show that their rights
“were violated” or that “defendants,” as
a collective and undifferentiated whole,
were responsible for those violations . . . .
They must identify specific actions
taken by particular defendants . . .
that violated their clearly established
constitutional rights . . . . Failure to make
this showing . . . dooms plaintiffs’ §
1983 . . . claims and entitles defendants
to qualified immunity.
718 F.3d at 1225-26, 28.
Thus, the panel opinion’s holding, that a court
need not apply a qualified immunity analysis as to
each individual officer and each claim if a plaintiff
“alleges” that defendants acted in concert, is in
direct conflict with binding Supreme Court and
Fourth Circuit authority. To hold otherwise would
mean that a plaintiff could defeat an individual

219a
officer’s entitlement to qualified immunity simply by
alleging that the officer “acted in concert” with other
defendants.
The district court and the panel opinion’s
error in this regard is significant to Sealey and
Locklear, because plaintiffs have not shown that
Sealey and Locklear acted personally with regard to
a number of plaintiffs’ claims.
As noted by the district court, Locklear did not
participate in the interview of McCollum. (JA 319).
Thus, Locklear is entitled to qualified immunity for
any claim relating to McCollum’s confession.
It is undisputed that Sealey was not present
for the questioning of Brown. (JA 548, 555-556, 660661). Therefore, Sealey cannot be held liable for any
claims arising out of Brown’s confession.
As to plaintiffs’ due process claim regarding
Sinclair changing his story on October 5, 1984, there
is absolutely no evidence that Sealey or Locklear had
anything to do with that. (JA 354, 807-813, 1177).
Therefore, Sealey and Locklear are entitled to
qualified immunity as to this claim.
The panel opinion held that officers violated
Brady because “once officers identified Artis as a
suspect [in the Buie rape and murder], they were
obligated to disclose this exculpatory information.”
(Panel opinion, pp. 39-40). However, there is no
evidence that Sealey or Locklear ever considered
Artis to be a suspect in the Buie case.
due

The panel opinion states that the plaintiffs’
process claim for failure to adequately

220a
investigate included the failure to test Artis or
Sinclair’s fingerprints.
(Panel opinion, p. 43).
However, neither Sealey nor Locklear had any
involvement or responsibility whatsoever in processing
the physical evidence, including fingerprints. (JA
1560). Therefore, Sealey and Locklear are entitled
to qualified immunity regarding this claim.2
In short, the panel opinion’s holding, that a
court need not apply the qualified immunity analysis
as to each officer and each claim in cases where a
plaintiff “alleges” the officers acted in concert, is in
direct conflict with binding Supreme Court and
Fourth Circuit authority.
3. The duty of the district court and the
Fourth Circuit panel to properly apply the
qualified immunity analysis at the Rule 56
stage as to Sealey and Locklear is not
excused where, as here, Sealey and
Locklear properly raised the qualified
immunity defense
The panel opinion erroneously states that the
defendants “did not raise individualized qualified
immunity arguments before the district court, but
instead asserted collective qualified immunity
defenses,” and that the defendants “did not argue
before the district court that individual officers were
entitled to qualified immunity based on the officers’
individual actions. . . .” (Panel opinion, pp. 20-21)
Also, as Judge Richardson’s dissenting opinion correctly
stated, Sealey and Locklear are entitled to qualified immunity
as to plaintiffs’ due process claims regarding the alleged failure
to investigate, Sinclair changing his story, and alleged failure
to disclose that Roscoe was a suspect because “these alleged
due process rights were not clearly established in 1983.”

2

221a
(emphasis in original). This is simply not true. In
Sealey and Locklear’s summary judgment brief, the
undersigned counsel explained the law of qualified
immunity, and argued that Sealey and Locklear, in
their individual capacities, were entitled to qualified
immunity, explaining that the qualified immunity
analysis “must be particularized to the facts of the
case,” and that “reasonable officers in the specific
factual scenario faced by Sealey and Locklear could
have believed that their conduct was lawful.” (See
D.E. 167, pp. 25-28, attached as Exhibit A).
Similarly, in defendants Sealey and Locklear’s
response in opposition to plaintiffs’ motion for
summary judgment, defendants Sealey and Locklear
made the following points:
Thus, the inquiry into whether the
right was clearly established must “be
undertaken of the specific context of the
case” and “not as a broad general
proposition. . . .” Saucier v. Katz, U.S.
194, 201, 121 S.Ct. 2151, 2156 (2001).
“The relevant, dispositive inquiry in
determining whether a right is clearly
established is whether it would be clear
to a reasonable officer that his conduct
was unlawful in the situation he
confronted.” Saucier, supra. If the
right was not ‘”clearly established” in
the “specific context of the case,” that is,
if it was not “clear to a reasonable
officer” that the conduct in which he
allegedly engaged “was unlawful in the
situation he confronted,” then the law
affords immunity from suit. Saucier,
supra. In other words, officers are

222a
entitled to qualified immunity “if a
reasonable officer possessing the same
information could have believed that
his conduct was lawful.” Slattery v.
Rizzo, 939 F.2d 213, 216 (4th Cir. 1991)
(emphasis added).
In the instant case, . . . the facts
establish that Sealey and Locklear did
not violate the plaintiffs’ constitutional
rights.
However,
even
assuming
arguendo that plaintiffs’ rights may
have been violated, it was not clearly
established, at the time of the officers’
actions, that the officers’ specific actions
violated the Constitution. Thus, under
the circumstances, defendants Sealey
and Locklear in their individual
capacities are entitled to qualified
immunity . . . .
(D.E. 177, pp. 27-29, attached as Exhibit B). The
above was also incorporated into the reply brief of
Sealey and Locklear in support of their motion for
summary judgment. (D.E. 199, p. 7, attached as
Exhibit C).
Moreover, as this Court well knows, the
qualified immunity defense applies solely to
individual liability, not “collective” liability.
Therefore, the defendants Sealey and Locklear, in
asking the district court to grant summary judgment
on the basis of qualified immunity as to each and
every claim, were necessarily asking the district
court to apply the qualified immunity analyses to
individual defendants based on each defendant’s
specific actions.

223a
In short, a review of the summary judgment
briefs of defendants Sealey and Locklear reveals that
they did in fact raise individualized qualified
immunity arguments before the district court. Thus,
the statement in the panel opinion that the
defendants “did not raise individualized qualified
immunity arguments” before the district court is not
an accurate statement.3
Moreover, even if it were true that Sealey and
Locklear could have somehow made their argument
even more clear to the district court, the district
court nevertheless had a duty to analyze the
qualified immunity issues as to each defendant and
each claim.
The panel opinion’s ruling to the
contrary is in direct conflict with binding Supreme
Court authority and Fourth Circuit precedent.
II. THE PANEL OPINION’S HOLDING THAT
MARY RICHARDS’ ALLEGED STATEMENT
WAS “SUPPRESSED” UNDER BRADY IS IN
CONFLICT
WITH
FOURTH
CIRCUIT
PRECEDENT
The panel opinion held that officers violated
Brady requirements by failing to turn over an
alleged statement of Mary Richards. (Panel opinion,
As this Court can well understand, it is insulting and
demeaning to the undersigned attorneys to be accused of “not
rais[ing] individualized qualified immunity arguments before
the district court” when, in fact, the undersigned attorneys did
properly raise the qualified immunity defense before the
district court.
Therefore, the undersigned attorneys
respectfully request that, at a minimum, this Court correct the
opinion of the Fourth Circuit so that it does not erroneously
state that the defendants “did not raise individualized qualified
immunity arguments before the district court.”

3

224a
pp. 40-41). This holding is in direct conflict with a
number of Fourth Circuit decisions.
Under well established Fourth Circuit
authority, undisclosed evidence is not considered to
be “suppressed” under Brady when the criminal
defendant or his attorney could have obtained the
evidence with any reasonable diligence. See Lynn v.
Tanney, 405 Fed.Appx. 753, 762 (4th Cir. 2010).
Therefore, the Brady rule is not violated when
evidence that is not disclosed is “available to the
defendant from other sources, including diligent
investigation by the defense.” Fullwood v. Lee, 290
F.3d 663, 686 (4th Cir. 2002), quoting Stockton v.
Murray, 41 F.3d 920, 927 (4th Cir. 1994). See
United States v. Wilson, 901 F.2d 378, 381 (4th Cir.
1990) (the alleged failure to turn over an exculpatory
witness statement did not violate Brady because the
criminal defense “was free to question” the witness);
Hoke v. Netherland, 92 F.3d 1350, 1355-56 (4th Cir.
1996) (the State’s failure to disclose interviews of
three witnesses did not violate Brady where the
attorney would have discovered the witnesses if he
had conducted a “reasonable and diligent
investigation”); Barnes v. Thompson, 58 F.3d 971,
975 fn. 4 (4th Cir. 1995) (“Nondisclosure, therefore,
does not denote that no exculpatory evidence exists,
but that the government possesses no exculpatory
evidence that would be unavailable to a reasonably
diligent defendant . . . .”).
The cases of Fullwood, Stockton, Wilson,
Hoke, and Barnes are directly on point, and compel a
holding that any failure to turn over Richards’
statement did not violate Brady, because Richards
was identified by the State as an important witness;

225a
the criminal defense “was free to question” Richards;
and it would have been natural for the criminal
defense attorneys to question Richards. Thus, the
panel opinion is contrary to the Fourth Circuit
authority cited above.
With all due respect, if the Fourth Circuit
panel intended to overrule the above cases, it should
have said so. If the panel believes theses cases are
somehow distinguishable, it should explain why.
Instead, the panel completely ignored them. Either
way, Sealey and Locklear are entitled to qualified
immunity as to the Mary Richards due process claim
because a reasonable officer could have believed that
Richards’ statement was not “suppressed” under
Brady because Richards was a witness known to the
defense; the criminal defense was free to question
Richards; and any reasonable attorney would have
questioned her.
III. THE PANEL OPINION’S HOLDING, THAT
OFFICERS WERE NOT ENTITLED TO
QUALIFIED IMMUNITY AS TO PLAINTIFFS’
CONFESSIONS, IS IN CONFLICT WITH
BINDING SUPREME COURT PRECEDENT
The panel opinion held that, in the light most
favorable to plaintiffs, the plaintiffs’ verbal
confessions were involuntary, and that Sealey and
Locklear were not entitled to qualified immunity as
to plaintiffs’ alleged involuntary confessions. (Panel
opinion, pp. 31-36). This holding is in direct conflict
with binding Supreme Court precedent.
The Supreme Court has mandated that in
cases such as the instant case, “in which the result
depends very much” on the specific facts, an officer

226a
will be entitled to qualified immunity “unless
existing precedent ‘squarely governs’ the specific
facts at issue.” Kisela v. Hughes, ___ U.S. ___, 138
S.Ct. 1148, 1153 (2018) (per curiam). See also, e.g.,
District of Columbia v. Wesby, 138 S.Ct. 577, 589-90
(2018) (“It is not enough that the rule is suggested by
then-existing precedent” – it must be “beyond
debate” and “settled law.”). In the instant case, the
numerous cases cited by defendants conclusively
show that Sealey and Locklear are entitled to
qualified immunity because it was not “beyond
debate” or “settled law” in 1983 that Sealey’s and
Locklear’s specific actions, in connection with
plaintiffs’
verbal
confessions,
violated
the
Constitution. To be sure, the cases cited in the panel
opinion suggest that plaintiffs’ confessions might be
involuntary; however, the numerous cases cited by
defendants suggest otherwise.
(See Appellants’
brief, pp. 40-47, 51-54). In particular, in the case of
United States v. Wertz, 625 F.2d 1128 (4th Cir.
1980), the Fourth Circuit, explaining the facts in the
Supreme Court decision of Boulden v. Holman, 394
U.S. 478, 89 S.Ct. 1138 (1969), stated as follows:
[In] Boulden v. Holman, . . . [t]he
accused was arrested and one of the
arresting officers, in demanding that
the accused confess, told him that “he
had been wanting to kill a nigger a long
time” and he “throwed the rifle up like
he was getting ready to shoot.” When
he did not confess under these
circumstances, he was handcuffed and
put in a police car, surrounded by a
large number of white officers and an
angry, threatening crowed, all white.

227a
The chief of police then asked him to
confess, telling him that if he didn’t
confess, he (the chief) would not stop
the officer who had earlier expressed
his desire “to kill a nigger.”
Wertz, 625 F.2d at 1136. Given the extremely
coercive nature of the actions described in Wertz, a
reasonable officer could easily have believed that the
far less coercive actions alleged by plaintiffs did not
render their confessions involuntary. Put another
way, it cannot honestly be stated that Sealey and
Locklear transgressed “bright lines” or that some
precedent made it “beyond debate” in 1983 that
Sealey and Locklear’s specific actions violated the
Constitution with regard to plaintiffs’ confessions.
IV. THE IMPORTANT ISSUES RAISED IN
THIS PETITION SHOULD BE DECIDED BY
THE FOURTH CIRCUIT JUDGES SITTING
EN BANC
As the United States Supreme Court and the
Fourth Circuit have recognized, the doctrine of
qualified immunity is an important doctrine, which
deals with important interests, see, e.g., Pearson v.
Callahan, 555 U.S. 223, 231 (2009), and “protects
important values.” Fields v. Prater, 566 F.3d 381,
390 (4th Cir. 2009).
Consequently, the issues involved in this case
are of great importance to Fourth Circuit
jurisprudence. Thus, this appeal should be reheard
en banc in order to ensure that the Fourth Circuit
decision in this case does not conflict with binding
Supreme Court authority, and to secure and
maintain uniformity of decisions in this Court.

228a
CONCLUSION
Based on the foregoing discussion, arguments,
and authorities, the Appellants Kenneth Sealey and
Robert E. Price, Administrator C.T.A. of the Estate
of Joe Garth Locklear, Sr., respectfully submit that
their petition for rehearing and petition for
rehearing en banc should be granted.
Respectfully submitted, this the 13th day of
August, 2019.
/s/ James R. Morgan, Jr.
James R. Morgan, Jr.
N.C. State Bar No. 12496
Bradley O. Wood
N.C. State Bar No. 22392
WOMBLE BOND DICKINSON (US) LLP
One West Fourth Street
Winston-Salem, NC 27101
Telephone: (336) 721-3600
Facsimile: (336) 721-3660
E-mail: Jim.Morgan@wbd-us.com
E-mail: Brad.Wood@wbd-us.com
Counsel for Defendant-Appellants Kenneth
Sealey and Robert E. Price, Administrator
C.T.A. of the Estate of Joel Garth Locklear,
Sr.

229a
CERTIFICATE OF COMPLIANCE
1.

This petition complies with type-volume limits
because, excluding the parts of the document
exempted by Fed. R. App. P. 32(f) (cover page,
disclosure statement, table of contents, table
of citations, statement regarding oral
argument, signature block, certificates of
counsel, addendum, attachments):
[ X ] this brief contains [3,900] words.
[ ] this brief uses a monospaced type and
contains [state the number of] lines of text.

2.

This brief document complies with the
typeface and type style requirements because:
[ X ] this brief has been prepared in a
proportionally
spaced
typeface
using
[Microsoft Word 2016] in [14pt Times New
Roman]; or
[ ] this brief has been prepared in a
monospaced typeface using [state name and
version of word processing program] with
[state number of characters per inch and name
of type style].

Dated: August 13, 2019

/s/ James R. Morgan, Jr.
Counsel for Appellants
K. Sealey & R. Price

230a
CERTIFICATE OF FILING AND SERVICE
I hereby certify that on this 13th day of
August, 2019, I caused this Petition for Rehearing
and Rehearing En Banc to be filed electronically
with the Clerk of the Court using the CM/ECF
System, which will send notice of such filing to the
following registered CM/ECF users:
Catherine E. Stetson
Kirti Datla
Mathew J. Higgins
Hogan Levells US LLP
555 Thirteenth Street, N.W.
Washington, DC 20004
Email: cate.stetson@hoganlovells.com
Email: kirti.datla@hoganlovells.com
Email: matthew.higgins@hoganlovells.com
Counsel for Plaintiffs-Appellees
Joshua H. Stein
Matthew W. Sawchak
Brian D. Rabinovitz
Amar Majmundar
NORTH CAROLINA DEPARTMENT OF JUSTICE
Post Office Box 629
Raleigh, North Carolina 27602
Email: msawchak@ncdoj.gov
Email: brabinovitz@ncdoj.gov
Counsel for Defendants-Appellants
Kenneth Snead and Leroy Allen
/s/ James R. Morgan, Jr.
Counsel for Appellants
K. Sealey & R. Price

